PETITION FOR CERTIORARI
From 4th Circuit Court of Appeals, Case #19-1409
Originally filed in North Carolina Federal District Court, Case #2:16-cv-00061-FL
SUSAN W. VAUGHAN
v
SHANNON FOLTZ, et al.

INDEX OF APPENDICES
Appendix A: U.S. Court of Appeals for the Fourth Circuit: Vaughan v Foltz, et al.
Case No. 9-1409, Opinion, 10/20/20
Appendix A: U.S. District Court, Eastern North Carolina: Vaughan v Foltz, et al.
Case No. 2:16-cv-61-FL, Opinion 3/19/19
Appendix A: U.S. District Court, Eastern North Carolina: Vaughan v Foltz, et al.
Case No. 2:16-cv-61-FL, Magistrate Swank Recommendations, 05/08/17
Appendix A: U.S. District Court, Eastern North Carolina: Vaughan v Foltz, et al.
Case No. 2:16-cv-61-FL, Magistrate Swank Recommendations, 06/22/17
Appendix A: U.S. Court of Appeals for the Fourth Circuit: Vaughan v Foltz, et al.
Case No. 9-1409, Denial of Rehearing, 11/23/20
Appendix A: U.S. District Court, Eastern North Carolina: Vaughan v Foltz, et al. Case No. 2:16cv-61-FL, ORDER, interlocutory, 10/27/17
Appendix A: U.S. District Court, Eastern North Carolina: Vaughan v Foltz, et al. Case No. 2:16cv-61-FL, TEXT ORDER, M&R, Allowing Leave to Proceed in forma pauperis.
Appendix A: U.S. District Court, Eastern North Carolina: Vaughan v Foltz, et al. Case No. 2:16-cv61-FL, Civil Docket
Appendix D: U.S. Supreme Court, Order List: 589 U.S. Extension of time to file, 3/19/2020
Appendix Rule 13.1(f): CONSTITUTIONAL and STATUTORY PROVISIONS, RULES, LAWS
Appendix Rule 39: Motion for Leave to Proceed in forma pauperis.
Appendix: "Reaction to Triazolam," (Halcion) The Lancet, 9/8/1979; The Therapeutic
Nightmare," excerpt
Appendix extra: Audio recording of 9/23/13 A/N/D "hearing" held in N.C. Court District 1

USCA4 Appeal: 19-1409

Doc: 18

Filed: 10/09/2020

Pg: 1 of 3

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-1409
SUSAN W. VAUGHAN, an individual,
Plaintiff - Appellant,
v.

SHANNON FOLTZ, an individual; SAMANTHA HURD, an individual; KRISTEN
HARRIS, an individual; KATHLYN ROMM, an individual; RAY MATUSKO;
STEPHANIE RYDER, an individual; CHUCK LYCETT, an individual; MELANIE
CORPREW, an individual; JAY BURRUS, an individual; OFFICER DOE, an
individual; DOES 3-10; MELISSA TURNAGE; KATHERINE MCCARRON;
OFFICER MIKE SUDDUTH; OFFICER CARL WHITE; DOUG DOUGHTIE, an
individual,
Defendants - Appellees,
and
HON. ROBERT TRIVETTE, an individual; MEADER HARRISS, an individual;
HON. AMBER DAVIS, an individual; COURTNEY HULL, an individual; ASST.
DIST. ATTORNEY EULA REID, an individual; DARE COUNTY; CURRITUCK
COUNTY; KILL DEVIL HILLS; SUSAN HARMON-SCOTT, an individual;
MERLEE AUSTIN, an individual,
Defendants.

Appeal from the United States District Court for the Eastern District of North Carolina, at
New Bern. Louise W. Flanagan, District Judge. (2:16-cv-00061-FL)
Submitted: September 21, 2020

Decided: October 9, 2020

t’X. A

USCA4 Appeal: 19-1409

Doc: 18

Filed: 10/09/2020

Pg:2of3

Before KING, AGEE, and RICHARDSON, Circuit Judges.

Affirmed by unpublished per curiam opinion.

Susan W. Vaughan, Appellant Pro Se. Kathryn Hicks Shields, Assistant Attorney General,
NORTH CAROLINA DEPARTMENT OF JUSTICE, Raleigh, North Carolina;
Christopher J. Geis, WOMBLE BOND DICKINSON (US) LLP, Winston-Salem, North
Carolina; Dan M. Hartzog, Jr., HARTZOG LAW GROUP, Cary, North Carolina, for
Appellees.

Unpublished opinions are not binding precedent in this circuit.

2

USCA4 Appeal: 19-1409

Doc: 18

Filed: 10/09/2020

Pg: 3 of 3

PER CURIAM:
Susan W. Vaughan appeals the district court’s orders accepting the recommendation
of the magistrate judge, dismissing a portion of Vaughan’s 42 U.S.C. § 1983 complaint
under 28 U.S.C. § 1915(e)(2)(B), and denying relief on the remainder of Vaughan’s
complaint. We have reviewed the record and find no reversible error. Accordingly , we
affirm for the reasons stated by the district court. Vaughan v. Foltz, No. 2:16-cv-00061FL (E.D.N.C. Oct. 27, 2017 & Mar. 19, 2019). We deny as moot Vaughan’s motion to file
electronically, and we dispense with oral argument because the facts and legal contentions
are adequately presented in the materials before this court and argument would not aid the
decisional process.
AFFIRMED

3

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF NORTH CAROLINA
NORTHERN DIVISION
No. 2:16-CV-61-FL
SUSAN W. VAUGHAN, an individual
Plaintiff,
v.
SHANNON FOLTZ an individual,
SAMANTHA HURD an individual,
KRISTEN HARRIS an individual,
KATHLYN ROMM an individual,
RAY MATUSKO an individual,
STEPHANIE RYDER an individual,
CHUCK LYCETT an individual,
MELANIE CORPREW an individual,
JAY BURRUS an individual, DOES 1-10
individuals, MELISSA TURNAGE,
KATHERINE MCCARRON, OFFICER
MIKE SUDDUTH, and OFFICER CARL
WHITE,
Defendants.

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

ORDER

This matter comes before the court on motion for summary judgment filed by defendants Jay
Burrus (“Burras”), Melanie Corprew (“Corprew”), Shannon Foltz (“Foltz”), Kristen Harris
(“Harris”), Samantha Hurd (“Hurd”), Chuck Lycett (“Lycett”), Katherine McCarron (“McCarron”),
Kathlyn Romm (“Romm”), Stephanie Ryder (“Ryder”), and Melissa Tumage (“Tumage”)'
(collectively, “DSS defendants”) (DE 60); motion for summary judgment filed by defendant Ray
Matusko (“Matusko”) (DE 65); motion to dismiss filed by defendant Matusko (DE 91); motion to
dismiss filed by defendants Mike Sudduth (“Sudduth”) and Carl White (“White”) (DE 135); and
plaintiffs motion for extension of time to serve defendants Sudduth and White with complaint (DE
141). The matters have been fully briefed, and in this posture the issue raised are ripe for ruling.

Case 2:16-cv-00061-FL Document 159 Filed 03/19/19 Page 1 of 34

Ap:pcv\di*x A

For the reasons that follow, the court grants DSS defendants’ motion for summary judgment,
defendant Matusko’s motion to dismiss, and defendants Sudduth and White’s motion to dismiss;
denies as moot defendant Matusko’s motion for summary judgment; and denies as moot plaintiffs
motion for extension of time.
STATEMENT OF THE CASE
Plaintiff initiated this action by filing motion for leave to proceed in forma pauperis (“IFP”)
on August 15, 2016, accompanied by proposed complaint.1 Plaintiffs claims arise in part from
defendants ’ alleged involvement in the removal of plaintiffs adult daughter, Jennifer Vaughan, from
plaintiffs home. Plaintiffs claims also arise in part from defendants’ alleged involvement in the
removal of plaintiffs grandchild, and the child of Jennifer Vaughan, a minor child referred to as
“EJV,” from plaintiffs home.

Plaintiff originally asserted claims against defendants for

constitutional violations pursuant to 42 U.S.C. § 1983 as well as conspiracy to violate those rights.
Pursuant to 28 U.S.C. § 636(b)(1)(B) and Federal Rule of Civil Procedure 72(b), United
States Magistrate Judge Kimberly A. Swank entered memorandum and recommendation (“M&R”)
on May 8, 2017, wherein she granted plaintiffs IFP petition and recommended claims against
certain defendants alleging violations of plaintiffs Fourth Amendment rights should proceed and
plaintiffs remaining claims should be dismissed without prejudice. Plaintiff filed objections to the
M&R on May 23,2017, challenging the magistrate judge’s determinations concerning the dismissal

1 The court recounts the history of this case as relevant to the resolution of the instant pending motions where
elsewhere the court has addressed the many discovery and procedural disputes between the parties. See, e.g.. Vaughan
v. Foltz. No. 2:16-CV-61-FL, 2018 WL 4140093, at *1 (E.D.N.C. Aug. 28,2018) (DE 119) (in part granting plaintiffs
motion for amendment of number of plaintiff interrogatories for DSS defendants and denying plaintiffs motion to strike
and request for documents); March 5,2018 text order (order denying plaintiff s motion to strike); DE 131 (order denying
plaintiffs motion to strike); DE 132 (order denying plaintiffs motion for “consideration”); DE 138 (order denying
plaintiffs motion to seal); DE 155 (order denying plaintiffs motion to compel); DE 156 (order denying plaintiffs
objection to admissibility of evidence and/or motion to strike).

2

Case 2:16-cv-00061-FL Document 159 Filed 03/19/19 Page 2 of 34

recommendations. On May 24, 2017, this court noted that plaintiff had filed a 50-page objection,
on the heels of a 92-page complaint, seeking in part to clarify her operative pleading. The court
recommitted the matter to the magistrate judge pursuant to Rule 72(b)(3) to review plaintiffs
objections and address the same.
On July 10,2017, plaintiff filed objections to the supplemental M&R, entered June 22,2017,
again challenging the magistrate judge’s determinations concerning the dismissal recommendations.
Amended complaint then was filed on August 25, 2017, wherein plaintiff sought in part to add her
daughter, Jennifer Vaughan, as plaintiff.
On October 27, 2017, the court adopted some recommendations of the M&R and
supplemental M&R, undertook its own frivolity review of plaintiffs amended complaint, and
allowed the following two claims to proceed:
1)

§1983 claim against defendants Burras, Coprew, Foltz, Lycett, Ryder, Turnage,
McCarron, and Officer Does of the Kill Devil Hills police department arising under
the Fourth Amendment and

2)

§1983 procedural due process claim against defendants Burras, Corprew, Foltz,
Harris, Hurd, Lycett, Matusko, Romm, and Ryder arising under the Fourteenth
Amendment alleging injury to reputation regarding plaintiffs placement on the list
of “responsible individuals” pursuant to N.C. Gen. Stat. § 7B-311.

Vaughan v. Foltz. No. 2:16-CV-61-FL, 2017 WL 4872484, at *1 (E.D.N.C. Oct. 27, 2017),
reconsideration denied. No. 2:16-CV-61-FL, 2018 WL 1801419 (E.D.N.C. Apr. 16, 2018). With
regard to Jennifer Vaughan, the court noted that plaintiff “alleges that defendants Turnage and
McCarron are Jennifer Vaughan’s appointed guardians,” that “Jennifer Vaughan involuntarily was
committed, and apparently so remains” and that plaintiffs “attempt to add her daughter as a party
plaintiff is a blatant effort to defeat the state authorized guardianship” and “it smacks of the
unauthorized practice of law before this court,” holding a nullity plaintiffs efforts to add Jennifer
3

Case 2:16-cv-00061-FL Document 159 Filed 03/19/19 Page 3 of 34

Vaughan to this case. Id at *3.
Plaintiff thereafter filed motion to amend complaint which the court also construed as motion
for reconsideration. The court denied plaintiff s motion for reconsideration on November 22,2017,
and deemed plaintiffs motion to amend, to name “Officer Does” of the Kill Devil Hills police
department, as premature and thus denied without prejudice to timely renewal where plaintiff stated
she was then in the process of obtaining records which in the future would permit her to name those
officers.
On April 9, 2018, DSS defendants filed instant motion for summary judgment. (DE 60).
DSS defendants rely upon sworn testimony of defendants Ryder, Burrus, Lycett, McCarron,
Corprew, Foltz, Tumage, and Hull, along with the following documents from the state-court custody
proceedings concerning EJV (“custody proceedings”): state-court juvenile petition filed by certain
DSS defendants; written adjudication stipulation (“stipulation”) entered into by plaintiff, Jennifer
Vaughan, and certain DSS defendants; and order of adjudication issued by the state court,
adjudicating EJV neglected. In defense of the motion, plaintiff relies upon the following: sworn
testimony of plaintiff, Jennifer Vaughan, and William D. Banks (“Banks”), plaintiffs neighbor;
plaintiffs motion to dismiss filed in the custody proceedings; excerpts from the North Carolina
Division of Social Services JFamily Services Manual; documentation from Center for
Neurorehabilitation concerning Jennifer Vaughan; letter from plaintiff to defendants Lycett and
McCarron; evaluations of Jennifer Vaughan from CorePsych and Leigh, Brain, &Spine; and
excerpts from North Carolina Traumatic Brain Injury Advisory Counsel’s 2009-2010 annual report.
On April 11, 2018, defendant Matusko filed instant motion for summary judgment and in
support submits statement of material facts. (DE 65). Plaintiff did not file opposition but on

4

Case 2:16-cv-00061-FL Document 159 Filed 03/19/19 Page 4 of 34

November 29, 2018, as directed by the court,2 filed consolidated “supplemental response to DSS
defendants’ and defendant Matusko’s motions for summary judgment,” (DE 147), with reliance
upon the following: email from Molly Harris confirming plaintiff requested pediatrician
recommendation in mid-May 2013; various filings in the custody proceedings, including plaintiffs
edits to a statement made in court; news article; affidavit of plaintiff; and various discovery
responses submitted by defendants.3
On May 15,2018, plaintiff filed motion to amend complaint, in which plaintiff sought to add
defendants Sudduth and White, as well as additional defendants, claims, and allegations. (DE 72).
The court held, with regard to defendants Suddouth and White, that “[t]o the extent that plaintiff
seeks to join these defendants who were previously identified as [“Officer Does”] and streamline
allegations associated with this [Fourth Amendment] claim [as well as plaintiffs other remaining
claim under,,the Fourteenth Amendment]... plaintiffs motion to amend is granted.” (DE 79 at 3-4).
Plaintiff filed second amended complaint on June 20,2018, which is the operative complaint in this
case, to the extent allowed by the court.
Following plaintiffs filing of the operative complaint, on July 11,2018, defendant Matusko
filed instant motion to dismiss for failure to state a claim. (DE 91). In defense of motion, plaintiff
seeks to rely upon the following materials: select North Carolina General Statutes; plaintiff s

2 On August 28, 2018, the court allowed as follows: “Plaintiff has an additional 90 days, up to and including
November 12,2018, wherein she may respond or supplement response to defendants’ motions for summary judgment.”
Vaughan. 2018 WL 4140093, at *3. On September 5, 2018, the court reaffirmed this direction, thereby denying
plaintiffs motion for leave to submit response and surreply, filed August 31, 2018. On November 6,2018, the court
granted in part plaintiffs motion for extension of time to file response to summary judgment “solely to the extent that
plaintiff is allowed on or before November 30, 2018, to file 1) one supplemental response in opposition to DSS
defendants’ motion for summary judgment (DE 60) and/or 2) one response in opposition to defendant Matusko’s motion
for summary judgment (DE 65).” (DE 145 at 5).
Documentation submitted by plaintiff multiple times is identified only once.

5

Case 2:16-cv-00061-FL Document 159 Filed 03/19/19 Page 5 of 34

petition for judicial review requesting the state court to not place plaintiff on the responsible
individuals list (“RIL”); and email correspondence between plaintiff and her former attorney Meader
Harriss.
On July 24,2018, plaintiff filed amended motion for reconsideration, which the court denied
on August 23, 2018. (DE 111). On August 13, 2018, DSS defendants renewed their motion for
summary judgment, stating “[sjince the DSS [defendants filed their summary judgment motion, the
plaintiff has filed a Second Amended Complaint” to which DSS defendants filed answer, but
because the second amended complaint “makes the same allegations against the DSS [defendants
as the First Amended Complaint, on which said defendants filed their summary judgment motion
in April,” defendants need not refile or submit new motion. (DE 107 at 2).
On September 5, 2018, the court issued text order granting to a limited extent plaintiffs
“urgent request for correction of August 28 order,” filed September 4, 2018, stating as follows:
Plaintiff is reminded again that the following two claims have been allowed to
proceed: 1) whether plaintiffs Fourth Amendment rights were violated when her
home was entered by defendants and 2) whether her reputation was injured, and thus
her Fourteenth Amendment rights violated, by allegations concerning her placement
on the list of responsible individuals pursuant to N.C. Gen. Stat. § 7B-311.
Regarding the latter, the court has dismissed plaintiffs injury to reputation claims
except for plaintiffs claim resting upon allegations concerning plaintiffs placement
on the list of responsible individuals under N.C. Gen. Stat. § 7B-311, which the court
construes to include allegations of serious neglect. The court therefore grants
plaintiffs motion requesting “to address how the threat of the RIL and prosecution
of serious neglect were fraudulently misused in a way that violated [plaintiffs] due
process rights injuring her and her family” only to the extent these allegations are
related to plaintiffs surviving claim for injury to her reputation.
On October 1,2018, defendants Sudduth and White filed instant motion to dismiss complaint
as barred by the applicable statute of limitations pursuant to Rule 12(b)(6).4 On October 9, 2018,
4 Defendants Sudduth and White also raise motions under Rules 12(b)(2), 12(b)(4), 12(b)(5) for insufficient
service of process.

6
Case 2:16-cv-00061-FL Document 159 Filed 03/19/19 Page 6 of 34

defendants Sudduth and White filed motion for protective order and stay of discovery. On October
22, 2018, plaintiff filed the instant motion for extension of time to serve defendants Sudduth and
White with complaint. On November 6, 2018, the court granted defendants Sudduth and White’s
motion for protective order and stay of discovery and held in abeyance plaintiff s motion for
extension for time to be addressed concurrently with defendants Sudduth and White’s motion to
dismiss.
On March 8, 2019, the court directed submission of two state-court orders discussed by
plaintiff and DSS defendants in various filings, which DSS defendants timely submitted to the court
on March 11, 2019.
STATEMENT OF THE FACTS
Except as otherwise indicated below, the facts taken in light most favorable to plaintiff and
relevant to the resolution of the instant motions are summarized below.5
The DSS defendants were involved in the removal of the plaintiffs adult daughter, Jennifer
Vaughan, and her minor grandson, EJV, who is Jennifer Vaughan’s son, from the plaintiffs home
in Kill Devil Hills, North Carolina in August 2013.6 On August 13, 2013, officials from Dare
County Department of Social Services (“Dare County DSS”), accompanied by Kill Devil Hills
police officers, removed Jennifer Vaughan from the home, and, on the next day, removed EJV and

5 Regarding the limited number of facts necessary to resolve defendant Matusko’s motion to dismiss, those facts
are included as alleged by plaintiff in operative complaint. (DE 80).
6 Plaintiff offers extensive argument and purported evidence in support of her position that the removals of her
daughter and grandson were not justified, were executed by means inconsistent with North Carolina law, and were the
product of a conspiracy among defendants. However, except to the extent otherwise addressed herein, the court has
previously dismissed plaintiffs claims regarding these allegations and declines to address again these arguments. See
Vaughan. 2017 WL 4872484; see also District of Columbia Court of Anneals v. Feldman. 460 U.S. 462,482-84 (1983)
(holding that federal courts have “no authority to review final judgments of a state court injudicial proceedings”).

7

Case 2:16-cv-00061-FL Document 159 Filed 03/19/19 Page 7 of 34

■ •.

placed him in foster care.7 On September 18,2013, Dare County DSS filed a petition alleging that
plaintiffs grandson was dependent and neglected. (DE 108 at 2; DE 62

2; DE 63-8 at 5-10

(petition alleging EJV dependent and neglected)). Dare County DSS obtained guardianship over
Jennifer Vaughan.
Although the parties disagree as to why, with DSS defendants alleging possible conflict of
interest and plaintiff alleging “just another unlawful tactic DSS used,” the parties agree that Dare
County DSS thereafter transferred responsibility for EJV to Currituck County Department of Social
Services (“Currituck County DSS”). (DE 108 at 3-4; DE 62

5). After custody proceedings

concluded, EJV was adopted by unnamed persons, and Jennifer Vaughan was involuntarily
committed at least once. See Vaughan v. Vaughan. 806 S.E.2d 80 (N.C. Ct. App. 2017), review
denied sub nom. Matter of E. J. V., 370 N.C. 581,809 S.E.2d 873 (2018). and cert, denied. 139 S. Ct.
252, 202 L. Ed. 2d 168 (U.S. 2018), reh’g denied. 139 S. Ct. 589, 202 L. Ed. 2d 422 (U.S. 2018).
A.

Facts Related to Fourth Amendment Claims
1.

July 16, 2013, Incident

In July 2013, social workers and Kill Devil Hills police officers came to plaintiffs house
with a court order, which plaintiff only saw briefly; plaintiff allowed entry under duress. (See DE
80 fflj 57-59 (“The following day what appeared to [pjlaintiff to be a SWAT Team consisting of
several Kill Devil Hills Police officers wearing padded vests and carrying guns, along with several
DSS caseworkers, demanded entrance into [pjlaintiff s home. They carried an order, a copy of which

7 Plaintiff disputes the accuracy and necessity of these allegations and the procedures employed to effectuate
these removals, but does not dispute that these removals took place. (See DE 108 at 2-3; DE 62 U 3).
8 Plaintiff disputes the number of times Jennifer Vaughan was thereafter involuntarily committed and the
legality of any and all such commitments. (See DE 108 at 4-6).

8

Case 2:16-cv-00061-FL Document 159 Filed 03/19/19 Page 8 of 34

was NOT given, only shown, quickly, to PLAINTIFF, bearing the signature of then Dare County
Clerk of Court . . . .”))•

Plaintiff alleges, against plaintiffs instructions, defendant Ryder

“interrogated” plaintiff concerning vitamins, defendants Ryder and Lycett “interrogated” Jennifer
Vaughan, defendant Lycett walked into plaintiffs room, and defendant Ryder went through
“cabinets, drawers and [the] reffigeratorf.]” (See id. fflf 58-59).9
2.

August 13, 2013, Incident

Defendants Lycett and Foltz entered plaintiff s home on August 13,2013, “without warrant
or invitation, nevertheless finding EJV well and unharmed, clean and properly clothed and in no
need of immediate or other agency assistance” and “seized” Jennifer Vaughan “based on false
allegations submitted by DEFENDANT RYDER to fraudulently obtain an order...(See id.
6, 32).10
3.

August 14, 2013, Incident

Defendant Foltz and a police officer came to plaintiffs home on August 14, 2013, and,
pursuant to a court order, took custody of EJV. (See id

4.

82).11

March 4, 2015, Incident

On March 4, 2015, defendant Tumage and a police officer attempted to enter plaintiffs
home, described by plaintiff as follows:
9 DSS defendants confirm that defendants Lycett, Ryder, and Foltz entered plaintiffs home on July 16,2013,
under the authority of an administrative search warrant issued by the clerk of court. (DE 62 Ifij 17-19).
10 DSS defendants have put forth evidence that defendants Lycett, Ryder, and Foltz entered plaintiff s home
on this date to execute an involuntary commitment order, issued by a magistrate judge, for Jennifer Vaughan. (DE 62
mi 17-19).
11 DSS defendants confirm that defendant Foltz entered plaintiffs home on August 14, 2013, in order to take
custody of EJV pursuant to order issued by a district court judge. (DE 62 fl9).

9
Case 2:16-cv-00061-FL Document 159 Filed 03/19/19 Page 9 of 34

In March 2015 . . . Kill Devil Hills police officer who refused to identify himself
came to PLAINTIFF’S home . . . with Dare DSS social worker MELISSA
TURNAGE, demanding, after forcing his foot into [pjlaintiff s doorway, preventing
the door from closing, entrance into PLAINTIFF’S home to “see the mother.” ....
one officer approached and rammed his foot in the door as the mother was closing
it. PLAINTIFF moved quickly to assist the mother, requesting if the police bad
papers. The officer answered “no,” but refused to remove his foot, while PLAINTIFF
managed to move a piece of furniture to help the mother keep the door closed and
also helped her push against the officer who continued to try to enter ....
PLAINTIFF stated numerous times that the officer was violating her constitutional
rights, and was trespassing on her property insisting that he remove his foot from her
doorway and leave her property.
When PLAINTIFF asked the officer his name, he responded only “What do you want
it to be.”.... Finally, after pushing on the door for at least 10 minutes, long enough
to argue with [p]laintiff and have the conversation stated above, and long enough for
[p]laintiff to tell the Officer multiple times that he was violating her rights,
OFFICER White or Sudduth or unnamed Officers Doe yelled that he’d be back with
papers, and he would “break down” PLAINTIFF’S door. The mother and
PLAINTIFF were both shaking violently as OFFICER DOE left, and the mother,
already trying to recover from trauma, was traumatized all over again.
Next, PLAINTIFF called a neighbor and asked him to come over with his video
camera.... Police officers did indeed return at dark, again traumatizing the mother.
Unidentified Kill Devil Hills Officers came to the door and the neighbor began
filming. He asked if the officers had papers, and they responded that they did. The
neighbor asked to see the papers - to put them up to the door window and- when the
officer did; the neighbor began filming, but the officers took it down and said he
could not film the paper, which brings into question whether or not they actually had
legal warrants.... soon thereafter [the officers] began descending the stairs to leave
the premises.
(See DE 80ffl[ 202-209; DE 108-2 (Jennifer Vaughan’s affidavit); DE 108-9 (Banks’s affidavit); DE
108-10 (plaintiffs affidavit); DE 62 ^ 20 (DSS defendants stating “[o]n one occasion, [defendant
Tumage] was with a police officer, who knocked on the door and stuck his foot in the doorway when
the plaintiff answered but quickly withdrew it, and Tumage remained outside .... This incident

10

Case 2:16-cv-00061-FL Document 159 Filed 03/19/19 Page 10 of 34

occurred on March 4, 2015)).12
In sum, although plaintiff alleges other DSS defendants had knowledge of or directed others
to enter plaintiffs home illegally the above four times, the parties agree that only four Dare County
DSS officials ever physically entered or tried to enter plaintiff s home: defendants Tumage, Lycett,
Foltz, and Ryder. (See DE 108 at 13-16; DE 62
B.

12-15).

Facts Related to Fourteenth Amendment Claims for Injury to Reputation
Plaintiff was initially named in a petition alleging serious neglect of EJV. (See DE 63-8 at

5-10). Although plaintiff disputes DSS’s authority to so allege and the legality of execution of the
petition, the parties agree that after the Currituck County DSS took over EJV’s case from Dare
County DSS, it filed a petition on September 18,2013, for a determination of custody of the child.
(DE 108 at 23; DE 62 26; DE 63-8 at 5-10). Based on her belief at that time, defendant Hull, the
DSS. attorney, checked a box on the petition form that said plaintiff had “abused or seriously
neglected” the child, though it is clear from the form that only serious neglect was alleged, not
abuse. (DE 108 at 23; DE 62

26; DE 63-8 at 5-10).13 Thereafter, plaintiff filed a petition for

judicial review of the determination that she was a responsible individual. The clerk of superior
court for Currituck County, defendant Matusko, did not calendar the petition for judicial review for
hearing.
Currituck County DSS never proceeded on the allegation of serious neglect against plaintiff.

12 In addition to the incident involving defendant Tumage described above, in which defendant Tumage did
not physically enter plaintiffs home, defendant Tumage has physically been in plaintiffs home once, at plaintiffs
invitation. Defendant Tumage alleges she has been to plaintiffs home about 15 times, which plaintiff does not dispute,
but saw the plaintiff there only twice and went inside just that one time. (DE 62 ^19; DE 108 at 8-9, 13-15,19-21).
13 The box for allegations of abuse or serious neglected was removed from state forms beginning October 1,
2013.

11
Case 2:16-cv-00061-FL Document 159 Filed 03/19/19 Page 11 of 34

At court hearing on November 18,2013, the parties entered into a stipulation in which it was agreed
that DSS would not move forward on the allegation of serious neglect, although plaintiff alleges she
was coerced into signing this stipulation. (DE 63-8 at 11-12; DE 108 at 25-26).
DISCUSSION
A.

Standard of Review
1.

Motion to Dismiss

“To survive a motion to dismiss” under Rule 12(b)(6), “a complaint must contain sufficient
factual matter, accepted as true, to ‘state a claim to relief that is plausible on its face.’” Ashcroft v.
Iqbal. 556 U.S. 662, 663 (2009) (quoting Bell Atl. Corn, v. Twomblv, 550 U.S. 544, 570 (2007)).
“Factual allegations must be enough to raise aright to relief above the speculative level.” Twomblv.
550 U.S. at 555. In evaluating whether a claim is stated, “[the] court accepts all well-pled facts as
true and construes these facts in the light most favorable to the plaintiff,” but does not consider
“legal conclusions, elements of a cause of action, . . . bare assertions devoid of further factual
enhancement[,] . . . unwarranted inferences, unreasonable conclusions, or arguments.” Nemet
Chevrolet, Ltd, v. Consumeraffairs.com. Inc.. 591 F.3d 250,255 (4th Cir. 2009) (citations omitted).
2.

Motion for Summary Judgment

Summary judgment is appropriate where “the movant shows that there is no genuine dispute
as to any material fact and the movant is entitled to judgment as a matter of law.” Fed. R. Civ. P.
56(a). The party seeking summary judgment “bears the initial responsibility of informing the district
court of the basis for its motion, and identifying those portions of [the record] which it believes
demonstrate the absence of a genuine issue of material fact.” Celotex Corp. v. Catrett. 477 U.S.
317,323 (1986).

12

Case 2:16-cv-00061-FL Document 159 Filed 03/19/19 Page 12 of 34

Once the moving party has met its burden, the non-moving party must then “come forward
with specific facts showing that there is a genuine issue for trial.” Matsushita Elec. Indus. Co. Ltdv. Zenith Radio Corp.. 475 U.S. 574, 586-87 (1986) (internal quotation omitted). Only disputes
between the parties over facts that might affect the outcome of the case properly preclude entry of
summary judgment. See Anderson v. Liberty Lobby. Inc., 477 U.S. 242, 247-48 (1986) (holding
that a factual dispute is “material” only if it might affect the outcome of the suit and “genuine” only
if there is sufficient evidence for a reasonable jury to return a verdict for the non-moving party).
“[A]t the summary judgment stage the [court’s] function is not [itself] to weigh the evidence
and determine the truth of the matter but to determine whether there is a genuine issue for trial.” Id.
at 249. In determining whether there is a genuine issue for trial, “evidence of the non-movant is to
be believed, and all justifiable inferences are to be drawn in [non-movant’s] favor.” Id at 255; see
United States v. Diebold. Inc., 369 U.S. 654, 655 (1962) (“On summary judgment the inferences to
be drawn from the underlying facts contained in [affidavits, attached exhibits, and depositions] must
be viewed in the light most favorable to the party opposing the motion.”).
Nevertheless, “permissible inferences must still be within the range ofreasonable probability,
. . . and it is the duty of the court to withdraw the case from the [factfinder] when the necessary
inference is so tenuous that it rests merely upon speculation and conjecture.” Lovelace v.
Sherwin-Williams Co.. 681 F.2d 230,241 (4th Cir. 1982) (quotations omitted). Thus, judgment as
a matter of law is warranted where “the verdict in favor of the non-moving party would necessarily
be based on speculation and conjecture.” Mvrick v. Prime Ins. Syndicate, Inc., 395 F.3d 485, 489
(4th Cir. 2005). By contrast, when “the evidence as a whole is susceptible of more than one
reasonable inference, a [triable] issue is created,” and judgment as a matter of law should be denied.

13

Case 2:16-cv-00061-FL Document 159 Filed 03/19/19 Page 13 of 34

Id. at 489-90.
B.

Analysis
The court first addresses plaintiffs claims against defendant Sudduth and White, holding

these claims are barred by the applicable statute of limitations. The court next turns to plaintiffs
constitutional claims, finding the relevant DSS defendants are entitled to qualified immunity
regarding plaintiffs Fourth Amendment and Fourteenth Amendment claims and that plaintiffs
Fourteenth Amendment claim against defendant Matusko fails to state a claim upon which relief can
be granted.
1.

Defendants Sudduth and White

Plaintiffs claims against defendants Sudduth and White are dismissed as barred by the
applicable statute of limitations. Plaintiff has been allowed to proceed on claims under § 1983,
alleging these two defendants were involved in a March 4,2015, incident that resulted in a violation
of plaintiffs Fourth Amendment rights. (See DE 80 ffl] 202-209). This is the only incident
described in the complaint involving these two defendants.
Plaintiff s § 1983 claims are subject to the three-year statute of limitations. Section 1983
does not contain a statute of limitations, but “borrow[s]” its statute of limitations from the forum
state’s “most analogous” statute of limitations. Owens v. Okure. 488 U.S. 235 (1989). Generally,
the “most analogous” statute of limitations is the one applicable to personal injury cases. In North
Carolina, the statute of limitations for personal injuries is three years. See N.C. Gen. Stat. §
1-52(16).14 Accrual of the statute of limitations, however, is a matter of federal law. Nat’l Advert.
Co. v. City of Raleigh. 947 F.2d 1158, 1162 (4th Cir. 1991). Under federal law, a cause of action
14 Under N.C. Gen. Stat. § 1-52(13), the statute of limitations for claims against public officers acting under
color of office is also three years.

14
Case 2:16-cv-00061-FL Document 159 Filed 03/19/19 Page 14 of 34

accrues when the plaintiff “possesses sufficient facts about the harm done to him that reasonable
inquiry will reveal his cause of action.” Nasim v. Warden. Md. House of Corr.. 64 F.3d 951, 955
(4th Cir. 1995).
Plaintiff alleges that she told the subject officer on the date of the incident that he was
violating her constitutional rights; thus, plaintiff knew of the alleged injury on March 4,2015, and
the statute of limitations for this alleged violation expired on March 4, 2018. Plaintiff did not file
a motion seeking to add defendants Sudduth and White as parties until May 15,2018. (DE 72). The
operative complaint naming these defendants was not filed until June 20, 2018, (DE 80), and
summonses were not issued until August 6, 2018, (DE 105).
Plaintiffs naming of “Officer Does” in the original complaint does not toll the limitations
period for her alleged claims against these defendants. Claims under § 1983 borrow the applicable
state law tolling provisions. See Hardin v. Straub, 490 U.S.. 536,539 (1985). While North Carolina
law allows a plaintiff to name a defendant as “John Doe” in initial pleadings where the actual name
of the defendant is unknown, to be later substituted when the identity of the defendant is learned,
the statute does not include a tolling provision. See, e.g.. Huggard v. Wake Ctv. Hosp. Sys., 102
N.C. App. 772, 775 (1991) (stating that “General Statutes § 1-166 does not by its terms contain a
tolling provision .... While our legislature has the power to explicitly provide for such a tolling
under the ‘John Doe’ statute, it has not done so”; listing other North Carolina statues with tolling
provisions); Penny v. Hinton. 110 F.R.D. 434, 436-37 (M.D.N.C. 1986) (finding “[n]o historical
support... for the view that fictitious name pleading statutes, such as section 1-166, had a purpose
of extending the time within which to bring actions”; concluding North Carolina legislature had not
intended to use § 1-166 for such a purpose); see generally N.C. Gen. Stat. § 1-166 (allowing

15

Case 2:16-cv-00061-FL Document 159 Filed 03/19/19 Page 15 of 34

plaintiff to file suit against a fictitious defendant “[w]hen the plaintiff is ignorant of the name of a
defendant”). As previously stated by this court, “[t]his is consistent with the North Carolina
Supreme Court’s observation that a John Doe complaint cannot be filed ‘in the hope that at a later
time the attorney filing the action may substitute the real name [of the John Doe].. . and have the
benefit of suspension of the limitation period.’” Lee v. City of Fayetteville. No. 5:15-CV-638-FL,
2016 WL 1266597, at *7 (E.D.N.C. Mar. 30, 2016) (citing Burcl v. N.C. Baptist Hosp., Inc.. 306
N.C. 214, 225 n.7 (1982)).
Nor are plaintiffs claims saved by any reliance on equitable tolling. Under North Carolina
law, equitable tolling precludes a statute of limitations defense “when a party has been induced by
another’s acts to believe that certain facts exist, and that party ‘rightfully relies and acts upon that
belief to his detriment.’” Jordan v. Crew. 125 N.C. App. 712, 720 (1997) (quoting Thompson v.
Soles. 299 N.C. 484, 487 (1980)): accord Nowell v. Great Atl. & Pac. Tea Co.. 250 N.C. 575, 579
(1959). Here, while plaintiff alleges that the subject officers refused to give their names, plaintiff
has not alleged that she was deceived by the subject officers about their identities. Rather, she
named defendants Sudduth and White after they were identified “by staff at the department, Mr.
Evans.” (DE 80 Tf 304). There is no allegation that anyone induced plaintiff to rely upon false
information about the officers’ identities that would justify equitable tolling under North Carolina
law; as such, equitable tolling does not save plaintiffs claims.15

15 In Aikens v. Ingram. 524 F. App’x 873, 882-83 (4th Cir. 2013) the Fourth Circuit held that “[w]e are thus
convinced that North Carolina is among the jurisdictions that embrace the mainstream view that equitable tolling—and
not just equitable estoppel—may serve to extend a statute of limitations,” applying the following test: “we must consider
whether defendants Ingram and von Jess received timely notice of Aikens’s claims, whether the defendants have been
prejudiced by delay of the litigation, and whether Aikens has acted with diligence.” Here, however, as discussed below,
the court finds plaintiff did not act with diligence. See also Rouse v. Lee. 339 F.3d 238 (4th Cir. 2003) (to benefit from
the doctrine of equitable tolling, one must show: 1) extraordinary circumstances, 2) beyond his control or external to his
own conduct, 3) that prevented him from filing on time).

16
Case 2:16-cv-00061-FL Document 159 Filed 03/19/19 Page 16 of 34

Finally, the court must consider whether plaintiffs claims against defendants Sudduth and
White relate back to plaintiffs original complaint. Under Rule 15(c)(1)(c) “an amendment that
changes the party against whom a claim is asserted relates back to the date of the original pleading”
if 1) the claim in both the original and amended complaint arise out of the “same transaction”; 2)
the party to be brought in by the amendment “received notice of the action such that it will not be
prejudiced in maintaining a defense to the claim”; and 3) that party “should have known that it
would have originally been named a defendant ‘but for a mistake concerning the identity of the
proper party. ’” Goodman v. Praxair. Inc., 494 F.3d 458,467 (4th Cir. 2007) (en banc) (quoting Fed.
R. Civ. P. 15(c)(l)(C)(ii)).
It is well-settled in this circuit that plaintiff should not be permitted to amend her complaint
to remove the John Doe defendants and substitute real parties, because their lack of knowledge of
the proper defendants is not considered a “mistake” under Rule 15(c)(3). See Locklear v. Bergman
& Beving AB. 457 F.3d 363,366-67 (4th Cir. 2006). To allow “would produce a paradoxical result
wherein a plaintiff with no knowledge of the proper defendant could file a timely complaint naming
any entity as a defendant and then amend the complaint to add the proper defendant after the statute
of limitations had run. In effect, this would circumvent the weight of federal case law holding that
the substitution of named parties for ‘John Doe’ defendants does not constitute a mistake pursuant
to Rule 15(c)(3).” Id, at 367
As stated by this court in Lee.
Rule 15(c)( 1 )(C)(ii) requires that the defendant to be added have notice “that but for
a mistake, it would have been a party.” rGoodman. 494 F.3d] at 471. However,
“naming Doe defendants self-evidently is no ‘mistake’ such that the Doe substitute
has received proper notice.” Id.: accord Hogan v. Fischer. 738 F.3d509,517-18 (2d
Cir. 2013); Smith v. City of Akron. 476 F. App’x 67, 69 (6th Cir. 2012); Locklear
v. Bergman &Beving AB. 457 F.3d 363, 367 (4th Cir. 2006). A “mistake” is an
17

Case 2:16-cv-00061-FL Document 159 Filed 03/19/19 Page 17 of 34

‘“error, misconception, or misunderstanding; an erroneous belief.”’ Krupski v.
Costa Crociere S.p.A., 560 U.S. 538, 548 (2010) (quoting Blacks Law Dictionary
1092 (9th ed. 2009)); accord Goodman. 494 F.3d at 470-71. Plaintiffs ignorance
of the proper party’s identity is not an error, misconception, or misunderstanding.
See Krupski. 560 U.S. at 548; see also Goodman. 494 F.3d at 471 (“The ‘mistake’
language . .. implies that the plaintiff in fact made a mistake.”). Thus, even where
plaintiff could demonstrate the proper party had notice, such notice would not be the
result of a “mistake.”
2016 WL 1266597, at *8.16
Plaintiffs claims against defendants Sudduth and White also would not relate back under
the federally-created equitable tolling doctrine employed in some courts. See Byrd v. Abate. 964
F. Supp. 140 (S.D.N.Y. 1997): see also Archibald v. City of Hartford. 274 F.R.D. 371, 376-77 (D.
Conn. 2011) (collecting cases). In Byrd, the court held that a proposed amendment to a John Doe
complaint was timely, even where the statute of limitations had run, because the defendant’s counsel
“failed to identify the [John Doe] defendant despite [the plaintiffs] [timely] requests for that
information.” Byrd. 964 F. Supp. at 146. The court implicitly tolled the statute of limitations
because defense counsel had delayed and thus had prevented plaintiff from timely amending his
John Doe complaint. In particular, the court reasoned that the amendment was timely because the
plaintiff had made diligent efforts to obtain the John Doe defendant's true identity, “information
uniquely within the knowledge of [defense counsel].” Id.
Assuming, without deciding, that Byrd’s tolling rule applies in this instance, the court
concludes that it would offer plaintiff no relief. The crux of the Byrd case was the plaintiffs timely

16 As stated in Lee, there are three basis under North Carolina law that could potentially apply to plaintiffs
claim under Rule 15(c)(1)(A): 1) tolling for John Doe complaints, under N.C. Gen. Stat. § 1-166, 2) equitable tolling,
and 3) relation back under North Carolina Rule of Civil Procedure 15. The court here rejects each of these, however,
for reasons stated above and for the same reasons provided in Lee. 2016 WL 1266597, at *9 (“neither N.C. Gen. Stat.
§ 1-166 nor equitable tolling offer plaintiff any relief.. . . Because the use of a John Doe defendant is not a mistake,
an amended complaint would go beyond correcting a mere ‘misnomer’ and would not relate back under North Carolina
law.”).

18

Case 2:16-cv-00061-FL Document 159 Filed 03/19/19 Page 18 of 34

attempts to obtain discovery.

There, the plaintiff filed his complaint in March of 1993,

approximately 18 months before the three-year limitations period expired in October of 1994. In
January of 1994, the plaintiffs counsel requested the identity of the John Doe defendant. Id. at 145.
However, through a series of procedural tactics, defense counsel kept secret that information until
January 1995, almost three months after the statute of limitations had run.
Although plaintiff filed her original petition to proceed IFP in this case on August 15,2016,
well before the statute of limitations had run on March 4, 2018, plaintiff has not shown timely
attempts to obtain discovery. On November 20, 2017, plaintiff sought to amend complaint to
identify “Officer Does,” which the court held to be premature, where plaintiff stated “she is now
obtaining police records that aid in the identification of the officers.” (DE 19 at 2).17 It was not until
May 15, 2018, however, that plaintiff again sought to amend complaint to include defendants
Sudduth and White, after the expiration of the statute of limitations period, stating that these
defendants had been “recently identified by police department staff as officers coming to [p]laintiff s
home on March 4, 2015,” but in no way indicating such information had been withheld from
plaintiff. (DE72atl).18

17 Originally, plaintiff identified the March 4,2015, incident as occurring in February. (See DE 80 f 304 (“The
incident regarding the Officers who came to [plaintiffs home in March (previously thought to be Feb.) 2015 has been
described herein above.”)). Plaintiff has stated that she “could not be certain of the exact date of the incident until
attorney for other defendants disclosed the date in one of its pleadings,” stating plaintiff “finally learned of the names
after enquiring of the police department via an email, as soon as she knew the correct date of the violation.” (DE 141
at 2). Plaintiff has additionally stated that she was unable to determine the exact date because police records requested
by plaintiff “as early as November, 2017” for the months of February and March 2015 “failed to report the details of the
visit [pjlaintiff complains of’ and are “misleading in their omissions.” (DE 150 at 3). However, review of the police ■
report submitted by plaintiff, (DE 150-2), indicate three logged incidents during this time frame, one of which is
defendant Tumage requesting police escort on March 4, 2015, which was assigned to defendant Sudduth’s unit. (See
DE 150-2 at 4). It is unclear why plaintiff was unable to determine sooner, and in a timely fashion, when the alleged
violation occurred.
18 Plaintiff has offered unpersuasive reasoning for this elapse of time, belied by the record, where plaintiff has
stated that after the incident on March 4,2015, “and earlier similar incidents, [p]laintiff was understandably afraid for
her personal safety... to go or even call the Kill Devil Hills police department and demand copies of records disclosing

19
Case 2:16-cv-00061-FL Document 159 Filed 03/19/19 Page 19 of 34

Therefore, plaintiffs operative complaint naming defendants Sudduth and White does not
relate back to the filing of any prior complaint, and does not save plaintiffs claims against these
defendants. Accordingly, plaintiffs claims against defendant Sudduth and White are dismissed as
time-barred. Given the court’s holding, it is unnecessary to address defendant Sudduth and White’s
arguments concerning sufficiency of process. Additionally, the court’s holding renders moot
plaintiffs motion for extension of time to serve defendants Sudduth and White with complaint.
2.

Constitutional Claims

Government officials are entitled to qualified immunity from civil damages so long as “their
conduct does not violate clearly established statutory or constitutional rights of which a reasonable
person would have known.” Harlow v. Fitzgerald. 457 U.S. 800, 818 (1982). In other words, a
government official is entitled to qualified immunity when 1) the plaintiff has not demonstrated a
violation of a constitutional right, or 2) the court concludes that the right at issue was not clearly
established at the time of the official’s alleged misconduct. Pearson v. Callahan. 555 U.S. 223,232
(2009). For the reasons discussed below, plaintiff has not demonstrated the violation of a
constitutional right, and the relevant defendants are therefore entitled to qualified immunity.
a.

Fourth Amendment Claims

“The Fourth Amendment protects against unreasonable searches and seizures.” Wildauer
v. Frederick Ctv.. 993 F.2d 369, 372 (4th Cir. 1993) (citing United States v. Place. 462 U.S. 696
(1983)). In the context of a qualified immunity analysis, the Fourth Circuit has explained that a
magistrate’s determination of probable cause supports an inference that an officer’s actions in
seeking an arrest warrant were objectively reasonable. Torchinskv v. Siwinski. 942 F.2d 257, 261
the officers’ names.” (DE 141 at 2; see also, e.g.. DE 80 ^ 304 (“Plaintiff spoke with Sudduth on the phone last week
and asked him, point blank if he was the one who rammed his foot in her door.”)).

20

Case 2:16-cv-00061-FL Document 159 Filed 03/19/19 Page 20 of 34

(4th Cir. 199 11: see also Goines v. Valiev Cmtv. Servs. Bd., 822F.3dl59,171 (4th Cir. 2016) (“The
presumption in Torchinskv thus was not a presumption that probable cause existed, but a
presumption of the reasonableness of the officer’s reliance on the arrest warrant.”). This inference,
though, is not dispositive. “The presumption of reasonableness attached to obtaining a warrant can
be rebutted where ‘a reasonably well-trained officer in [the defendant’s] position would have known
that his application failed to establish probable cause and that he should not have applied for the
warrant.’” Torchinskv, 942 F.2d at 261 (quoting Mallev v. Briggs, 475 U.S. 335, 345 (19861); see
also Messerschmidt v. Millender. 132S.Ct. 1235,1245 (2012) (quoting United States v. Leon, 468
U.S. 897, 922-923 (1984)) (stating warrant “is the clearest indication that the officers acted in an
objectively reasonable manner or, as we have sometimes put it, in ‘objective good faith.’”).
The presence of a warrant, or parallel court order, is relevant to the court’s qualified
immunity analysis in this case. See Torchinskv. 942 F.2d at 261 (“Thus, the decision of a detached
district judge that Siwinski satisfied the more stringent probable cause standard is plainly relevant
to a showing that he met the lower standard of objective reasonableness required for qualified
immunity.”); Fialdini v. Cote, 594 F. App’x 113, 121 (4th Cir. 2014) (citing Torchinskv, 942 F.2d
at 261) (“the fact that three judicial officers—the federal district judge, the Loudoun County district
judge, and the magistrate judge all found that probable cause existed is ‘plainly relevant to a
showing that [Deputy Cote] met the lower standard of objective reasonableness required for
qualified immunity.’”).
Plaintiff alleges four incidents wherein DSS defendants entered or attempted to enter her
home without her permission.19 The court addresses each incident in turn below.
19 The Fourth Amendment was not implicated by the one instance in which the plaintiff invited defendant
Tumage into her home.

21
Case 2:16-cv-00061-FL Document 159 Filed 03/19/19 Page 21 of 34

1.

July 16, 2013, Incident

As stated above, plaintiff alleges that in July 2013, social workers and Kill Devil Hills police
officers came to her house with a court order, which she alleges she only saw briefly, and she let
them in under duress. (DE 80

57-59). Plaintiff argues “[defendants have declined to produce

copies proving authority to enter and/or search [pjlaintiff s home,” and therefore “plaintiff asserts
that no one forcing entry into her home ever had probable cause, that no one had any right to search
through her kitchen cabinets . . . and neither Lycett nor Foltz had any authority to enter, based on
an alleged court order seeking only to speak to JV, as it was presented to [pjlaintiff in July and
August.” (DE 108 at 11-12). It appears, in sum, that plaintiff argues the order does not exist, was
not supported by probable cause, and DSS defendants did not conduct themselves consistent with
what the order directed.
DSS defendants argue that plaintiff has in her possession the relevant administrative search
warrant which was signed by the clerk of the court. DSS defendants have provided copy of this
warrant to the court in response to the court’s request.20 (See DE 158-2). The warrant authorizes
inspection of plaintiffs property based on affidavit evidence.

(See id. (“This inspection is

authorized to check or reveal the conditions, objects, activities, or circumstances indicated in the
accompanying affidavit.”). The warrant was issued based on affidavit sworn by defendant Ryder,
a medical social worker, wherein defendant Ryder testified, under oath, “there is probable cause for
believing” as follows:

20 Administrative search warrants are permitted by N.C. Gen. Stat. § 15-27.2 and require a showing by an
affiant of probable cause of the existence of facts justifying the search. See Sunkler v. Town of Nags Head. No.
2:01-CV-22-H(2), 2002 WL 32395571, at *4 (E.D.N.C. May 17, 2002), affd. 50 F. App’x 116 (4th Cir. 2002) (“The
North Carolina statutes authorizing administrative search warrants also echo familiar federal language.... The court
concludes for the same reasons set forth in section III, supra [discussing Fourth Amendment claim] that probable cause
supported the issuance of the administrative search warrant.”).

22

Case 2:16-cv-00061-FL Document 159 Filed 03/19/19 Page 22 of 34

that there is [an adult protective services] report of a disabled adult, who has a
history of mental illness that has gone untreated. Adult resides with her mother who
. . . may be abusing and neglecting the adult based on information that DSS has
received, DSS has obtained a letter written by the adult stating that she is dying and
her mother stole her wallet and keys. Adult has stated, “I’m locked away here.” ..
.. On 7/15/13 at 11:30 a.m and 2:30 p.m., SW Ryder and SW Bradley attempted a
home visit to see the adult. The first attempt, no one would answer the door. On the
second attempt, adult mother came out of the home screaming that she had been
poisoned by the air conditioner and she has no idea where her daughter was. At this
point, SW was in the driveway and adult’s mother would not let SW come to the
door to see her daughter. Adult’s mother would not allow SW to move closer to the
front door to have access to the adult. Adult’s mother brought adult to the deck and
a note was thrown over the banister to SW Ryder. At no time, did SW see the adult.
On 7/16/13 at 10:20 a.m. SW Ryder and SW Bradley went back to the home with the
Kill Devil Hills Police. At this time,.no one would answer the door.

(Id).
Plaintiff alleges this warrant, and other court orders discussed below, were secured by the
relevant DSS defendants through lies or fraud; plaintiff, however, has not submitted evidence in
support of these accusations.21 Additionally, plaintiff has confirmed the existence of the letter
received by DDS discussed above and that defendant Ryder tried to see and speak with Jennifer
Vaughan, with very limited success, although plaintiff disputes such would justify a court order.
(DE 108 at 17: see also DE 108-4 fflf 8-9). Plaintiff has failed to rebut the presumption that the court
order at issue was supported by probable cause. Thus, the relevant DSS defendants are entitled to
qualified immunity regarding the July 16, 2013, incident.22
li.

August 13, 2013, Incident

21 More specifically, plaintiff alleges in the operative complaint that defendant Ryder “deceived Clerk of Court
Merlee Austin by providing false information in support of her application for a warrant to enter PLAINTIFF’S home
and interrogate the child’s mother, lying that the mother had refused to speak to her.” (DE 80 ^ 262). However, as stated
above, plaintiff has submitted affidavit evidence from Jennifer Vaughan stating that Jennifer Vaughan refused to let
defendant Ryder physically see her when defendant Ryder had come to plaintiff s home. (See DE 108-4 8-9).
22 Regarding this incident and those addressed below, because the court concludes that defendants’ actions did
not violate the Fourth Amendment, the first prong of the qualified immunity analysis, the court need not consider the
second prong of the qualified immunity analysis. Pearson. 555 U.S. at 236, 243—45.

23

Case 2:16-cv-00061-FL Document 159 Filed 03/19/19 Page 23 of 34

On August 13,2013, defendants Lycett, Foltz, and Ryder entered plaintiff s home to execute
an involuntary commitment order, issued by a magistrate judge, for Jennifer Vaughan. (DE 80 ^ 6,
32; DE 108 at 18).23 Although plaintiff, without evidentiary support, argues that this order was
“based on false allegations submitted by DEFENDANT RYDER to fraudulently obtain an order,”
(DE 80 TI 32), similar to above regarding the July 16, 2013, incident, no further information is
offered regarding what specific false allegations may have been submitted by defendant Ryder.
Defendant Ryder has offered the following affidavit testimony:
In 2013, I was assigned to work on the case involving Jennifer Vaughan. Dare
County DSS’ involvement with Jennifer went back to April 2008. Jennifer has a
history of mental illness, including schizophrenia, and for a period in 2010 and 2011
the Dare County DSS served as her court-appointed guardian because she was
deemed not competent to take care of herself. In July 2013, DSS received a report
that Jennifer might be neglected or abused. At the time she was living with her
mother, Susan Vaughan ....
In August 2013, I went back to the home with two other DSS social workers,
Shannon Foltz and Chuck Lycett, to observe the execution of an involuntary
commitment order for Jennifer that had been issued by a judge in Dare County
District Court. We were accompanied by Kill Devil Hills police officers. The police
officers went in first and the social workers followed. We spoke to Jennifer and the
police took custody of her and drove her to the hospital, where she was admitted for
treatment. The court granted DSS interim guardianship over Jennifer.
(DE 63-11HJ 3, 5).24
Defendants Lycett, Foltz, and Ryder acted pursuant to an order signed by a magistrate judge.
23 An involuntary commitment order can be issued by a clerk of superior court or magistrate pursuant to N.C.
Gen. Stat. § 122C-261 upon a showing by an affiant of “reasonable grounds” for issuance. “‘Reasonable grounds’ has
been found to be synonymous with ‘probable cause’” and North Carolina courts have held “the requirements for a
custody order under N.C. Gen. Stat. § 122C-261 are analogous to those where a criminal suspect is subject to loss of
liberty through the issuance of a warrant for arrest,” stating “[i]n both instances a magistrate or other approved official
must find probable cause (though under N.C. Gen. Stat. § 122C-261 the synonymous term reasonable grounds is used)
supporting the issuance of the order or warrant.” In re Zollicoffer. 165 N.C. App. 462,466 (2004) (citations omitted);
see also In re Moore. 234 N.C. App. 37, 41 (2014) (same).
24 Plaintiff has directed the court to disregard DSS defendants’ affidavits submitted in support of their motion
for summary judgment as fraudulent and unable to support the grant of qualified immunity. (See DE 108 at 27-28).
However, plaintiff has submitted no evidence in support of her allegations of fraud.

24

Case 2:16-cv-00061-FL Document 159 Filed 03/19/19 Page 24 of 34

Because plaintiff has not offered evidence to rebut the presumption that these defendants acted
pursuant to valid court order supported by probable cause in executing the involuntary commitment
order, these defendants are entitled to qualified immunity regarding the August 13,2013, incident.
m.

August 14, 2013, Incident

Defendant Foltz and a police officer entered plaintiffs home on August 14, 2013, in order
to take custody of EJV pursuant to order issued by a district court judge. (DE 80 U 82; DE 108 at
19). Turning to this order, the following was presumably submitted in support of obtaining the
nonsecure custody order:
The Child is in need of assistance from the State,
I. The following reasonable efforts were made to prevent or eliminate the need of the
juvenile placement:
• Child Protective Services have been provided since May 2013.
• Information has been provided about child development
• Assistance was made for applying for Medicaid for the child
• Information was provided about how to obtain birth certificate.
• Social Worker has attempted to meet with mother multiple times at the home.
• Two Letters have been sent to mother requesting contact.
II. Reasons Why It Is Contrary to Best Interest of Child to be returned to the Parents:
• Jennifer Vaughan has an untreated mental illness, namely schizophrenia. She has
been involuntarily committed to Vidant Behavioral Health and is unable to care for
her child. Ms. Vaughan is unable to ascertain the needs of her child. Ms. Vaughan
had her competency restored on August 5,2011, but has not been on her medication.
Ms. Vaughan identified the putative father on August 14, 2013. No appropriate
caretaker has been identified.
(See DE 158-1; see also DE 63-6).25
Plaintiff argues that although she has in her possession the order at issue, she has offered

25 The above is stamped as received by the magistrate judge at the same time and date as the signed order,
although the information is not signed or dated and is only labeled as “exhibit A” attached to the signed order. (DE 158!)•

25

Case 2:16-cv-00061-FL Document 159 Filed 03/19/19 Page 25 of 34

evidence that this order “was obtained by fraud, omission that [pjlaintiff was custodian of EJV, and
without any emergency or time of day to permit Foltz to seek a nonsecure custody order,” arguing
that the order is “illegal and void, and [defendant Foltz’s] petition contains no allegations, even it
true, that meet the requirements of 7B-503 and/or the definitions of neglect and dependency.” (DE
108 at 19). Notwithstanding, plaintiff does not dispute that Jennifer Vaughan had a mental illness
for which she was not receiving treatment, that she had been involuntarily committed, and that she
had not been on medication.26
In light of these undisputed facts, the court holds defendant Foltz entitled to qualified
immunity for entering plaintiffs home with a court order to take custody of EJV. See Ross v.
Klesius. 715 F. App’x 224, 226 (4th Cir. 2017) (citation omitted) (holding that even without court
order and “[e]ven assuming, without deciding, that Defendants violated Ross’ Fourth Amendment
rights, their conduct in entering or directing others’ entry into Ross’ home to retrieve her foster
children, under the circumstances presented, did ‘not violate clearly established statutory or
constitutional rights of which a reasonable person would have known.’”); see also Martin v. Saint
Mary’s Dep’t of Soc. Servs.. 346 F.3d 502, 506 (4th Cir. 2003) (recognizing state’s legitimate
interest in investigating allegations of child neglect); Wildauer. 993 F.2d at 372 (discussing reduced
Fourth Amendment scrutiny applicable to home visits by social workers).27

26 Plaintiff does dispute, however, what mental illness Jennifer V aughan suffers from, whether or not she should
have been involuntarily committed, and why she had not been taking medication.
27 Although DSS defendants argue otherwise, it does not appear that the district court’s nonsecure custody order
presently at issue is equivalent to an arrest warrant as contemplated by Torchinskv that therefore carries a presumption
of reasonableness. Section 7B-502 of the North Carolina General Statutes gives the district court authority to issue an
order placing a child in nonsecure custody. Section 7B-503(a) sets forth the criteria for nonsecure custody and states:
“An order for nonsecure custody shall be made only when there is a reasonable factual basis to believe the matters
alleged in the petition are true .. . .” Such a standard is not similar to a magistrate judge finding probable cause for
arrest. Torchinskv. 942 F.2d at 261. Thus the court does not apply the presumption of reasonableness; however, as stated
above, defendant Foltz is notwithstanding entitled to qualified immunity.

26
Case 2:16-cv-00061-FL Document 159 Filed 03/19/19 Page 26 of 34

’ ‘-l

IV.

March 4, 2015, Incident

Although plaintiff alleges defendant Tumage directed the actions of police officers during
this incident, and more generally that a conspiracy existed among various DSS officials to remove
Jennifer Vaughan, plaintiff does not dispute that Jennifer Vaughan was removed pursuant to a court
order nor that no DSS defendant entered plaintiffs home during this incident.28 (See DE 80 ^ 202209). The court therefore holds defendant Tumage did not violate plaintiffs Fourth Amendment
rights during the March 4, 2015, incident, and thus defendant Tumage is entitled to qualified
•
•
90
immunity.

In sum, the relevant DSS defendants are entitled to qualified immunity regarding plaintiffs
Fourth Amendment claims.30
b.

Fourteenth Amendment Claims

An injury to reputation claim based on denial of procedural due process is premised on two
rights guaranteed by the Fourteenth Amendment: 1) “the liberty to engage in any of the common
occupations of life” and 2) “the right to due process [wjhere a person’s good name, reputation,
honor, or integrity is at stake because of what the government is doing to him.” Sciolino v. City of
Newport News, Va.„ 480 F.3d 642, 646 (4th Cir. 2007) (alteration in original) (citations omitted)

28 As stated above, the court has previously dismissed plaintiffs conspiracy claims. (Vaughan. 2017 WL
4872484, at *6 (citing Glassman v. Arlington Ctv.. VA. 628 F.3d 140,150 (4th Cir. 2010) (“Therefore, the court holds
that plaintiff has failed to assert a constitutionally protected interest in order to state a due process claim regarding the
challenged state civil commitment proceedings. Additionally, her allegations of conspiracy related to her deprivation
of the constitutionally protected interest must also fail.”)).
29 Because the court has dismissed plaintiffs claims against defendants White and Sudduth as barred by the
statute of limitations, the court does not address any potential Fourth Amendment claims against these defendants.
30 Regarding other DSS defendants, plaintiff argues that “although neither Corprew, McCarron or Burrus ever
physically entered plaintiffs home that she is aware of, they are responsible for the actions of their subordinates....”
(DE 108 at 14). Because the court has found that the DSS defendants who entered plaintiffs home did not violate
plaintiffs Fourth Amendment rights, plaintiffs arguments regarding defendants Corprew, McCarron, and Burrus must
fail.

27

Case 2:16-cv-00061-FL Document 159 Filed 03/19/19 Page 27 of 34

(quoting Bd. of Regents of State Colls, v. Roth, 408 U.S. 564, 572 (1972) and Wisconsin v.
Constantineau. 400 U.S. 433, 437 (1971)). However, the Supreme Court has held that reputation
alone does not implicate any “liberty” or “property” interest sufficient to invoke the procedural
protection for the due process clause and something more than simple defamation, for example
“some more tangible interests such as employment,” must be involved to establish a claim under
§ 1983. Paul v. Davis. 424 U.S. 693, 701 (1976). As held by the Fourth Circuit, “a plaintiff
bringing a ‘stigma-plus’ claim under Paul must allege both a stigmatic statement and a state action
that distinctly altered or extinguished his legal status.” Evans v. Chalmers. 703 F.3d 636,654 (4th
Cir. 2012) (citations omitted).
Section 7B-311 of the North Carolina General Statutes provides in relevant part that the
“Department of Health and Human Services shall maintain a central registry of abuse, neglect, and
dependency cases and child fatalities that are the result of alleged maltreatment that are reported
under the Article .... The Department shall also maintain a list of responsible individuals.”31
Plaintiff argues that her “Fourteenth Amendment rights relate specifically to false, distorted,
irrelevant, fabricated and demeaning allegations and unsubstantiated conclusions made by both Dare
and Currituck DSS departments,” referencing defendant Hull identifying plaintiff as potentially
responsible for the “serious neglect” of EJV in the juvenile petition submitted to the state court in

31 North Carolina has a statutory scheme for placing an individual on the RIL and providing due process to
challenge such an inclusion. A person may not be placed on the list unless one of three things occurs: 1) he or she is
notified of a right to a hearing on the issue and fails to respond, 2) a court determines after a hearing that the person
should be placed on the list, or 3) the person is convicted in criminal court of the same incident that forms the basis for
placing him or her on the list. See N.C. Gen. Stat. § 7B-31 l(b)(l)-(3). Section (c) of the statute makes the list
confidential and limits access to it only to persons authorized to view it. N.C. Gen. Stat. § 7B-320, entitled “Judicial
Review; Responsible Individuals List,” provides individuals a right to challenge a determination that they have been
found responsible for abuse or serious neglect. This statute requires that, when a social services agency has determined
after investigation that an individual is responsible for abuse or serious neglect, the agency director must deliver written
notice of this finding to the individual. N.C. Gen. Stat. § 7B-323, then allows the individual to file with the court a
petition for judicial review of the allegation of abuse or serious neglect.

28

Case 2:16-cv-00061-FL Document 159 Filed 03/19/19 Page 28 of 34

September 2013. (DE 147 at l).32 Plaintiff further alleges that “[b]ased on information in the NC
DHHS website and state statutes, [p]laintiff believes it’s likely that at some point she was placed on
the RIL, and certainly the charges against her were never removed from the record, and most
probably she has been placed on the Central Registry, identified as a ‘perpetrator.’” (DE 108 at 22).
Here, it is unnecessary for the court to address whether plaintiff has provided sufficient
evidence of a “state action that distinctly altered or extinguished [her] legal status” in support of her
injury to reputation claim where plaintiff has failed to provide sufficient evidence of a “stigmatic
statement.” See Evans, 703 F.3d at 654.
DSS defendants have put forth undisputed affidavit evidence from Currituck County DSS’s
attorney, defendant Hull, as follows:
Upon my instruction, the Currituck County Department of Social Services performed
an intensive and extensive investigation and review of the Responsible Individuals
List on December 12, 2017, and this investigation revealed that Susan Vaughan is
not and never has been on this list. I reviewed the results of this search. The list is
maintained by the North Carolina Department of Health and Human Services. Access
to it is limited to authorized persons as set out by the North Carolina Administrative
Code. This includes state and local social-service officials, including certain county
DSS officials and their clerical staff. It is otherwise confidential and not open to
public inspection.
(DE 63-8 U 7).
Additionally, during the custody proceedings, plaintiff, Jennifer Vaughan, and certain DSS
defendants stipulated as follows:
All parties stipulate that if the court conducted a hearing the court would find the
facts in the Stipulation by clean, cogent and convincing evidence as set forth in this
stipulation and would conclude from these facts that the child noted above is
neglected, according to N.C.G.S. 7B-101(15), in that the juvenile does not receive

32 Although plaintiff brings this claim against multiple defendants, it appears undisputed that only defendant
Hull, the Currituck DSS attorney, checked the box on the juvenile petition filed in September 2013. (See DE 63-8 H 4;
id at 5-10).

29

Case 2:16-cv-00061-FL Document 159 Filed 03/19/19 Page 29 of 34

proper care from his parent and/or caretaker, that he does not receive proper medical
care and lives in an injurious environment to his welfare.
Based on this stipulation, Currituck DSS has agreed not to proceed on the allegations
regarding dependency or serious neglect as set forth in any petition filed to date.
(DE 63-8 at 11).
Although plaintiff denies that EJV was neglected and argues she was coerced into signing
this stipulation, plaintiff does not dispute that Currituck DSS agreed to not proceed on the
allegations regarding dependency or serious neglect.33 DSS defendants’ evidence presented is
unrebutted that plaintiffs name has not been placed on the RIL. Therefore, the court finds no
genuine issue of material fact in dispute as to whether plaintiffs name was placed on the RIL.
Plaintiff argues in what appears to be the alternative that even if she was not placed on the
RIL, she has been treated as if she was on the list and has suffered the same consequences. (See DE
147 at 27 (“whether or not [pjlaintiffs name is on the RIL is irrelevant to the consequences
[pjlaintiff has suffered, because she is being treated as if she is on the RIL anyway, by both DSS
departments, and deprived of the same rights the RIL deprives a person of’); see also DE 80 221).
However, in order to state this particular type of due process claim, plaintiff in this instance
must not only allege that false statements were made about her that placed a stigma on her
reputation, but also that such statements were made public in some way. As determined by the
Fourth Circuit:
Our reading of the Hodges’ complaint reveals no more than a conclusory allegation
of reputational injury which, absent a cognizable stigma and the ensuing loss of a
33 Plaintiff previously withdrew claims against her former attorney; accordingly, the court does not address
plaintiff s allegations against this attorney who advised her to enter into this stipulation, including plaintiffs allegations
of coercion. See Vaughan. 2017 WL 4872484, at *2 n.5 (“The magistrate judge also recommended the dismissal of the
following claims which plaintiff has removed from her amended complaint and therefore which the court need not
address ... claims against attorneys Meander Harriss...see also Polk County v. Dodson. 454 U.S. 312.321 (1981)
(holding public defenders do not act under color of state law as required under § 1983).

30

Case 2:16-cv-00061-FL Document 159 Filed 03/19/19 Page 30 of 34

tangible interest, fails to state a cause of action under § 1983 .... given the
extensive confidentiality provisions protecting the Hodge investigation report, we see
no avenue by which a stigma or defamation labeling the Hodges as child abusers
could attach.
Hodge v. Jones, 31 F.3d 157, 165 (4th Cir. 1994); see also Bollow v. Federal Reserve Bank. 650
F.2d 1093, 1101 (9th Cir. 1981) (“Unpublicized accusations do not infringe constitutional liberty
interests because, by definition, they cannot harm ‘good name, reputation, honor, or integrity.’”);
Valmonte v. Bane. 18F.3d992,1000(2dCir. 1994) (“There is no dispute that Valmonte’s inclusion
on the list potentially damages her reputation by branding her as a child abuser, which certainly calls
into question her good name, reputation, honor, or integrity .... Dissemination to potential
employers, however, is the precise conduct that gives rise to stigmatization.”).34 Here, DSS
defendants have put forth unrebutted affidavit evidence that the petition at issue was never shared
with the public or made public in any way. (DE 63-8 ^ 4 (“The petition is confidential and sealed
by the court, so it is not open to public inspection.”)).35
Finally, plaintiff argues that although she filed a petition for judicial review challenging the
i

allegation as found in the petition, she was not properly informed of her right for judicial review
pursuant to North Carolina Gen. Stat. § 7B-320. However, because the court has found no
constitutional violation, state regulations do not provide a basis for a due process violation. Weller
v. Dept, of Soc. Services. 901 F.2d. 387, 392 (4th Cir. 1990) (holding that if plaintiff “is seeking

34 The court rejects plaintiffs repeated arguments that her injury to reputation claim should survive summary
judgment simply because DSS defendants filed the petition on September 18, 2013, the petition became part of the
record, and the petition remained legally undisturbed until the relevant parties entered stipulation on November 18,2013.
35 Although plaintiff argues that “information submitted by county child welfare agencies to the RIL sub-system
of the Central Registry is subject to broader disclosure than the Central Registry,” (DE 108 at 26 (citing applicable
website)), plaintiff offers no evidence that her court proceedings have been revealed to the public beyond the following
unsupported allegation: “Personal communication with Clerks of Court, doctors, Social Security agents and others reveal
that DSS passed on derogatory information from its records to others.” (DE 102 at 20). These unsupported allegations
fail to create a triable issue of fact on this claim.

31
Case 2:16-cv-00061-FL Document 159 Filed 03/19/19 Page 31 of 34

compliance with state law, this is not the proper forum.”); see also Riccio v. Ctv. of Fairfax. 907
F.2d 1459,1469 (4th Cir. 1990) (“If the state law grants more procedural rights than the Constitution
would otherwise require, a state’s failure to abide by that law is not a federal due process issue.”).36
Similarly, plaintiff alleges that when she filed the petition for judicial review, defendant
Matusko never set a hearing date for that petition and did not timely inform the North Carolina
Administrative Office of the Courts following her notice of appeal of a state court order relating to
the child welfare proceedings. (DE 80 ffl] 14, 152, 186). Plaintiffs allegations against defendant
Matusko fail to state a claim under 42 U.S.C. § 1983 for injury to reputation after being denied
procedural due process for the same reason. Because the court has found no constitutional violation,
state regulations do not provide a basis for a due process violation. Weller. 901 F.2d. at 392; Riccio.
907 F.2d at 1469.37
In sum, because plaintiff has failed to demonstrate a violation of plaintiffs constitutional
rights, the relevant DSS defendants are entitled to qualified immunity and plaintiff has failed to state
a claim for relief against defendant Matusko.
3.

Confidential Information in Filings

Although inconsistent attempts at redaction have been made by both plaintiff and DSS
defendants to redact confidential information regarding EJV in the filings submitted to the court,
both plaintiff and DSS defendants have filed information with the court containing information that
should have been redacted. More specifically, plaintiff has filed the following documents that have

36 Because of the court’s holding above, it is unnecessary to address DSS defendants’ arguments regarding
applicability of absolute prosecutorial immunity. See Vosburg v. Dep’t of Social Servs.. 884 F.2d 133, 145 (4th
Cir. 1989).
“ Defendant Matusko filed motion for summary judgment prior to plaintiff filing the operative complaint and
thereafter filed motion to dismiss. Given the court’s holding above, granting defendant Matusko’s motion to dismiss,
the court holds that defendant Matusko’s motion for summary judgment is rendered moot.

32

Case 2:16-cv-00061-FL Document 159 Filed 03/19/19 Page 32 of 34

‘ I

redacted some but not all confidential information regarding the minor: DE 6-4, DE 6-5, DE 48-1
- DE 48-8, DE 48-10, DE 48-13, DE 48-14, DE 98-3 - DE 98-5, DE 98-9, DE 98-10, DE 98-12, DE
98-13, DE 102-5, DE 102-7, DE 108-3, DE 126-2, DE 126-4. Likewise, DSS defendants have filed
the following documents that have redacted some but not all confidential information regarding the
minor: DE 63-8, DE 158-1. The majority, but not all, of these documents are documents filed with,
or issued by, the state court in the custody proceedings.
Under Rule 5.2(a), the name of an individual known to be a minor should not be used in a
court filing, only the minor’s initials; and the birth date of any individual should not be used, only
the year of birth. This general rule does not apply if the filings constitute “the official record of a
state-court proceeding” or “the record of a court or tribunal, if that record was not subject to the
redaction requirement when originally filed.” Fed.R.Civ.P. 5.2(b)(3), (4). However, the state-court
proceedings at issue in this case appear not to have been open to the public. (See, e.g.. DE 63-8 at
21 (“it is hereby ORDERED, ADJUDGED and DECREED as follows: 1. That this hearing is closed
to the public . . . .”). Additionally, pursuant to North Carolina law, “juvenile court records are
generally confidential and withheld from public inspection[.]” United States v. Beckton. No.
7:11-CR-61-BR, 2012 WL 1564522, at *2 (E.D.N.C. May 2, 2012).38
Finally, even if the general rule does not apply, the court “may order that a filing be made
under seal without redaction,” or “require the redaction of additional information.” In the event of
filing under seal, the “court may later unseal the filing or order the person who made the filing to
file a redacted version for the public record.” Fed. R. Civ. P. 5.2(d) & (e)(1).

38 The exception to the redaction requirement under Rule 5.2(h) does not apply. Under that exception, a party
waives the protection of the redaction requirements by filing a document “without redaction and not under seal.” Here,
neither the minor nor the minor’s parent is a party.

33

Case 2:16-cv-00061-FL Document 159 Filed 03/19/19 Page 33 of 34

Here, the court directs the clerk to seal DE 6-4, DE 6-5, DE 48-1 - DE 48-8, DE 48-10, DE
48-13, DE 48-14, DE 98-3 - DE 98-5, DE 98-9, DE 98-10, DE 98-12, DE 98-13, DE 102-5, DE
102-7, DE 108-3, DE 126-2, and DE 126-4, filed by plaintiff, and DE 63-8 and DE 158-1, filed by
DSS defendants. The court may later unseal the filings or order the person who made the filing to
file a redacted version for the public record.
CONCLUSION
Based on the foregoing,
1.

DSS defendants’ motion for summary judgment (DE 60) is GRANTED.

2.

Defendant Matusko’s motion for summaryjudgment (DE 65) is DENIED AS MOOT.

3.

Defendant Matusko’s motion to dismiss (DE 91) is GRANTED.

4.

Defendants Sudduth and White’s motion to dismiss (DE 135) is GRANTED.

5.

Plaintiffs motion for extension of time (DE 141) is DENIED AS MOOT.

6.

The clerk is DIRECTED to seal DE 6-4, DE 6-5, DE 48-1 - DE 48-8, DE 48-10, DE
48-13, DE 48-14, DE 98-3 -DE 98-5, DE 98-9, DE 98-10, DE 98-12, DE 98-13, DE
102-5, DE 102-7, DE 108-3, DE 126-2 andDE 126-4, filed by plaintiff, andDE 63-8
and DE 158-1, filed by DSS defendants.

Plaintiffs claims against DSS defendants and defendant Matusko are DISMISSED, and
plaintiffs claims against defendants Sudduth and White are DISMISSED WITH PREJUDICE. The
clerk is DIRECTED to close the case.
SO ORDERED, this the 19th day of March, 2019.

V^Cj^ISE w. flanagM

—

United States District Judge
34

Case 2:16-cv-00061-FL Document 159 Filed 03/19/19 Page 34 of 34

t

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF NORTH CAROLINA
NORTHERN DIVISION
SUSAN W. VAUGHAN, an individual
Plaintiff,
v.
SHANNON FOLTZ an individual,
SAMANTHA HURD an individual,
KRISTEN HARRIS an individual,
KATHLYN ROMM an individual,
RAY MATUSKO an individual,
STEPHANIE RYDER an individual,
CHUCK LYCETT an individual,
MELANIE CORPREW an individual,
JAY BURRUS an individual, DOES 1-10
individuals, MELISSA TURNAGE,
KATHERINE MCCARRON, OFFICER
MIKE SUDDUTH, and OFFICER CARL
WHITE,
Defendants.

)
)
)
)
)
)
)
)
)
)
)
)
)

JUDGMENT
No. 2:16-CV-61-FL

)
)

)
)
)
)

Decision by Court.
This action came before the Honorable Louise W. Flanagan, United States District Judge, for
consideration of motion for summary judgment by defendants Jay Burrus, Melanie Corprew,
Shannon Foltz, Kristen Harris, Samantha Hurd, Chuck Lycett, Katherine McCarron, Kathlyn Romm,
Stephanie Snyder and Melissa Tumage; motion for summary judgment filed by defendant Ray
Matusko; motion to dismiss filed by defendant Matusko; motion to dismiss filed by defendants
Mike Sudduth and Carl White and plaintiffs motion for extension of time to serve defendants
Sudduth and White with complaint.
IT IS ORDERED, ADJUDGED AND DECREED in accordance with the court’s order entered
March 19, 2019, and for the reasons set forth more specifically therein, that DSS defendants’
motion summary judgment is granted, defendant Matusko’s motion for summary judgment is
denied as moot; defendant Matusko’s motion to dismiss is granted, defendants Sudduth and
White’s motion to dismiss is granted and plaintiffs motion for extension of time is denied as
moot. Plaintiffs claims against DSS defendants and defendant Matusko are DISMISSED and
plaintiffs claims against defendants Sudduth and White are DISMISSED WITH PREJUDICE.

This Judgment Filed and Entered on March 19. 2019. and Copies To:

Case 2:16-cv-00061-FL Document 160 Filed 03/19/19 Page 1 of 2

V

;o

Susan W. Vaughan (via U.S. Mail at 613 Fifth Ave, Apt 1, Greensboro, NC 27405)
Christopher J. Geis (via CM/ECF Notice of Electronic Filing)
Grady L. Balentine, Jr. / Kathryn H. Shields (via CM/ECF Notice of Electronic Filing)
Dan McCord Hartzog, Jr. / Katherine Barber-Jones (via CM/ECF Notice of Electronic Filing)
March 19,2019

PETER A. MOORE, JR., CLERK
/s/ Sandra K. Collins
(By) Sandra K. Collins, Deputy Clerk

Case 2:16-cv-00061-FL Document 160 Filed 03/19/19 Page 2 of 2
!s

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF NORTH CAROLINA
NORTHERN DIVISION
No. 2:16-CV-61-FL

SUSAN W. VAUGHAN,
Plaintiff,
v.
SHANNON FOLTZ, SAMANTHA HURD,
KRISTEN HARRIS, KATHLYN ROMM,
DOUG DOUGHTIE, RAY MATUSKO,1
STEPHANIE RYDER, CHUCK LYCETT,
MELANIE CORPREW, HONORABLE
ROBERT TRIVETTE, JAY BURRUS,
HONORABLE MEADER HARRISS,
HONORABLE AMBER DAVIS,
COURTNEY HULL, OFFICER DOE,
HONORABLE EULA REID, DARE
COUNTY, CURRITUCK COUNTY, KILL
DEVIL HILLS, DOE’s 1-10, SUSAN
HARMON-SCOTT, and MERLEE AUSTIN,
Defendants.

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

ORDER and
MEMORANDUM &
RECOMMENDATION

)
)
)

This pro se case is before the court on the application [DE #l] by Plaintiff Susan
W. Vaughan to proceed in forma pauperis pursuant to 28 U.S.C. § 1915(a)(1) and for
frivolity review pursuant to 28 U.S.C. § 1915(e)(2)(B), the matter having been
referred to the undersigned by the Honorable Louise W. Flanagan, United States
District Judge.

1 Plaintiff misspelled Defendant Matusko’s name as ‘Matsuof in her complaint.
Defendant Matusko is the Clerk of Superior Court of Currituck County, North
Carolina.

Case 2:16-cv-00061-FL Document 5 Filed 05/08/17 Page lot 29

IFP MOTION
The standard for determining in forma pauperis status is whether “one cannot
because of his poverty pay or give security for the costs ... and still be able to provide
himself and dependents with the necessities of life.” Adkins v. E.I. DuPont de
Nemours & Co., 335 U.S. 331, 339 (1948) (internal quotation marks omitted). Based
on the information contained in Plaintiffs affidavit, the court finds that Plaintiff has
demonstrated appropriate evidence of inability to pay the required court costs. Thus,
Plaintiffs application to proceed in forma pauperis is allowed.
DISCUSSION
I.

Background
Plaintiff sues Defendants for actions taken in connection with the removal of

her grandchild from her physical custody and from her adult daughter’s legal custody
pursuant to North Carolina child welfare proceedings in Currituck and Dare
L

Counties, and for actions taken in connection with the removal of her adult daughter
from her home pursuant to a civil commitment order and accompanying guardianship
proceedings in state court.
Plaintiff is the mother of Jennifer Vaughan, who is in turn the mother of a
minor child, E.J.V. Jennifer Vaughan is an adult. In August 2013, Plaintiff, her
daughter, and her grandchild were residing at Plaintiffs house in Kill Devil Hills,
North Carolina. In August 2013, the Dare County Department of Social Services
(“DSS”) filed a petition alleging that E.J.V. was neglected, thereby initiating a child
welfare case involving Jennifer and E.J.V. On August 13, 2013, Dare County DSS,
accompanied by Officers of the Town of Kill Devil Hills Police Department, removed
2
Case 2:16-cv-00061-FL Documents Filed 05/08/17 Page 2 of 29

Plaintiffs adult daughter from Plaintiffs home pursuant to what appears to be an
involuntary civil commitment order. (Am. Compl. [DE #4]

66-67.) On August 14,

2013, Dare County DSS removed E.J.V. from Plaintiffs physical custody and placed
the child into temporary foster care based on allegations that E.J.V. was neglected.
Child welfare proceedings in North Carolina district court ensued. It also appears
that the Adult Protective Services Division of Dare County DSS obtained
guardianship over Plaintiffs adult daughter on or about this time. (Am. Compl.
If 72-73, 75-76, 87, 92, 94, 105, 128.) Plaintiff steadfastly attended both sets of
proceedings. She was, and presumably remains, dissatisfied with the state court’s
decision not to return E.J.V. to her daughter’s custody or to Plaintiff as a caretaker.
Plaintiff is also dissatisfied with the manner in which her daughter and grandchild
were physically removed from her home, and with the legal process that culminated
in legal custody of her grandchild being awarded to Currituck County DSS and
guardianship over Jennifer being awarded to Dare County DSS.2
II.

Standard for Frivolity Review
Notwithstanding the determination that Plaintiff is entitled to in forma

pauperis status, the court is required to dismiss all or part of an action found to be
frivolous or malicious, which fails to state a claim on which relief can be granted, or
which seeks money damages from a defendant immune from such recovery. 28 U.S.C.
§ 1915(e)(2); Michau v. Charleston County, 434 F.3d 725, 728 (4th Cir. 2006). A case

2 The child welfare case was transferred from Dare County to Currituck County
due to a conflict of interest caused by Dare County having guardianship over Jennifer
Vaughan and legal custody of E.J.V.
3

Case 2:16-cv-00061-FL Document 5 Filed 05/08/17 Page 3 of 29

1

is frivolous if it lacks an arguable basis in either law or fact. Neitzke v. Williams, 490
U.S. 319, 325 (1989). Pro se complaints are entitled to a more liberal treatment than
pleadings drafted by lawyers. See White v. White, 886 F.2d 721, 722—23 (4th Cir.
1989). However, the court is not required to accept a pro se plaintiffs contentions as
true. Denton v. Hernandez, 504 U.S. 25, 32 (1992). The court is permitted to “pierce
the veil of the complaint’s factual allegations and dismiss those claims whose factual
contentions are clearly baseless.” Neitzke, 490 U.S. at 327.
Rule 8 of the Federal Rules of Civil Procedure requires a complaint to give a
“short plain statement of the claim showing that the pleader is entitled to relief.”
Fed. R. Civ. P. 8. The statement must give a defendant fair notice of what the claim
is and the grounds upon which it rests. Bell Atlantic Corp. v. Twombly, 550 U.S. 544,
555 (2007). “A plaintiff must offer more detail . . . than the bald statement that he
has a valid claim of some type against the defendant.” Trulock v. Freeh, 275 F.3d 391,
405 (4th Cir. 2001); see also White, 886 F.2d at 723 (affirming district court’s
dismissal of plaintiffs suit as frivolous where plaintiffs complaint “failed to contain
any factual allegations tending to support his bare assertion”). While the court must
read the complaint carefully to determine if the plaintiff has alleged facts sufficient
to support his claims, White, 886 F.2d at 724, the court is not required to act as the
pro se plaintiffs advocate or to parse through volumes of documents or discursive
arguments in an attempt to discern the plaintiffs unexpressed intent, Williams v.
Ozmint, 716 F.3d 801, 805 (4th Cir. 2013).

4
Case 2:16-cv-00061-FL Documents Filed 05/08/17 Page 4 of 29

III.

Plaintiffs Claims
Although difficult to parse, Plaintiffs complaint appears to raise claims for

violation of her constitutional rights pursuant to 42 U.S.C. § 1983, as well as
conspiracy to violate those rights. More specifically, Plaintiff asserts that the
following rights were violated: (l) her rights to substantive and procedural Due
Process pertaining to familial integrity and fair judicial proceedings; (2) her Fourth
Amendment right to be free from unreasonable searches and seizures by the
government; and (3) her right to the effective assistance of counsel during the child
welfare case.
Plaintiff states she is suing the individual defendants in their individual
capacities, Currituck County, Dare County, and the Town of Full Devil Hills. Plaintiff
also names the State of North Carolina and North Carolina Indigent Defense Services
as defendants at different points in her complaint, although these entities are not
identified in the caption of Plaintiff s complaint.
The individual defendants comprise several groups of state and local
government employees. Defendants Amber Davis, Eula Reid, and Robert Trivette are
state district court judges who presided over various hearings in the underlying child
welfare case. Defendants Merlee Austin and Ray Matusko were county clerks of court
for Dare and Currituck Counties, respectively, and, in that capacity, were involved in
the underlying civil commitment and child welfare cases. Defendants Susan HarmonScott (Guardian ad Litem Attorney for Jennifer Vaughan), Meader Harriss (former
public defender and appointed counsel for Plaintiff and presently a state district court

5
Case 2:16-cv-00061-FL Document 5 Filed 05/08/17 Page 5 of 29

judge), and Courtney Hull (private retained counsel for Currituck County
Department of Social Services) were all attorneys involved in the guardianship and
child welfare cases. Defendants Shannon Foltz, Chuck Lycett, Jay Burrus, Stephanie
Ryder, and Melanie Corprew were Dare County DSS Social Workers who were
involved in the guardianship and child welfare cases. Defendants Kristen Harris,
Samantha Hurd, and Kathlyn Romm were Currituck County DSS Social Workers
who were involved in the child welfare case. Defendant Doug Doughtie is Sheriff of
Dare County and held this position at the time of Plaintiffs allegations. Defendants
Officer Does are unknown officers of the Kill Devil Hills Police Department.
A.

Applicable Law

Section 1983 provides a cause of action for “the deprivation of any rights,
privileges, or immunities secured by the Constitution and laws” by any person acting
“under color of any statute, ordinance, custom, or usage, of any State or Territory.”
42 U.S.C. § 1983. To state a claim under § 1983, a plaintiff must allege facts to support
the following findings^ (l) that he has been deprived of a federal right; and (2) that
the person who deprived him of his federal right did so under color of state law. Gomez
v. Toledo, 446 U.S. 635, 640 (1980). “[Plrivate conduct, no matter how discriminatory
or wrongful,” is not actionable under § 1983. Am. Mfrs. Mut. Ins. Co. v. Sullivan, 526
U.S. 40, 50 (1999) (quoting Blum v. Yaretsky, 457 U.S. 991, 1002 (1982)). In sum,
§ 1983 is the law that provides the legal basis for people to sue government actors for
violations of their constitutionally protected rights.

6
Case 2:16-cv-00061*FL Document 5 Filed 05/08/17 Page 6 of 29

B.

Immunity of Certain Defendants
1.

Immunity of State and its Agencies

Plaintiff seeks to sue the State of North Carolina and North Carolina Indigent
Defense Services (“IDS”)3 under 42 U.S.C. § 1983 for violation of her right to effective
assistance of counsel. (Am. Compl.

22-23.) Plaintiff alleges that the attorney

appointed to represent her during the underlying child welfare case was employed by
IDS.
The Eleventh Amendment provides that “[t]he Judicial power of the United
States shall not be construed to extend to any suit in law or equity, commenced or
prosecuted against one of the United States by Citizens of another State, or by
Citizens or Subjects of any Foreign State.” U.S. CONST, amend. XI. “Under the
Eleventh Amendment, . . . neither a State nor its officials in their official capacity
may be sued for damages in federal court without their consent.” Gamache v.
Cavanaugh, 82 F.3d 410, 1996 WL 174623, at *1 (4th Cir. 1996) (unpublished table
decision). Moreover, “state agencies are protected from suit by citizens of a state by
the doctrine of sovereign immunity.” Teague v. N.C. Dep’t of Transp., No. 5:07-CV45-F, 2007 WL 2898707, at *2 (E.D.N.C. Sept. 28, 2007) (citing PennhurstState Sch.
& Hosp. v. Halderman, 465 U.S. 89, 101 (1984)).
Plaintiff includes no allegations from which it may be inferred that the State
of North Carolina has waived its immunity with respect to the claims Plaintiff

3 IDS is an agency of the State established pursuant to N.C. Gen. Stat. § 7A498.2 and is vested with statutory authority to establish, supervise, and maintain a
system for providing legal representation to indigent persons.
7

Case 2:16-cv-00061-FL Document 5 Filed 05/08/17 Page 7 of 29

alleges, nor does Plaintiff invoke a federal statute that abrogates North Carolina’s
sovereign immunity as to the § 1983 claims. Therefore, Plaintiffs claims against
North Carolina and IDS should be dismissed for lack of subject matter jurisdiction.
2.

Immunity of Judges

Plaintiff purports to assert claims against Judges Amber Davis, Eula Reid, and
Robert Trivette for certain rulings made by them in proceedings of the district courts
of Currituck and Dare counties. “It has long been settled that a judge is absolutely
immune from a claim for damages arising out of his judicial actions.” Chu v. Griffith,
771 F.2d 79, 81 (4th Cir. 1985). “[Jjudges of courts of superior or general jurisdiction
are not liable to civil actions for their judicial acts, even when such acts are in excess
of their jurisdiction, and are alleged to have been done maliciously or corruptly.”
Stump v. Sparkman, 435 U.S. 349, 355-56 (1978) (quoting Bradley v. Fisher, 80 U.S.
335, 351 (1871)) (internal quotation marks omitted). “A judge will not be deprived of
immunity because the action he took was in error, was done maliciously, or was in
excess of his authority; rather, he will be subject to liability only when he was acted
in the clear absence of all jurisdiction.” Id. at 356-57 (quoting Bradley, 80 U.S. at 351)
(internal quotation marks omitted).
Here, Plaintiffs claims against these Defendants arise from judicial actions
taken in court hearings in the child welfare case involving Plaintiffs grandchild,
matters over which they had jurisdiction.4 Therefore, Judges Amber Davis, Eula

4 Plaintiff alleges that the state district courts lacked subject matter
jurisdiction in the underlying child welfare case. (Am. Compl. If If 277-81.) That is a
matter for the North Carolina courts.
8
Case 2:16-cv-00061-FL Document 5 Filed 05/08/17 Page 8 of 29

Reid, and Robert Trivette are immune from suit, and the claims against them should
be dismissed.
3.

Immunity of Clerks of Court

Plaintiff has also sued Merlee Austin and Ray Matusko, the former Clerk of
Superior Court for Dare County and current Clerk of Superior Court for Currituck
County, respectively. Quasi-judicial immunity protects court clerks when carrying
out judicial functions. See Jarvis v. Chasanow, 448 F. App’x 406, 2011 WL 4564336,
at *1 (4th Cir. 2011) (per curiam) (unpublished) (citing Briscoe v. LaHue, 460 U.S.
325, 335 (1983)). Additionally, “court clerks enjoy derivative absolute judicial
immunity when they act in obedience to a judicial order or under the court’s
discretion.” Hamilton v. Murray,, 648 F. App’x 344, 345 (4th Cir. 2016) (per curiam)
(unpublished) (citing McCray v. Maryland, 456 F.2d 1, 5 (4th Cir. 1972)), cert, denied,
137 S.Ct. 1225 (Mar. 6, 2017) (mem.).
Here, Plaintiff alleges that Defendant Matusko failed to transmit a Notice of
Appeal to the North Carolina Court of Appeals (Am. Compl.

14) and failed to

schedule a hearing within statutorily mandated time frames (Am. Compl. f 152).
These alleged acts arise from the clerk’s conduct as a judicial officer. Therefore,
Plaintiffs claims against Defendant Matsuko are barred by quasi-judicial immunity.
See, e.g., Green v. North Carolina, No. 4:08-CV-135-H, 2010 WL 3743767, at *3
(E.D.N.C. Sept. 21, 2010) (“Inasmuch as plaintiff is attempting to make claims which
arise out of actions by the superior court judge and/or the clerk of court within their

9
Case 2:16-cv-00061-FL Document 5 Filed 05/08/17 Page 9 of 29

capacities as judicial officers, these claims are barred by the doctrine of judicial
immunity . . .
Plaintiff also alleges that Defendant Austin violated her rights by signing an
involuntary civil commitment order regarding Plaintiffs adult daughter (Am. Compl.
HU 32, 57, 66) and by presiding over a guardianship proceeding that resulted in
guardianship of Plaintiffs adult daughter being awarded to Dare County DSS (Am.
Compl. HU 104-05). Under North Carolina law, Clerks of Superior Court are
authorized to issue civil commitment orders, N.C. GEN. Stat. § 122C-26l(b), and to
preside over incompetency and guardianship proceedings and issue related orders,
N.C. GEN. Stat. §§ 35A-1103, -1112, -1114, -1120. These alleged acts arise from the
clerk’s conduct as a judicial officer authorized by state law to issue such orders.
Therefore, Plaintiffs claims against Defendant Austin are barred by quasi-judicial
immunity. See Jarvis, 448 F. App’x 406, 2011 WL 4564336, at *1> Green, 2010 WL
3743767, at *3.
4.

Immunity of Guardian ad Litem

Plaintiff also alleges Defendant Attorney Susan Harmon-Scott, who was
appointed as Guardian ad Litem (“GAL”) to Plaintiffs adult daughter, violated her
rights by misleading the court and filing a deceptive court report. (Am. Compl. UH 15,
297.) The Fourth Circuit has held that guardians ad litem in custody cases are
immune from § 1983 claims for actions “occur[ing] within the judicial process.”
Fleming v. Asbill, 42 F.3d 886, 889 (4th Cir. 1994); see also Kolley v. Adult Protective
Services, 786 F. Supp. 2d 1277,1298-99 (E.D. Mich. 2011) (citing Fleming and holding

10
Case 2:16-cv-00061-FL Document 5 Filed 05/08/17 Page 10 of 29

that a Guardian ad Litem in an adult guardianship case was entitled to immunity for
actions that were part of the judicial process). Because the facts alleged by Plaintiff
occurred within the judicial process, Defendant Harmon-Scott is immune from § 1983
liability.

5.

Immunity of Social Workers

Plaintiff sues several Social Workers employed by Currituck and Dare
Counties in their individual capacities. Each must be analyzed according to the role
he or she played in Plaintiffs allegations.
Fourth Circuit precedent affords government social workers in child welfare
cases absolute quasi-judicial immunity for actions taken in connection with the filing
of a petition alleging abuse, neglect, or dependency. Vosburg v. Dep’t of Soc. Servs.
884 F.2d 133, 137*38 (4th Cir. 1989). Absolute immunity only applies “to those
activities of social workers that could be deemed prosecutorial.” Id. (explaining that
social workers in child welfare cases function as advocates for the state and function
akin to prosecutors in such cases). Social workers engaged in child abuse or neglect
investigation may be entitled to qualified immunity. Wildauer v. Frederick Cty., 993
F.2d 369, 373 (4th Cir. 1993) (“Individuals who investigate child abuse or neglect
enjoy at least qualified immunity.”).
Plaintiff names three Currituck County DSS Social Workers as Defendants.
Plaintiff alleges that (l) Defendant Kristen Harris provided false testimony in the
underlying child welfare case (Am. Compl.

10, 144, 189.); Defendant Samantha

Hurd made false statements in an abuse/neglect/dependency petition and in

11

Case 2:16-cv-00061-FL Documents Filed 05/08/17 Page 11 of 29

subsequent court reports related to the child welfare case (Am. Compl. 1HI 11, 135,
189); and Defendant Kathryn Romm failed to notify Plaintiff that she was the subject
of a DSS report and moved to dismiss Plaintiffs petition to adopt her grandchild (Am.
Compl. Hlf 12, 152, 221). These allegations all involve actions by governmental social
workers in the judicial phase of a child welfare case and are thus appropriately
characterized as “prosecutorial” rather than “investigative.” As such, these
Defendants are entitled to absolute quasi-judicial immunity under Vosburg. The
claims against them should be dismissed.
Plaintiff names five Dare County DSS Social Workers as Defendants. Two of
these Defendants are not alleged to have been involved in any investigative acts and
r

would therefore normally be entitled to absolute immunity. However, Plaintiff has
alleged that these two Defendants—Jay Burrus and Melanie Corprew—had
supervisory power over subordinate social workers who carried out investigative acts.
Therefore, the court must also consider whether these Defendant supervisors can be
held liable for the unconstitutional acts of their subordinates.
It is well settled that the doctrine of respondeat superior will not serve as the
basis for § 1983 liability. Monell v. Dep’t of Soc. Servs. ofN.Y.C., 436 U.S. 658, 691
(1978). “[E]ach [government official... is only liable for his or her own misconduct.”
Ashcroft v. Iqbal, 556 U.S. 662, 677 (2009). Thus, supervisory officials are not subject
to liability because of their authority to control subordinates, but may be held liable
only for their own wrongs taken in violation of an individual’s constitutional rights.
Id. A supervisory official may be held liable for the actions of his subordinate only

12
Case 2:16-cv-00061-FL Document 5 Filed 05/08/17 Page 12 of 29

where he has actual or constructive knowledge of “a pervasive and unreasonable risk
of injury” caused by the subordinate, he acts with deliberate indifference to or tacitly
authorizes the subordinate’s actions, and there is an “affirmative causal link”
between the supervisor’s actions and the constitutional injury. Randall v. Prince
George’s Cty., 302 F.3d 188, 206 (4th Cir. 2002).
Plaintiff alleges that Defendant Jay Burrus, Director of Dare County DSS,
“played a role in” Defendants Foltz and Lycett’s decision to file a child welfare petition
and spoke rudely to her in the courtroom hallway after a hearing. (Am. Compl.

7,

106). “Playing a role in” is too flimsy an allegation to support supervisory liability.
Plaintiff has not alleged sufficient facts to show there was an affirmative causal link
between Defendant Burrus’s actions and the alleged Fourth Amendment violations,
or that he knew of a pervasive and unreasonable risk of injury posed by Foltz and
Lycett. Therefore, any claim based on Defendant Burrus’s supervisory control over
Defendants Foltz and Lycett should be dismissed. Defendant Burrus is entitled to
absolute immunity under Vosburg for any other claims because his actions were
limited to the judicial phase of the underlying guardianship and child welfare cases.
Plaintiff alleges that Defendant Melanie Corprew supervised Defendant
Stephanie Ryder, was required to authorize any actions taken by Defendant Ryder,
and was involved in the adult guardianship proceeding before Defendant Austin (the
Dare County Clerk of Superior Court). (Am. Compl.

9, 104-05). Even assuming

that Defendant Corprew authorized Ryder’s actions, Plaintiff has not alleged facts
sufficient to believe that Corprew had knowledge Ryder was engaged in conduct that

13
Case 2:16-cv-00061-FL Document 5 Filed 05/08/17 Page 13 of 29

posed a pervasive and unreasonable risk of injury to people such as Plaintiff.
Therefore, any claim based on Defendant Corprew’s supervisory control over
Defendant Ryder should be dismissed. Defendant Corprew is entitled to absolute
immunity under Vosburgior any other claims because her actions were limited to the
judicial phase of the underlying guardianship and child welfare cases.
Plaintiff alleges that the remaining Dare County DSS Social Workers were
involved in a mixture of investigative and prosecutorial actions. Plaintiff alleges that
(l) Defendant Shannon Foltz regularly “visited” Plaintiffs home to observe and make
inquiries about Plaintiffs daughter and grandchild, included false statements in an
abuse/neglect/dependency petition, and provided false testimony (Am. Compl.

39-

40, 48-51, 51, 53, 58,107,117-18); (2) Defendant Chuck Lycett interrogated Plaintiffs
daughter in Plaintiffs house immediately prior to her removal, searched Plaintiffs
house during the same time, and provided false testimony (Am. Compl. Kf 59, 107);
and (3) Defendant Stephanie Ryder interrogated Plaintiffs daughter in Plaintiffs
house immediately prior to her removal, searched Plaintiffs house during the same
time, and provided false statements to procure civil commitment and guardianship
orders concerning Plaintiffs daughter (Am. Compl. ft 32, 57, 58, 104). The claims
involving false statements to procure judicial orders and false testimony during
judicial proceedings should be dismissed as Defendants Foltz, Lycett, and Ryder are
entitled to absolute immunity for these actions under Vosburg.
However, the alleged searches of Plaintiffs home could reasonably be
construed as investigative rather than prosecutorial acts. Therefore, the defendants

14
Case 2:16-cv-00061-FL Document 5 Filed 05/08/17 Page 14 of 29

involved in these incidents are not entitled to absolute immunity for their respective
actions. It is, however, premature to determine whether those individuals would be
entitled to qualified immunity pursuant to Wildauer. See Gomez, 446 U.S. at 640.
C.

Section 1983 Claims

Plaintiff s § 1983 claims appear to concern four constitutional rights: (l) the
right to substantive due process as it pertains to family integrity; (2) the right to
procedural due process as it pertains to the judicial process in state civil commitment
and child welfare proceedings; (3) the right to be free from unreasonable searches and
seizures by the government; and (4) the right to the effective assistance of counsel.
To state a claim under § 1983, a plaintiff must allege facts to support the following
findings: (l) that she has been deprived of a federal right; and (2) that the person who
deprived her of her federal right did so under color of state law. Gomez, 446 U.S. at
640.
1.

Due Process Claims
a.

Substantive Due Process

“[T]he sanctity of the family unit is a fundamental precept firmly ensconced in
the Constitution and shielded by the Due Process Clause of the Fourteenth
Amendment.” Renn By and Through Renn v. Garrison, 100 F.3d 344, 349 (4th Cir.
1996) (quoting Hodge v. Jones, 31 F.3d 157, 162 (4th Cir. 1994)). The Supreme Court
has characterized “the interest of parents in the care, custody, and control of their
children” as “perhaps the oldest of the fundamental liberty interests.” Troxel v.
Granville, 530 U.S. 57, 65 (2000) (plurality opinion). The right to family integrity,

15

Case 2:16-cv-00061-FL Documents Filed 05/08/17 Page 15 of 29

however, is not absolute. Martin v. Saint Mary’s Dep’t Soc. Servs., 346 F.3d 502, 506
/

(4th Cir. 2003). “A state has a legitimate interest in protecting children from neglect
and abuse and in investigating situations that may give rise to such neglect and
abuse.” Id.
“In many cases, grandparents play an important role [in the everyday tasks of
child rearing].” TroxeJ, 530 U.S. at 64. But “[grandparents have no constitutional
right to visitation.” Buck v. Greenlee, No. 3:i0-CV-540-RJC-DSC, 2011 WL 4595262,
at *7 (W.D.N.C. Sept. 30, 2011) (citing Troxeb, affd, 465 F. App’x 244 (4th Cir. 2012).
A fortiori, grandparents qua grandparents have no constitutional right to familial
integrity.5
“[M]any

Circuit

Courts

have

addressed

whether

a

parent

has

a

constitutionally protected right to the companionship of his or her child,... primarily
in the context of an adult child, and found that no such right is protected under the
Due Process Clause.” Evans v. Pitt Cty. Dep’t Soc. Servs., 972 F. Supp. 2d 778, 793
(E.D.N.C. 2013), vacated in part, appeal dismissed in part sub nom. Evans v. Perry,
578 F. App’x 229 (4th Cir. 2014) (per curiam) (unpublished), and affd in part, 616 F.
App’x 636 (4th Cir. 2015) (mem.) (per curiam) (unpublished). “[T]he cases extending
liberty interests of parents under the Due Process Clause focus on relationships with
minor children.” McCurdy v. Dodd, 352 F.3d 820, 827 (3rd Cir. 2003); see also Butera
v. District of Columbia, 235 F.3d 637, 656 (D.C. Cir. 2001) (holding that “a parent

5 A grandparent may, of course, have legal custody to a minor due to judicial
decree.
16
Case 2:16-cv-00061-FL Document 5 Filed 05/08/17 Page 16 of 29

does not have a constitutionally 0protected liberty interest in the companionship of a
child who is past minority and independent”).
Here, Plaintiff does not allege she was the legal guardian of her adult daughter.
She alleges that her daughter signed a “Power of Attorney” while civilly committed
and that Defendant Austin (the Clerk of Dare County Superior Court) ignored this
document during the adult guardianship proceedings. (Am. Compl. Iff 81,105.) While
Plaintiff states that her daughter was disabled and residing with her at the time of
her commitment, nothing in the complaint indicates that the civil commitment and
concomitant removal of Plaintiff s adult daughter violated Plaintiffs substantive due
process rights as a parent. Therefore, Plaintiffs substantive due process claims
involving her adult daughter’s civil commitment and guardianship proceedings
should be dismissed.6
While Plaintiff s complaint includes conclusory statements as to her status as
“primary caretaker and the one having physical and legal custody” of her grandchild
(Am. Compl. f 85, 133), no facts are included to support her claim to legal custody.
Indeed, other facts alleged in the complaint, including the following, suggest that
Plaintiff was instead a caretaker7 to her grandchild and possessed no legal rights
concerning the child: (l) that Plaintiff sought “written permission” from her adult
daughter to take E.J.V. to a pediatrician {Id.

44); (2) that the petition filed by Dare

6 Alternatively, assuming that Plaintiff did have legal guardianship of her
adult daughter, this court would be barred from considering her claim pursuant to
the Rooker-Feldman doctrine.
7 See N.C. Gen. Stat. § 7B-10l(3) for a description of “caretaker” under state
law.
17
Case 2:16-cv-00061-FL Documents Filed 05/08/17 Page 17 of 29

County DSS alleged neglect and dependency “due to mother’s inability to care” {Id. U
90); (3) that Plaintiff was not “included across the bar with the other parties” during
the child welfare proceedings {Id. f 124); and (4) that Plaintiff was recognized as a
party to the child welfare case after the initial hearing {Id. If 124) and subsequently
removed as a party months later {Id. U 175).8 Based on these facts, and the absence
of facts indicating that Plaintiff was her grandchild’s legal custodian, Plaintiff has
not demonstrated a substantive due process right to familial integrity involving her
grandchild. Therefore, Plaintiffs claims involving this right should be dismissed.
b.

Procedural Due Process

Plaintiff challenges the fairness of the judicial proceedings concerning her
adult daughter and her grandchild. These claims depends on Plaintiffs constitutional
right to due process under the Fourteenth Amendment.
“To state a procedural due process claim, a plaintiff must show (l) a cognizable
liberty or property interest; (2) the deprivation of that interest by some form of state
action; and (3) that the procedures employed were constitutionally inadequate.”
Evans, 972 F. Supp. 2d at 797 (quoting Iota Xi Chapter of Sigma Chi Fraternity v.
Patterson, 566 F.3d 138, 145 (4th Cir. 2009)) (internal quotation marks omitted).
For the reasons discussed above concerning Plaintiff s substantive due process
right to familial integrity, Plaintiff lacks a constitutionally recognized interest in

8 North Carolina law authorizes courts to designate “caretakers” as parties to
a child welfare case in certain situations, and authorizes courts to remove such
persons as parties when “the court finds that the person does not have legal rights
that may be affected by the action and that the person’s continuation as a party is
not necessary to meet the juvenile’s needs.” N.C. Gen. STAT. § 7B-401.1.
18
Case 2:16-cv-00061-FL Document 5 Filed 05/08/17 Page 18 of 29

(l) the care, custody, and control of her adult daughter, and (2) the care, custody, and
control of her grandchild. Therefore, Plaintiffs procedural due process claims
concerning the judicial proceedings in her daughter’s and grandchild’s state court
cases should be dismissed as frivolous or for failure to state a claim.
c.

Rooker-Feldman Bar

Even assuming, however, that Plaintiff had a legally cognizable interest in the
care, custody and control of either her daughter or granddaughter, her due process
claims would be barred by the Rooker-Feldman doctrine, which prohibits federal
courts from sitting “in direct review of state court decisions.” District of Columbia
Court ofAppeals v. Feldman, 460 U.S. 462, 482-84 (1983).
The Rooker-Feldman doctrine is a jurisdictional rule that applies in “limited
circumstances where a party in effect seeks to take an appeal of an unfavorable statecourt decision to a lower federal court.” Lance v. Dennis, 546 U.S. 459, 466 (2006) (per
curiam) (quoting Exxon Mobil Corp. v. Saudi Basic Industries Corp., 544 U.S. 280,
284 (2005)) (internal quotation marks and citation omitted).
The doctrine also prohibits a district court from reviewing constitutional
claims that are “inextricably intertwined” with the state court’s decision. Shooting
Point, LLC v. Cumming, 368 F.3d 379, 383 (4th Cir. 2004). A constitutional claim is
“inextricably intertwined” with a state court-decision if “success on the federal claim
depends upon a determination that the state court wrongfully decided the issues
before it.” Id. (quoting Plyler v. Moore, 129 F.3d 728, 731 (4th Cir. 1997)) (internal
quotation marks omitted). In other words, the Rooker-Feldman doctrine applies

19
Case 2:16-cv-00061-FL Document 5 Filed 05/08/17 Page 19 of 29

“when the federal action ‘essentially amounts to nothing more than an attempt to
seek review of [the state court’s] decision by a lower federal court.’” Davis v. Durham
Mental Health Devel. Disabilities Substance Abuse Area Auth., 320 F. Supp. 2d 378,
388 (M.D.N.C. 2004) (quoting Plyler, 129 F.3d at 733).
Plaintiffs due process claims effectively ask this court to review the state-court
judgments in the civil commitment and guardianship case concerning Plaintiffs adult
daughter and the abuse/neglect/dependency case concerning her grandchild. This
court must abstain from such review pursuant to the Rooker-Feldman doctrine.
2.

Searches

Plaintiff alleges that her Fourth Amendment right to be free from
unreasonable governmental searches and seizures was violated at various times by
Defendants Foltz, Lycett, and Ryder, an unnamed employee of Dare County DSS, and
unnamed Kill Devil Hills Police Officers. “The Fourth Amendment protects against
unreasonable searches and seizures.” Wildauer v. Frederick Cty., 993 F.2d 369, 372
(4th Cir. 1993) (citing United States v. Place, 462 U.S. 696 (1983)). While still
governed by the Fourth Amendment, “investigative home visits by social workers are
not subject to the same scrutiny as searches in the criminal context.” Id. at 372 (citing
Wyman v. Jones, 400 U.S. 309, 318 (1971)). In general, “a dependent child’s needs are
paramount and almost always take precedence over an adult’s asserted rights,” but
the state cannot rely on that legitimate interest to justify a constitutional violation if
it lacked reasonable concern for the child’s needs. Ross v. Cecil Cty. Dep’t Soc. Servs.,

20
Case 2:16-cv-00061-FL Document 5 Filed 05/08/17 Page 20 of 29

878 F. Supp. 2d 606, 617 (D. Md. 2012) (quoting Wyman, 400 U.S. at 318) (internal
quotation marks omitted).
Plaintiff alleges that an unidentified Kill Devil Hills Police Officer and an
unidentified Dare County DSS Social Worker unlawfully entered her home sometime
in February 2015. (Am. Compl.

202-204.) Plaintiff alleges that these persons

demanded entrance to her home to speak with her adult daughter, that these persons
lacked a court order or other legal process, that Plaintiff s daughter had opened the
door for another reason and then subsequently attempted to close it, and that the
Police Officer placed his foot in the doorway to prevent Plaintiff and her daughter
from closing the door. (Id.

203-204.) Plaintiff alleges that a physical struggle

ensued, wherein she and her daughter pushed against the door but were prevented
from closing it by the Police Officer. (Id) Plaintiff alleges that the Police Officer finally
removed his foot and stated that he would return with “with papers” and would
“break down” Plaintiffs door. (Id. f 204.)
Plaintiff has alleged sufficient facts to withstand frivolity review as to this
Fourth Amendment claim. “[P]hysical entry of the home is the chief evil against
which the wording of the Fourth Amendment is directed.” Payton v. New York, 445
U.S. 573, 585 (1980) (quoting United States v. United States District Court, 407 U.S.
297, 313 (1972)). Plaintiff has alleged such entry by the government without a
warrant and without her consent.
Plaintiff also alleges other unlawful entries of her home by various Dare
County DSS Social Workers and Kill Devil Hills Police Officers, although she notes

21
Case 2:16-cv-00061-FL Document 5 Filed 05/08/17 Page 21 of 29

that these entries may have been conducted pursuant to court orders. (Am. Compl.
57-60, 66-68, 82.) Proper analysis of these incidents requires additional clarity
regarding the court orders9 involved.
Given the facts alleged, the undersigned finds that dismissal on frivolity
grounds is not appropriate as to the Fourth Amendment claims.10
3.

Attorneys

Plaintiff names her former attorney and Currituck County’s privately retained
attorney as Defendants, claiming they violated her constitutional rights in the statecourt proceedings. Because these Defendants did not act under color of state law,
they should be dismissed from the lawsuit.
Section 1983 provides a cause of action for “the deprivation of any rights,
privileges, or immunities secured by the Constitution and laws” by any person acting
“under color of any statute, ordinance, custom, or usage, of any State or Territory.”
42 U.S.C. § 1983. Acting “under color of state law” requires a defendant to exercise
power “possessed by virtue of state law and made possible only because the wrongdoer
is clothed with the authority of state law.” West v. Atkins, 487 U.S. 42, 49 (1988)
(quoting United States v. Classic, 313 U.S. 299, 326 (1941)). The element “excludes

9 Some, but not all, of these documents can be found on the North Carolina
Supreme Court and Court of Appeals Electronic Filing Site and Document Library
(httpsV/www.ncappellatecourts.org) in the docket for Vaughan v. Dare & Currituck
DSS, etal., No. 272P15.
10 As with the Social Workers involved in these searches, any determination as
to qualified immunity of the Defendant Police Officers is premature at this stage of
the litigation. See Gomez, 446 U.S. at 640.
22
Case 2:16-cv-00061-FL Document 5 Filed 05/08/17 Page 22 of 29

from its reach ‘merely private conduct, no matter how discriminatory or wrongful.’”
Am. Mfrs. Mut. Ins. Co. v. Sullivan, 526 U.S. at 50.
Defense attorneys, whether privately retained or court appointed, do not act
under color of state law as required under § 1983. Polk County v. Dodson, 454 U.S.
312, 321 (1981). Plaintiff alleges that former public defender and present District
Court Judge Meader Harriss was appointed to represent her in the child welfare case.
Plaintiff alleges that Defendant Harriss failed to advocate for her expressed wishes
and desired legal strategies in violation of her right to the effective assistance of
counsel and “colluded with” Currituck County DSS to impinge upon Plaintiffs Due
Process rights. (Am. Compl.

151-58.) As court appointed counsel to Plaintiff,

Defendant Harriss did not act under color of state law and is therefore an improper
defendant. Plaintiffs claims against him should be dismissed as frivolous or for
failure to state a claim.
Plaintiffs claim against Defendant Courtney Hull should also be dismissed.
Plaintiff alleges that Defendant Hull is a private attorney who represented Defendant
Currituck County in the underlying child welfare case. “A private attorney does not
become a state actor simply by representing a public body.” Dyer v. Md. State Bd. of
Educ., 187 F. Supp. 3d 599, 615-16 (D. Md. 2016), affd, No. 16-1862, — F. App’x
2017 WL 1423298 (4th Cir. April 21, 2017). Because Defendant Hull did not act under
color of state law, she is an improper defendant, and Plaintiffs claims against her
should be dismissed.

23
Case 2:16-cv-00061-FL Document 5 Filed 05/08/17 Page 23 of 29

4.

Dare County Sheriff

Although Plaintiff names Dare County Sheriff Doug Doughtie as a defendant,
she fails to allege sufficient facts to plead a claim against him. Plaintiff alleges neither
that Sheriff Doughtie was personally involved in the alleged unconstitutional
searches of her home nor that one of his deputies was involved in said searches.
Plaintiff only alleges that Sheriff Doughtie is the chief law enforcement officer for
Dare County, that he failed to serve or properly process subpoenas that Plaintiff
requested, and that he failed to investigate crimes committed by DSS Social Workers
that Plaintiff reported to his office. (Am. Compl.

13, 121.) These allegations all

involve conduct taking place after the alleged unconstitutional searches. There is,
therefore, no factual allegation that would show an “affirmative causal link” between
Sheriff Doughtie or one of his deputies and the constitutional injury asserted by
Plaintiff. See Randall, 302 F.3d at 206.
5.

Monell Claims

Plaintiff sues Currituck County, Dare County, and the Town of Kill Devil Hills
for (l) failure to train their respective social workers and law enforcement officers on
the constitutional rights of persons who are the subject of adult protection and child
welfare cases (Am. Compl. ^ 285); (2) implementing a policy of “detaining and/or
removing children and disabled adults from their families and homes without exigent
circumstances . . ., probable cause or consent” (Id)', (3) failure to investigate
constitutional violations perpetrated by social workers and officers and related
failure to discipline for said violations (Id)', (4) failure to train employees “in their

24
Case 2:16-cv-00061-FL Document 5 Filed 05/08/17 Page 24 of 29

duties and obligations to intercede when an agent of another public entity is violating
the Constitutional rights of families during a removal of adults or children” (Id.)', and
(5) failure to educate employees about and promulgating a policy regarding victims
of Traumatic Brian Injury despite being “repeatedly informed” about the needs of this
population (Id. ]j 287).
To plead a § 1983 claim against a municipality or local government entity, a
plaintiff must allege facts sufficient to support a finding that the alleged
unconstitutional action was taken pursuant to an official policy, procedure, or custom
of the local governing body. Monell, 436 U.S. at 690-91. To impose § 1983 liability, a
plaintiff must show that “a municipal decision reflects deliberate indifference to the
risk that a violation of a particular constitutional or statutory right will follow the
decision.” Bd. of Cty. Comm’rs v. Brown, 520 U.S. 397, 411 (1997). “Isolated incidents”
of unconstitutional conduct of municipal employees are not sufficient to establish a
custom or practice under § 1983. Lytle v. Doyle, 326 F.3d 463, 473 (4th Cir. 2003);
Carter v. Morris, 164 F.3d 215, 220 (4th Cir. 1999).
In the context of a § 1983. claim based on failure to train, “[a] municipality’s
culpability for a deprivation of rights is at its most tenuous.” Connick v. Thompson,
563 U.S. 51, 61 (2011). “[A] sufficiently close causal link must be shown between
potentially inculpating training deficiency or deficiencies and specific violation.” Spell
v. McDaniel, 824 F.2d 1380, 1390 (4th Cir. 1987). “[T]he specific deficiency or
deficiencies must be such as to make the specific violation ‘almost bound to happen,
sooner or later’ rather than merely ‘likely to happen in the long run.’” Id.

25
Case 2:16-cv-00061-FL Documents Filed 05/08/17 Page 25 of 29

Preliminarily, no Currituck County employee is alleged to have been involved
in the Fourth Amendment violations at issue. Therefore, the Monell claim against
Defendant Currituck County should be dismissed as there is no causal link between
that Defendant and the alleged violation. See Spell, 824 F.2d at 1390.
As regards Defendants Dare County and the Town of Kill Devil Hills, Plaintiff
alleges only isolated incidents of constitutional violations that are all connected with
the underlying child welfare case. Plaintiff alleges that these Defendants were
“repeatedly informed” of the need for training on Traumatic Brain Injury (Am. Compl.
TJ 287) and engaged in the violation of her and her daughter’s rights since 2008 (Am.
Compl. Tf 292). But mere “[tjhreadbare recitals of the elements of a cause of action,

I

Y

supported by mere conclusory statements, do not suffice.” Iqbal, 556 U.S. at 678.
Absent additional factual allegations to support these broad assertions concerning
the most tenuous of § 1983 claims, the undersigned recommends that Plaintiffs
Monell claims against Defendants Dare County and the Town of Kill Devil Hills be
dismissed.
D.

Section 1985 Claims

Plaintiff does not explicitly reference § 1985 in her complaint. However,
Plaintiff repeatedly states that Defendants conspired to violate her rights. (Am.
Compl. 1fU 250-51, 254, 273-74.)
Generally, a cause of action exists under § 1985 where two or more people
conspire to interfere with an individual’s civil rights. 42 U.S.C. § 1985. To state a
§ 1985 claim, a plaintiff must allege facts sufficient to support a finding that there

26
Case 2:16-cv-00061-FL Document 5 Filed 05/08/17 Page 26 of 29

existed “an agreement or a ‘meeting of the minds’ by defendants to violate the
claimant’s constitutional rights.” Simmons v. Poe, 47 F.3d 1370, 1377 (4th Cir. 1995).
Having determined that Plaintiffs Fourth Amendment claim survives frivolity
review and having liberally construed Plaintiffs complaint, the undersigned
recommends that her related § 1985 claim be permitted to go forward as it could
reasonably be inferred based upon allegations of those Defendants’ concerted actions
that a “meeting of the minds” existed to violate the Plaintiffs Fourth Amendment .
rights.
To the extent Plaintiffs complaint purports to raise any additional § 1985
claims, such claims concern the removal of her daughter from her home and the
removal of her grandchild due to a child welfare petition. (Am. Compl. ft 250-51, 254,
273-74.) Consideration of such a claim would require a determination that Plaintiff
had a constitutionally protected liberty interest against which the defendants could
have conspired. For the reasons discussed above, Plaintiff lacked a constitutionally
protected liberty interest in family integrity pertaining to her adult daughter and
grandchild. Accordingly, these § 1985 claims should be dismissed.
E.

Claims Summary

Given the liberal construction due Plaintiffs complaint, the undersigned
determines that Plaintiffs § 1983 and § 1985 claims asserting Fourth Amendment
violations are neither legally frivolous nor factually baseless and, therefore, survive
frivolity review. In so finding, the undersigned expresses no opinion concerning the

27
Case 2:16-cv-00061-FL Document 5 Filed 05/08/17 Page 27 of 29

veracity of Plaintiffs allegations or the reasonableness of the Social Workers’ and the
Officers’ alleged actions in the searches.
Plaintiffs other claims should be dismissed for lack of subject matter
jurisdiction, as frivolous or for failure to state a claim.
CONCLUSION
For the reasons stated above, Plaintiffs application to proceed in forma
pauperis is ALLOWED and the undersigned determines that only Plaintiffs § 1983
and § 1985 claims against Defendants Foltz, Lycett, Ryder, and Does (an unnamed
employee of Dare County DSS and unnamed Kill Devil Hills Police Officers) alleging
violations of Plaintiffs Fourth Amendment rights survive frivolity review.
Accordingly, it is RECOMMENDED that Plaintiffs § 1983 and § 1985 claims
against Defendants Foltz, Lycett, Ryder, and Officer Does of the Kill Devil Hills Police
Department arising under the Fourth Amendment be allowed to proceed and that
Plaintiffs remaining claims be DISMISSED for lack of jurisdiction or, alternatively,
as frivolous or for failure to state a claim as more fully set forth hereinabove.
IT IS DIRECTED that a copy of this Memorandum and Recommendation be
served on Plaintiff. Plaintiff is hereby advised as follows:
You shall have until May 25, 2017, to file written objections to the
Memorandum and Recommendation. The presiding district judge must conduct his
or her own review (that is, make a de novo determination) of those portions of the
Memorandum and Recommendation to which objection is properly made and may
accept,

reject,

or

modify the

determinations

in

the

Memorandum

and

Recommendation; receive further evidence; or return the matter to the magistrate
28
Case 2:16-cv-00061-FL Document 5 Filed 05/08/17 Page 28 of 29

judge with instructions. See, e.g., 28 U.S.C. § 636(b)(1); Fed. R. Civ. P. 72(b)(3); Local
Civ. R. 1.1 (permitting modification of deadlines specified in local rules), 72.4(b),
E.D.N.C.
If you do not file written objections to the Memorandum and Recommendation
by the foregoing deadline, you will be giving up the right to review of the
Memorandum and Recommendation by the presiding district judge as described
above, and the presiding district judge may enter an order or judgment based on the
Memorandum and Recommendation without such review. In addition, your failure
to file written objections by the foregoing deadline may bar you from appealing to the
Court of Appeals from an order or judgment of the presiding district judge based on
the Memorandum and Recommendation. See Wright v. Collins, 766 F.2d 841, 846-47
(4th Cir. 1985).
This 6th day of May 2017.

United States Magistrate Judge

29
Case 2:16-cv-00061-FL Document 5 Filed 05/08/17 Page 29 of 29

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF NORTH CAROLINA
NORTHERN DIVISION
No. 2:16-CV-61-FL
SUSAN W. VAUGHAN,
Plaintiff,
v.

SHANNON FOLTZ, SAMANTHA HURD,
KRISTEN HARRIS, KATHLYN ROMM,
DOUG DOUGHTIE, RAY MATUSKO,1
STEPHANIE RYDER, CHUCK LYCETT,
MELANIE CORPREW, HONORABLE
ROBERT TRIVETTE, JAY BURRUS,
HONORABLE MEADER HARRISS,
HONORABLE AMBER DAVIS,
COURTNEY HULL, OFFICER DOE,
HONORABLE EULA REID, DARE
COUNTY, CURRITUCK COUNTY, KILL
DEVIL HILLS, DOE’s MO, SUSAN
HARMON-SCOTT, and MERLEE AUSTIN,
Defendants.

)
)
)
)
)
)
)
)
)
)

)
)
)
)
)
)
)

SUPPLEMENTAL MEMORANDUM &
RECOMMENDATION

1
)
)
)

This pro se case is before the court on the application [DE #l] by Plaintiff Susan
W. Vaughan to proceed in forma pauperis pursuant to 28 U.S.C. § 1915(a)(1) and for
frivolity review pursuant to 28 U.S.C. § 1915(e)(2)(B), the matter having been
referred to the undersigned by the Honorable Louise W. Flanagan, United States
District Judge. On May 8, 2017, the undersigned issued an order granting Plaintiffs

1 Plaintiff misspelled Defendant Matusko’s name as Matsuof in her complaint.
Defendant Matusko is the Clerk of Superior Court of Currituck County, North
Carolina.

Case 2:16-cv-00061-FL Document 10 Filed 06/22/17 Page 1 of 31

request to proceed in forma pauperis and submitted a Memorandum &
Recommendation (“M&R”) regarding frivolity review of Plaintiffs complaint [DE #5].
Plaintiff timely objected to certain parts of the M&R [DE #23], and Judge Flanagan
recommitted the matter to the undersigned to review Plaintiffs objections and to
consider whether any finding or recommendation in the M&R should be modified in
light of Plaintiffs objections.
DISCUSSION

I.

Standard for Frivolity Review
Notwithstanding the undersigned’s prior determination that Plaintiff is

entitled to in forma pauperis status, the court is required to dismiss all or part of an
action found to be frivolous or malicious, which fails to state a claim on which relief
can be granted, or which seeks money damages from a defendant immune from such
recovery. 28 U.S.C. § 1915(e)(2); Michau v. Charleston County, 434 F.3d 725, 728 (4th
Cir. 2006). A case is frivolous if it lacks an arguable basis in either law or fact.
Neitzke v. Williams, 490 U.S. 319, 325 (1989). Pro se complaints are entitled to a
more liberal treatment than pleadings drafted by lawyers. See White v. White, 886
F.2d 721, 722-23 (4th Cir. 1989). However, the court is not required to accept a pro
se plaintiffs contentions as true. Denton v. Hernandez, 504 U.S. 25, 32 (1992). The
court is permitted to “pierce the veil of the complaint’s factual allegations and dismiss
those claims whose factual contentions are clearly baseless.” Neitzke, 490 U.S. at 327.
Rule 8 of the Federal Rules of Civil Procedure requires a complaint to give a
“short plain statement of the claim showing that the pleader is entitled to relief.”
Fed. R. Civ. P. 8. The statement must give a defendant fair notice of what the claim
2

Case 2:16-cv-00061-FL Document 10 Filed 06/22/17 Page 2 of 31

is and the grounds upon which it rests. Bell Atlantic Corp'v. Twombly, 550 U.S. 544,
555 (2007). “A plaintiff must offer more detail . . . than the bald statement that he
has a valid claim of some type against the defendant.” Trulock v. Freeh, 275 F.3d 391,
405 (4th Cir. 2001); see also White, 886 F.2d at 723 (affirming district court’s
dismissal of plaintiffs suit as frivolous where plaintiffs complaint “failed to contain
any factual allegations tending to support his bare assertion”). While the court must
read the complaint carefully to determine if the plaintiff has alleged facts sufficient
to support his claims, White, 886 F.2d at 724, the court is not required to act as the
pro se plaintiffs advocate or to parse through volumes of documents or discursive
arguments in an attempt to discern the plaintiffs unexpressed intent, Williams v.
Ozmint, 716 F.3d 801, 805 (4th Cir. 2013).
II.

Objections to Immunity Recommendations
Plaintiff raises several objections to recommendations regarding certain

Defendants’ entitlement to absolute immunity. (Pl.’s Response to Order and M&R
[DE #6], hereinafter referred to as “Objs.”).
A.

Immunity of State and its Agencies

Plaintiff questions whether a state would ever consent to suit under § 1983 and
whether sovereign immunity extends to cases where a plaintiff alleges violation of
her constitutional rights by a state or state agency. (Objs. at 7-8.) As to the first
question, any attempt by a state to waive its Eleventh Amendment rights would likely
be ineffective. See Dyer v. Maryland State Bd. ofEduc., 187 F. Supp. 3d 599, 611 n.16
(D. Md. 2016) (explaining that states are not ‘persons’ under § 1983 and therefore can

3
Case 2:16-cv-00061-FL Document 10 Filed 06/22/17 Page 3 of 31
t

never waive their sovereign immunity with respect to § 1983), affd, No. 16-1862,__
F. App’x

., 2017 WL 1423298 (4th Cir. Apr. 21, 2017) (per curiam) (unpublished).

As to the second question, state sovereign immunity extends to cases where a plaintiff
alleges violation of her constitutional rights by a state or state agency. See, e.g.,
Pennhurst State Sch. & Hosp. v. Halderman, 465 U.S. 89, 100 (1984) (“[I]n the
absence of consent [,] a suit [claiming violation of federal constitutional rights by] the
State or one of its agencies or departments ... is proscribed by the Eleventh
Amendment.”).
B.

Immunity of Judges

Plaintiff objects to the undersigned’s determination that the state judges
named as defendants are absolutely immune from damages. (Objs. at 8-12.)
Specifically, Plaintiff argues that these judges are not entitled to immunity because
the state court lacked subject matter jurisdiction over the underlying child welfare
case involving Plaintiffs grandchild. {Id. at 9-12.) Plaintiff argues that the evidence
presented to these judges regarding the alleged neglect or dependency of her
grandchild was false and misleading and the judges, therefore, lacked authority over
the underlying case. {Id) Moreover, Plaintiff argues that she was denied a right to
appeal—either as a caretaker or legal custodian—and that this bolsters her argument
that the judges acted “in the absence of all jurisdiction,” see Stump v. Sparkman, 435
U.S. 349 (1978), thereby rendering their actions subject to suit.
In Stump, a state court judge signed an ex parte order authorizing a tubal
ligation operation on a fifteen-year-old female at the request of her mother. Stump,

4
Case 2:16-cv-00061-FL Document 10 Filed 06/22/17 Page 4 of 31

435 U.S. at 351. The young woman was lied to by her mother, her doctor, and the
hospital, and she was sterilized without her knowledge. Id. at 353. Only years later
did the woman uncover the truth about what had been done to her, and she
subsequently filed a lawsuit alleging that the judge, her mother, her attorney, her
doctors, and the hospital where the surgery was carried out violated her
constitutional rights. Id.
The Stump Court concluded that the judge did not act “in clear absence of all
jurisdiction.” Stump, 435 U.S at 357. The Court noted that the judge’s “broad
jurisdictional grant” as a judge of a court of general jurisdiction—even in the absence
of a specific statutory provision permitting him to issue orders of sterilization of
minors and even considering the “procedural errors he may have committed”—did
not prohibit him from issuing such an order. Id. at 357—60 (emphasis added).
Therefore, the Court held that he was entitled to absolute immunity. Id. at 359-60.
The judges Plaintiff has named as defendants are North Carolina district court
judges. As such, they have “exclusive, original jurisdiction over any case involving a
juvenile who is alleged to be abused, neglected, or dependent.” N.C. Gen. Stat. §§ 7B101, -200(a).
Plaintiff states that she does not “objectD to the [judges’] rulings, but to the
authority of these judges to rule in this case” (Objs. at 9-10), but also requests
damages from these judges for violation of her constitutional rights. Judges act
through their rulings and orders! any injury to Plaintiff caused by any of the
defendant judges must have been caused by a judicial ruling or order as Plaintiff has

5
Case 2:16-cv-00061-FL Document 10 Filed 06/22/17 Page 5 of 31

not alleged any extra-judicial actions. See Pittman v. Cuyahoga Cnty. Dep’t of
Children and Family Servs., 640 F.3d 716, 729 (6th Cir. 2011) (rejecting a plaintifffather’s substantive due process claim against a county social worker regarding
removal of his son because the state juvenile court, not the defendant social worker,
had the sole authority to deprive the plaintiff of his constitutional right).2
Even assuming, arguendo, that the defendant judges were colluding with
county social workers to facilitate the removal of Plaintiffs grandson from her legal
custody, those judges would still be entitled to immunity. See Stump, 435 U.S. at 363
(“Despite the unfairness to litigants that sometimes results, the doctrine of judicial
immunity is thought to be in the best interests of‘the proper administration of justice
. . . [, for it allows] a judicial officer, in exercising the authority vested in him [to] be
free to act upon his own convictions, without apprehension of personal consequences
to himself.”) (alterations in original) (quoting Bradley v. Fisher, 80 U.S. 335, 347
(1871)); see also McCray v. Maryland, 456 F.2d 1, 3 (4th Cir. 1972) (“The absolute
immunity from suit for alleged deprivation of rights enjoyed by judges is matchless
in its protection of judicial power. It shields judges even against allegations of malice
or corruption.”), abrogated on other grounds by Pink v. Lester, 52 F.3d 73, 77 (4th
Cir. 1995).
Based on the facts as alleged by Plaintiff and the Supreme Court’s holding in
Stump, Judges Davis, Trivette, and Reid are entitled to absolute immunity as they

2 This point regarding the cause of Plaintiffs alleged due process related
injuries will be discussed further in Section VII below.
6
Case 2:16-cv-00061-FL Document 10 Filed 06/22/17 Page 6 of 31

have been sued by Plaintiff for judicial actions taken in the regular course of a petition
alleging neglect and dependency of a minor in a judicial district in North Carolina
where they hold positions as district court judges.3 However harsh this result may
seem to Plaintiff “and no matter how undesirable the results . .., absolute immunity
represents a balance between . . . evils [as it] has been thought in the end better to
leave unredressed the wrongs done by dishonest officers than to subject those who
try to do their duty to the constant dread of retaliation.” Sahoo v. Gleaton, No. 5;16CV-153-F, 2017 WL 1102623, at *9 (E.D.N.C. Mar. 23, 2017) (alteration in original)
(quoting Imbler v. Pachtman, 424 U.S. 409, 428 (1976)).
Immunity of Clerks of Court

C.

Plaintiff further objects to the recommendation that the defendant Clerks of
Court involved in the underlying state court proceedings should be afforded absolute
quasi-judicial immunity. (Objs. 12-14.) After consideration of Plaintiffs argument
and further research, the undersigned modifies her prior determination and
recommends, at this preliminary stage of litigation, that absolute immunity be
afforded to Defendant Clerk of Court Austin but not as to Defendant Clerk of Court
Matusko.
As stated in the initial M&R, quasi-judicial immunity protects court clerks
when carrying out judicial functions, such as acting under the court’s direction or in

3 Plaintiff alleges that Judge Davis took on an “investigative role” by evaluating
a juvenile petition and determining whether to issue a nonsecure custody order.
(Objs. at 16.) That is not an investigative action. To construe it as such would mean
that every judge who evaluates such an application is engaged in the investigation of
child abuse, neglect, or dependency.
7
Case 2:16-cv-00061-FL Document 10 Filed 06/22/17 Page 7 of 31

obedience to a judicial order. See McCray, 456 F.2d at 5.' Hamilton v. Murray, 648 F.
App’x 344, 345 (4th Cir. 2016) (per curiam) (unpublished) (citing McCray), cert,
denied, 137 S. Ct. 1225 (2017) (mem.); Jarvis v. Chasanow, 448 F. App’x 406, 2011
WL 4564336, at *1 (4th Cir. 2011) (per curiam) (unpublished) (citing Briscoe v.
LaHue, 460 U.S. 325, 335 (1983)).
However, in McCray, the Fourth Circuit rejected the argument that court
clerks are immune from suit where they fail “to perform a required ministerial act.”
McCray, 456 F.2d at 4. In McCray, the plaintiff alleged that a court clerk negligently
failed to file his petition for postconviction relief, in violation of state statutory law.
Id. at 2, 4. The court noted that “[cllerical duties are generally classified as
ministerial” acts, and failure to perform such ministerial acts at common law, even
when done negligently, did not entitle state officers to immunity. Id. at 4. Notably,
the Fourth Circuit abrogated McCray in Pink when it held that “[t]o the extent that
McCray authorizes a cause of action for merely negligent conduct that impacts access
to the courts, it is inconsistent with the Supreme Court’s subsequent decision in
Daniels [v. Williams, 474 U.S. 327 (1986)].” Pink, 52 F.3d at 77 (footnote omitted).
Plaintiff challenges Defendant Austin’s actions on the grounds that Defendant
Austin (l) failed to give Plaintiff proper notice of her adult daughter’s interim
guardianship proceeding; (2) failed “to observe the legal requirements of
incompetence”; (3) failed “to recognize the lack of need for DSS guardianship”; and
(4) “made no effort to learn of Plaintiffs Power of Attorney.” (Objs. at 13-14.)

8
Case 2:16-cv-00061-FL Document 10 Filed 06/22/17 Page 8 of 31

Even taking these statements to be true, they do not describe violations of
ministerial duties as described in McCrayA Rather, they are descriptive of actions
taken by a court official vested with the authority to preside over guardianship
proceedings and to exercise discretion in such proceedings. As such, Defendant Austin
is entitled to absolute quasi-judicial immunity.
However, it is unclear from Plaintiffs complaint, as amended, whether
Defendant Clerk of Court Matusko’s acts could reasonably be considered ministerial
rather than quasi-judicial. (Objs. at 12-13! Am. Compl.

14, 152.) Plaintiff has

alleged that Defendant Matusko intentionally violated her rights under N.C. Gen.
Stat. § 7B-323. The duties of a clerk of court under this statute are manifestly
ministerial, as they concern scheduling and docketing a hearing. Thus, it would

4 Plaintiff appears to claim that she had a right to notice of her adult daughter’s
interim guardianship proceeding. (See Objs. at 14. (“Plaintiff is NOT objecting to
Ms[.] Austin ‘presiding over a guardianship proceeding, [’] because that was [her] job.
Plaintiff objects to Austin failing to give her proper notice of said proceeding . . ..”)).
However, North Carolina law only requires that the clerk issue written notice to the
respondent, i.e. the person alleged to be incompetent. N.C. Gen. Stat. §§ 35A-110l(l5)
(defining ‘respondent’ as person alleged to be incompetent), -1108 (notice), -1109
(service in general guardianship proceedings), -1114 (interim guardianship
requirements). Even if Plaintiff was designated as her adult daughter’s next of kin in
the incompetency petition, the petitioner {i.e. the Adult Protective Services Division
of Dare County DSS), not the clerk of court, would have been responsible for mailing
copies of the notice of hearing and petition to Plaintiff. See N.C. Gen. Stat. § 35A1109. To the extent Plaintiff may be arguing that the clerk should have designated
her as an additional person to receive notice of a petition for interim guardianship
under N.C. Gen. Stat. § 35A-1114(c), the plain language of that statute gives the clerk
discretion as to which additional persons to serve notice on, thereby making that
action non-ministerial. See N.C. Gen. Stat. § 35A-1114(c) (“The motion and a notice
setting the date, time, and place for the hearing shall be served promptly on the
respondent and on his counsel or guardian ad litem and other persons the clerk may
designate.”).
9
Case 2:16-cv-00061-FL Document 10 Filed 06/22/17 Page 9 of 31

appear that Plaintiffs allegations take this claim outside the realm of judicial
immunity. Accordingly, the undersigned determines that Defendant Matusko should
not be afforded absolute quasi-judicial immunity at this stage of the case. Whether
Plaintiff presents any non-frivolous claims against Defendant Matusko is, however,
a different inquiry that will be discussed below.
D.

Guardian Ad Litem Immunity

Plaintiff objects to the recommendation that Defendant Susan Harmon-Scott
be afforded absolute quasi-judicial immunity for actions taken in her role as guardian
ad litem in the underlying child welfare case regarding Plaintiffs grandchild. (Objs.
at 14—15.) Specifically, Plaintiff argues that Defendant Harmon-Scott omitted
information regarding Plaintiffs adult daughter from a court report that would have
tended to show Plaintiffs adult daughter did not meet the legal requirements to be
placed in Adult Protective Services. (Id.)
The Fourth Circuit has recognized absolute immunity for guardians ad litem
for actions “occur[ing] within the judicial process.” Fleming v. Asbill, 42 F.3d 886, 889
(4th Cir. 1994). This immunity applies even in the circumstance where a guardian ad
litem has “lied to the judge in open court.” Id.
Here, Plaintiff has alleged that Defendant Harmon-Scott omitted evidence in
a court report from people she interviewed regarding Plaintiffs adult daughter. (Objs.
at 15.) Assuming this to be true, Defendant Harmon-Scott is entitled to absolute
immunity under Fleming because the action complained of is part of the judicial
process.

10
Case 2:16-cv-00061-FL Document 10 Filed 06/22/17 Page 10 of 31

Immunity of Social Workers

E.

Plaintiff challenges the undersigned’s recommendation that social workers be
afforded absolute immunity even in circumstances in which they lie or misrepresent
facts in order to procure a judicial order authorizing removal of a child and in
subsequent court proceedings. In support, Plaintiff cites the Ninth Circuit’s recent
decision, Hardwick v. County of Orange, 844 F.3d 1112 (9th Cir. 2017), for the
proposition that social workers should not be entitled to absolute immunity for
actions taken in the judicial process if the social workers “fabricate [d] evidence during
an investigation or made false statements in a dependency petition affidavit that they
signed under penalty of perjury, because such actions aren’t similar to discretionary
decisions about whether to prosecute.” Hardwick, 844 F.3d at 1116 (quoting Beltran
v. Santa Clara Cnty., 514 F.3d 906, 908 (9th Cir. 2008) (en banc) (per curiam)); accord
MiIIspa ugh v. Cnty. Dep’t of Public Welfare of Wabash Cnty., 937 F.2d 1172, 1176
(7th Cir. 1991) (holding, based on Malley v. Briggs, 475 U.S. 335 (1986), that a social
worker’s application for a judicial order to initiate a child welfare case was akin to a
police officer’s warrant application and was therefore not entitled to absolute
immunity); see generally Sahoo, 2017 WL 1102623, at *9 n.31 (surveying cases that
stand

for

and

against

affording

social

workers

absolute

immunity

for

misrepresentations in child welfare cases).
In contrast, the Fourth Circuit has held that a social worker is entitled to
absolute immunity even when “she made intentional misstatements when preparing
and presenting a petition” for a child to be taken into state custody. Booker v. S.C.

11
Case 2:16-cv-00061-FL Document 10 Filed 06/22/17 Page 11 of 31

Dep’t ofSoc. Sei'vs., 583 F. App’x 147, 148 (4th Cir. 2014) (per curiam) (unpublished)
(mem.); see also Sahoo, 2017 WL 1102623, at *9 (applying Booker and finding that a
social worker accused of omitting information in a North Carolina juvenile petition
alleging abuse and omitting or misrepresenting facts during testimony in court was
entitled to absolute immunity). The Fourth Circuit recently emphasized, however,
that “ Unpublished opinions are not binding precedent in this circuit.” United States
v. Hall,__ F.3d____ , 2017 WL 2367122, at *21 (June 1, 2017) (reversing a district
court’s admission of evidence under FRE 404(b), in part, because the district court
treated an unpublished opinion as binding precedent) (alteration in original) (quoting
United States v. White, 519 F. App’x 797, 799 (4th Cir. 2013) (per curiam)
(unpublished)).
Here, Plaintiffs complaint and objections allege that various social workers
lied, omitted exculpatory facts, and misrepresented facts in child welfare and adult
guardianship proceedings which led to her adult daughter and grandchild being
unlawfully removed from their home where they resided with Plaintiff as a family for
a substantial period of time. The initial M&R recommended, based on the Fourth
Circuit’s published decision in Vosburg v. Dep’t ofSoc. Servs., 884 F.2d 133 (4th Cir.
1989), that the actions of social workers in the procurement of the judicial orders
authorizing removal of Plaintiffs daughter and grandchild be afforded absolute
immunity. While Booker is directly on point and cites to Vosburg for its holding
regarding immunity of social workers, the undersigned is mindful that (l) Booker is
unpublished; (2) the circuit courts of appeals disagree as to whether social workers

12
Case 2:16-cv-00061-FL Document 10 Filed 06/22/17 Page 12 of 31

should be afforded absolute immunity for lying and omitting relevant information
during the initial and continuing phases of child welfare cases!5 and (3) this matter
is before tlm courtjor frivolity review. Plaintiffs argument raised in response to the
M&R, based on Hardwick and bolstered by Beltran and Millspaugh, presents an
arguable leeral proposition. As such, it is not frivolous. See Neitzke, 490 U.S. at 325.
.....

Absent a Fourth Circuit opinion elevating Bookeds holding to binding precedent, the
-undersigned recommends that Plaintiffs claims against the defendant social
workers6 be allowed to proceed at this preliminary stage of the litigation and that the
defendant social workers be given the opportunity to respond to Plaintiffs allegations
and to raise any potential defenses, including immunity.
III.

Attorneys
Plaintiff questions whether the remaining attorney defendants (Hull and

Harriss) may be held liable under the theory that they conspired with state actors to
deprive Plaintiff of her constitutional rights. (Objs. at 40.) “To establish a conspiracy

5 As the district court noted in Sahoo, the Supreme Court has never approved
granting social workers absolute immunity, and indeed, Justice Thomas has
criticized such grants of immunity for lacking an appropriate basis at common law
prior to enactment of § 1983. Sahoo, 2017 WL 1102623, at *6 n. 19 (citing Hoffman v.
Harris, 511 U.S. 1060 (1994) (Thomas, J., dissenting from denial of certiorari), and
surveying related law review articles and case law).
6 Specifically, these persons include Defendants Harris, Hurd, and Romm from
Currituck DSS, and Defendants Burrus, Corprew, Foltz, Lycett, and Ryder from Dare
DSS. Because Plaintiff has alleged pervasively that all DSS defendants were aware
of the lies and misrepresentations that caused harm to her, and because Plaintiff cites
North Carolina juvenile law indicating that DSS directors bear responsibility for the
filing of petitions (Objs. at 22-25), the undersigned recommends that the DSS
supervisors and directors not be afforded absolute immunity at this stage of the case.
13
Case 2:16-cv-00061-FL Document 10 Filed 06/22/17 Page 13 of 31

claim under § 1983, a plaintiff ‘must present evidence that the [defendants] acted
jointly in concert and that some overt act was done in furtherance of the conspiracy
which resulted in [the] deprivation of a constitutional right.’” Massey v. Ojaniit, 759
F.3d 343, 357-58 (4th Cir. 2014) (alteration in original) (quoting Hinkle v. City of
Clarksburg, W. Va., 81 F.3d 416, 421 (4th Cir. 1996)). Such claims carry “a weighty
burden” and require “specific circumstantial evidence that each member of the
alleged conspiracy shared the same conspiratorial objective.” Hinkle, 81 F.3d at 421.
Plaintiff has alleged that the various DSS defendants were engaged in a
conspiracy to remove her grandchild. (Objs. at 7-8, 13-14, 37-38). However, Plaintiff
has not alleged facts showing that Defendant Harriss and Defendant Hull had an
agreement or “meeting of the minds” with the defendant social workers. Therefore,
these defendants should be dismissed from Plaintiffs complaint for the reasons stated
in the initial M&R.7
IV.

Sheriff Doug Doughtie
In her response to the M&R, Plaintiff clarifies her claims regarding Defendant

Sheriff Doug Doughtie by stating that she is suing him for “obstruction of justice” for

7 Because courts are instructed “to consider the nature of the function
performed, not the identity of the actor who performed it” when making an immunity
determination, it appears that Defendant Hull, although a private attorney retained
by the county, would also be entitled to absolute immunity. See Shirley v. Drake, 176
F.3d 475, 1999 WL 202671, at *2 (4th Cir. 1999) (unpublished table decision) (quoting
Kalina v. Fletcher, 522 U.S. 118, 127 (1997) and citing Vosburg for the proposition
that “[a]n attorney for the state who represents [a county Department of Social
Services] in a proceeding involving the alleged abuse and neglect of a child is entitled
to the same protection in her advocacy role that she would have if she were
representing the state in a criminal proceeding”).
14
Case 2:16-cv-00061-FL Document 10 Filed 06/22/17 Page 14 of 31

(l) refusing to serve a subpoena, on Plaintiffs grandchild’s pediatrician seeking
certain medical records, and (2) refusing to investigate Plaintiffs report that
Defendant Foltz committed perjury. (Objs. at 41-42.)
As to the failure to investigate Plaintiffs complaint regarding Defendant Foltz,
there is no constitutional right “as a member of the public at large and as a victim to
have [a person] criminally prosecuted.” Sattler v. Johnson, 857 F.2d 224, 227 (4th Cir.
1988). Nor is there a right to compel a criminal investigation. Smith v. McCarthy, 349
F. App’x 851, 859 (4th Cir. 2009) (per curiam) (unpublished) (no right to criminal
investigation).
As to the violation of due process caused by refusing to serve a subpoena,
Plaintiff states that “Doughtie had no legal grounds to block that subpoenaed
information, claiming he, personally had to serve a subpoena and be paid for it, for it
to be served legally, in direct contradiction of Rule 45, regarding service of
subpoenas.” (Objs. at 41.) It appears Plaintiff refers to Rule 45 of the North Carolina
Rules of Civil Procedure, which indeed applies to the service of subpoenas. However,
N.C. Gen. Stat. § 7A-311 also applies to service of subpoenas and requires an advance
payment of thirty dollars for each subpoena served. N.C. Gen. Stat. § 7A-31l(a).
Moreover, there is no requirement that a person use the county sheriff to serve a
subpoena. N.C. R. Civ. P. 45(b)(1) (“Any subpoena may be served by the sheriff, by
the sheriffs deputy, by a coroner, or by any person who is not a party and is not less
than 18 years of age. Service of a subpoena upon a person named therein shall be
made by delivering a copy thereof to that person or by registered or certified mail,

15
Case 2:16-cv-00061-FL Document 10 Filed 06/22/17 Page 15 of 31

return receipt requested.”). Thus, the claim against Sheriff Doughtie should be
dismissed as frivolous.
V.

Injury to Reputation Claims
In her reply to the M&R, Plaintiff clarifies claims for damage to her reputation

caused by a denial of due process. (Objs. at 12, 23-24, 35-36, 46.) There appear to be
two separate claims regarding injury to reputation: one involving Plaintiffs
placement on the list of “responsible individuals” pursuant to N.C. Gen. Stat. § 7B311 (Objs. at 23—24, 35-36), and the other involving a judicial finding that Plaintiff,
as caretaker of her grandchild, was responsible for neglect (Objs. at 12, 46). Construed
broadly, Plaintiff alleges that both injuries have interfered with her employment
options. (Objs. at 46-47.) Because Plaintiff does not specify whether she is alleging
that the constitutional violations implicated her substantive or procedural due
process rights, both are evaluated below.
The Fourth Circuit has held that “publication of information regarding child
abuse or neglect to entities authorized by law to receive such reports does not state a
claim under § 1983.” Wildauer v. Frederick Cnty., 993 F.2d 369, 373 (4th Cir. 1993).
More specifically, such publication “does not violate substantive due process.” Perry
v. City ofNorfolk, 194 F.3d 1305, 1999 WL 731100, at *5 (4th Cir. 1999) (unpublished
table decision) (emphasis added) (citing Wildauer). Therefore, neither of Plaintiffs
injury to reputation claims can proceed on the theory that her substantive due process
rights were violated.

16
Case 2:16-cv-00061-FL Document 10 Filed 06/22/17 Page 16 of 31

An injury to reputation claim based on denial of procedural due process is
premised on two rights guaranteed by the Fourteenth Amendment:
(1) the liberty to engage in any of the common occupations of life; and
(2) the right to due process [wjhere a person’s good name, reputation,
honor, or integrity is at stake because of what the government is doing
to him.
Sciolino v. City of Newport News, Va., 480 F.3d 642, 646 (4th Cir. 2007) (alteration
in original) (citations omitted) (quoting Bd. of Regents of State Colls, v. Roth, 408
U.S. 564, 572 (1972) and Wisconsin v. Constantineau, 400 U.S. 433, 437 (1971)). A
plaintiff alleging damage to reputation based on procedural due process must allege
that the injury implicates “some more tangible interests such as employment.” Perry,
194 F.3d 1305, 1999 WL 731100, at *5 (4th Cir. 1999) (unpublished) (citing Paul v.
Davis, 424 U.S. 693, 701 (1976), and assuming that a plaintiff has “a liberty interest
in not being listed as a child abuser in [a government registry] ... because this listing
indirectly cost him his job”).
As to the claim involving Plaintiffs placement on the “responsible individuals”
list, Plaintiff has alleged intentional violations of N.C. Gen. Stat. § 7B-323 regarding
her placement on said list and that placement on said list has impaired her
employment prospects. (Objs. at 23-24, 29, 46-47.) Moreover, she has identified the
defendant social workers and Defendant Matusko as the individuals who caused that
injury. Plaintiff alleges that the social workers lied or misrepresented facts in the
underlying child welfare matter that resulted in her placement on the list and that
Defendant Matusko intentionally failed to perform ministerial duties required by
state law involving Plaintiffs rights under N.C. Gen. Stat. § 7B-323. For the reasons
17
Case 2:16-cv-00061-FL Document 10 Filed 06/22/17 Page 17 of 31

discussed above, these defendants should not be afforded immunity at this stage of
the case, and Plaintiffs procedural due process claims against them should be
permitted to proceed.8
Lastly, Plaintiffs claim involving injury to reputation due to adjudication as a
caretaker responsible for serious neglect of her grandchild should be dismissed. The
cause of such injury is the judicial order making such a determination. See Pittman,
640 F.3d at 729. The defendant judges are entitled to absolute immunity for this
action pursuant to Stump.
Alternatively, procedural due process in this context requires pre-deprivation
notice and an opportunity to be heard. See Perry, 194 F.3d 1305, 1999 WL 731100, at
*5 (4th Cir. 1999) (unpublished table decision) (“If a liberty interest is implicated, due
process requires that [the plaintiff] be given a hearing to contest the determination
that he was a child abuser before his name could be listed in the [state child abuse]
registry.” (citing Mathews v. Eldridge, 424 U.S. 319, 333 (1976), for the proposition
that a hearing is required before a final deprivation of a protected interest)). Here,

8 Under North Carolina law, the director of DSS transmits information to the
state Department of Health and Human Services regarding any person placed on the
“responsible individuals” list. N.C. Gen. Stat. § 7B-311, -320, -323. A state district
court has the authority to order a person be placed on the responsible individuals list
in only two circumstances: (l) when the county director of DSS cannot show that the
person sought to be listed has received actual notice and must proceed to an ex parte
hearing with a district court judge, or (2) when the person sought to be listed petitions
for judicial review. N.C. Gen. Stat. § 7B-323(al), (d). Even in these circumstances,
the DSS director remains the person that transmits the information to the
Department of Health and Human Services for placement on the list. Here, Plaintiff
has not alleged a violation of § 7B'323(al) or § 7B-323(d), and therefore, there is no
claim that any of the defendant judges violated her right to procedural due process.
18
Case 2:16-cv-00061-FL Document 10 Filed 06/22/17 Page 18 of 31

Plaintiff was given more process than that: she was also appointed an attorney.
Plaintiff complains that this attorney did a poor job and was part of the conspiracy to
deprive her of her daughter and grandchild. Nonetheless, given that Plaintiff (l) was
present at all hearings but the initial ex parte hearing before the magistrate, (2) was
provided an opportunity to be heard, and (3) was appointed an attorney, the
undersigned recommends that her injury to reputation claim based on a violation of
procedural due process be dismissed as frivolous or for failure to state a claim.
Moreover, if Plaintiff “is seeking compliance with state law, this is not the
proper forum.” Weller v. Dep’t ofSoc. Serve, for City ofBaltimore, 901 F.2d 387, 392
(4th Cir. 1990). “[A] 1983 claim can only be sustained by allegations and proof of a
violation of the Constitution or statutes of the United States and specifically may not
rest solely on a violation of state statutes.” Clark v. Link, 855 F.2d 156, 163 (4th Cir.
1988).
VI.

First Amendment Claim
Plaintiff raises a First Amendment claim in her reply to the M&R, claiming

that Defendant Judge Reid violated her First Amendment rights by “chastisling] her
at the hearing in which she was unlawfully removed as a party.” (Objs. at 47-48.) For
the reasons stated above discussing judicial immunity, Defendant Reid should be
afforded absolute immunity regarding this claim under Stump. Therefore, this claim
should be dismissed.

19

Case 2:16-cv-00061-FL Document 10 Filed 06/22/17 Page 19 of 31

F

VII.

Due Process Claims under § 1983
Plaintiff objects to the recommendation that her due process claims involving

the deprivation of her right to familial integrity be dismissed because she, as a
grandmother without a judicial order granting her custody of her grandchild, lacks a
constitutionally protected interest to familial association with her grandchild. (Objs.
at 3-4.) More specifically, Plaintiff raises two arguments in her response to the M&R:
(l) that her adult daughter granted her legal custody, and (2) that Troxel v. Granville
and the cases citing Troxel are inapposite because Plaintiff, her daughter, and her
grandchild were residing together in one residence and as a single family unit at the
time Dare County DSS intervened in their lives.
Distinguishable from the custody argument, Plaintiff advances an argument
that, while novel, cannot be said to lack an arguable basis in law or fact: that
grandparents who reside with a grandchild assume parent-like responsibilities for
that child and share intimate family bonds with that child—all with parental consent
and support—have a protected liberty interest in the right to familial integrity under
the Fourteenth Amendment. (Objs. at 3.)
Preliminarily, Plaintiffs criticism of the reliance on Troxel in the M&R is duly
noted and her interpretation of that case is not unique. See generally Michelle
Ognibene, Comment, A Constitutional Analysis of Grandparents’ Custody Rights, 72
U. Chi. L. Rev. 1473, 1486-87 (2005) (“Troxel. . . did not address the possibility that
grandparents might possess a fundamental interest in their grandchildren that does
not conflict with the parents’ wishes, or that the grandparent might effectively stand

20
Case 2:16-cv-00061-FL Document 10 Filed 06/22/17 Page 20 of 31

in the shoes of the parent through an established caregiving relationship with the
parent’s consent. Instead, Troxel stands for the much more limited proposition that
where grandparents’ or others’ wishes conflict with the wishes of the parent, the court
must defer to the parent.”); see also Johnson v. City of Cincinnati, 310 F.3d 484, 501
(6th Cir. 2002) (holding that a grandmother who “has been an active participant in
the lives and activities of her grandchildren, with the consent and support of the
children’s mother[,]” has “a fundamental freedom of association right to participate
in the upbringing of her grandchildren”).
The law has recognized the importance of familial integrity and intimate
association, affording these interests the status of constitutionally protected rights
under the Fourteenth Amendment. As the Sixth Circuit explained,
[b]oth Supreme Court precedent and our national tradition suggest that
a family member’s right to participate in child rearing and education is
one of the most basic and important associational rights protected by
the Constitution. Cf. M.L.B. v. S.L.J., 519 U.S. 102, 116, 117 S. Ct. 555,
136 L.Ed.2d 473 (1996) (plurality opinion) (“Choices about marriage,
family life, and the upbringing of children are among associational
rights this Court has ranked as of basic importance in our society, rights
sheltered by the Fourteenth Amendment against the State’s
unwarranted usurpation, disregard, or. disrespect.” (quoting Boddie v.
Connecticut, 401 U.S. 371, 376, 91 S. Ct. 780, 28 L.Ed.2d 113 (1971))
(internal punctuation omitted) (emphasis added); Moore [v. City ofEast
Cleveland, 431 U.S. [494],D 503-04, 97 S. Ct. 1932 [(1977) (plurality
opinion)] (“[T]he Constitution protects the sanctity of the family
precisely because the institution of the family is deeply rooted in this
Nation’s history and tradition. It is through the family that we inculcate
and pass down many of our most cherished values, moral and cultural.”
(footnotes omitted); see also Roberts [v. United States Jaycees], 468 U.S.
[609],D 619-20, 104 S. Ct. 3244 [(1984)] (“Family relationships, by their
nature, involve deep attachments and commitments to the necessarily
few other individuals with whom one shares not only a special
community of thoughts, experiences, and beliefs but also distinctively
personal aspects of one’s life.”).
21
Case 2:16-cv-00061-FL Document 10 Filed 06/22/17 Page 21 of 31

Johnson, 310 F.3d at 499-500 (6th Cir. 2002) (sixth alteration in original).
The question that Plaintiff presents is whether these rights are extended to
grandparents in situations where the grandparent plays an important role in the care
and upbringing of the child with parental consent. In Johnson, a case involving a
grandmother’s right to visit her grandchildren despite a city ordinance banning her
from doing so because of her criminal record, the Sixth Circuit held that the plaintiffgrandmother had “a fundamental freedom of association right to participate in the
upbringing of her grandchildren.” Johnson, 310 F.3d at 501. In contrast, the Ninth
Circuit has ruled—post- Troxel—that noncustodial grandparents who had assumed
some of the daily parental responsibilities had “neither a substantive due process
right to family integrity or association as noncustodial grandparents of children who
are dependents of the court, nor of a liberty interest in visiting their grandchildren”
based on the particular circumstances of that case. Miller v. California, 355 F.3d
1172, 1176 (9th Cir. 2004). Indeed, the case law in this area is unsettled and there
appears to be no instructive Fourth Circuit opinion. See Rees v. Office of Children
and Youth, 744 F. Supp. 2d 434, 444-52 (W.D. Pa. 2010) (surveying in extreme detail
First, Third, Sixth, Seventh, Ninth, and Tenth Circuit case law addressing the due
process rights of grandparents), affd, 473 F. App’x 139, 2012 WL 1065858 (3d Cir.
2012) (unpublished). Most helpful is the Rees court’s analysis that
certain common themes seem to figure prominently in the cases, most
notably the courts’ emphasis on whether the plaintiff was a custodial
figure or otherwise acting in loco parentis to the children at the time of
the state’s involvement in their lives; whether and for how long the
children had been residing with the plaintiff prior to state intervention!
22

Case 2:16-cv-00061-FL Document 10 Filed 06/22/17 Page 22 of 31

whether the plaintiff has a biological link to the children; whether there
is a potential conflict between the rights of the plaintiff and the rights
or interests of the children’s natural parents! and whether the plaintiff
has any rights or expectations relative to the children under relevant
state law.
Rees, 744 F. Supp. 2d at 451-52. All of the factors identified by the Rees court tend
to support Plaintiffs claim that she had a constitutionally protected interest
regarding association with her grandchild. After further consideration of Plaintiffs
arguments, the lack of Fourth Circuit precedent, and the dissonance between the
circuit courts of appeals, the undersigned recommends that Plaintiffs § 1983 due
process claims not be dismissed on frivolitv review for the reason that Plaintiff lacks
a constitutionally protected interest with regard to her grandchild.
However, Plaintiff must overcome an additional hurdle for her due process
claims to survive frivolity review: whether her constitutionally protected interest in
familial integrity was deprived by the defendant social workers or by the state court.
After all, § 1983 authorizes a cause of action when state officials deprive someone of
her constitutionally protected life, liberty, or property without due process of law.
Here, the Sixth Circuit’s reasoning in Pittman regarding a nearly identical
issue is instructive. In Pittman, a father sued a county social worker for her role in
the removal of his son from the mother’s custody and placement of the child with
other maternal relatives. Pittman, 640 F.3d at 718. The father alleged that the social
worker violated “his fundamental right to maintain a parent-child relationship with
[his son] ... in violation of the Fourteenth Amendment guarantee of substantive and
procedural

due process.” Id. The

father

alleged that the

social worker

23
Case 2:16-cv-00061-FL Document 10 Filed 06/22/17 Page 23 of 31

“misrepresented his desire and ability to parent [his son] to [the county social services
agency] and the juvenile court” and “impeded his ability to participate in the custody
proceedings.” Id. The Sixth Circuit explained-'
[The social worker] cannot be liable for violating [the father]’s
substantive due process rights because, to the extent that [the father]
suffered a deprivation of his fundamental right to family integrity, that
deprivation was perpetrated by the juvenile court, not by [the social
worker].... However, even if [the social worker’s actions led [the county
social services agency] to conclude that [the father] was an unfit
caregiver, this did not result in the failure to award or ‘to even consider’
[the father] for placement or custody. Under Ohio law, the juvenile court
decides whether to grant permanent custody to [the county social
services agency] or to grant legal custody to a relative. . . . [The county
social services agency], like [the father], is merely a party to the juvenile
court proceedings, tasked with presenting to the juvenile court its
recommendation as to the appropriate course of action in a particular
case. Because the juvenile court has the ultimate decisionmaking power
with respect to placement and custody, it alone could deprive [the father]
ofhis fundamental right.
Pittman, 640 F.3d at 729 (emphasis added) (citations omitted).
A review of North Carolina juvenile law reveals that state district court judges
possess similar, if not greater, authority than that of the Ohio judges discussed in
Pittman. ifeeN.C. Gen. Stat. §§ 7B-200 (jurisdiction), -201 (retention and termination
of jurisdiction), -202 (mediation agreements regarding child custody must be
incorporated into court order), -401.1 (defining parties to abuse, neglect, or
dependency case and stating that the county^director of social services that files the
petition is a party), -502 (court has authority to issue order directing that a juvenile
be placed in nonsecure state custody and court has authority to delegate this
authority via administrative order that must be publicly filed), -903 (dispositional
alternatives available to the court, including various custodial placements), -905
24
Case 2:16-cv-00061-FL Document 10 Filed 06/22/17 Page 24 of 31

(dispositional order must be written, signed, and entered by district court), -1101
(district court has exclusive original jurisdiction to “hear and determine” any petition
relating to a termination of parental rights). Thus, county departments of social
services in North Carolina do not have the legal authority to make child custody
determinations! they can only petition a district court to make changes to a child’s
custody via an abuse, neglect, or dependency petition. In light of this, the undersigned
finds the Sixth Circuit’s reasoning in Pittman persuasive and adopts it here.
Plaintiffs claim that she was deprived of her due process rights to family integrity
would be directed to the defendant judges, who are, as described above, absolutely
immune from damages liability.
YIII. Rooker-Feldman
A.

Due Process Claims

Plaintiff argues that the Rooker-Feldman doctrine should not apply to her due
process claims. (Objs. at 5, 9, 19, 38.) As she states in her reply to the M&R,
THIS COMPLAINT IS NOT ABOUT THE DECISIONS MADE AT THE
STATE COURT LEVEL. It is about fraud, corruption, and conspiracy to
destroy a family for financial gain, and all the violations that were
committed in the process - or at. least the actual unlawful steps taken
by DSS, the Courts, and other players that violated Plaintiffs rights and
deprived her of her family and assaulted her reputation — all of which
appear to lead to a conclusion that a conspiracy was involved in the
process.
(Objs. at 38 (emphasis added).) As discussed above, the only state actor that could
work a deprivation of Plaintiff s constitutional rights regarding family integrity is the
state district court judge. And Plaintiffs own statements, an example of which is
quoted above, acknowledge this.
25
Case 2:16-cv-00061-FL Document 10 Filed 06/22/17 Page 25 of 31

This case is nearly identical to Metcalf v. Call, No. 2:14-CV-00010‘MR-DLH,
2014 WL 12497025 (W.D.N.C. Mar. 31, 2014), affd, 584 F. App’x 56 (4th Cir. 2014)
(mem.). In Metcalf, a grandfather a filed a complaint against a state district court
judge, a county attorney, and several private attorneys. See Complaint, Metcalf v.
Call, No. 2:i4-CV-0010-MR-DLH, 2014 WL 12497025 (W.D.N.C. Mar. 31, 2014), ECF
No. 1. The complaint referenced “many aspects of Q two custody suits, legal
malpractice, an interim guardianship hearing and upcoming incompetency hearing
regarding [Plaintiffl’s son, a divorce case regarding [Plaintiffl’s daughter, and more.”
Metcalf, 2014 WL 12497025, at *2. The federal district court found that “it all
relate[d] to the custody of [Plaintiffl’s grandchildren” and that the federal claims were
“a mere pretext for the real focus of the Complaint, which challenges the validity of
records and proceedings of the North Carolina courts that resulted in” custody of the
plaintiffs grandchildren being awarded to their maternal grandmother. Id. (quoting
Stratton v. Mecklenburg Cnty. Dep’t of Soc. Servs., 521 F. App’x 278, 291 (4th Cir.
2013) (per curiam) (unpublished)). In conducting frivolity review of the complaint, the
district court held that the plaintiffs claims were barred by Rooker-Feldman, judicial
immunity, and private actor status. Id. at *3. The Fourth Circuit affirmed, albeit in
an unpublished memorandum decision. Metcalf, 584 F. App’x 56.
Here, the core of Plaintiff s complaint involves the state court’s decision to place
her grandchild into DSS custody via an adjudication of neglect or dependency.
Plaintiff contends that she was her grandchild’s legal custodian. Plaintiff was a party
to the underlying state court case at least long enough to be appointed legal counsel.

26

Case 2:16-cv-00061-FL Document 10 Filed 06/22/17 Page 26 of 31

Therefore, Rooker-Feldman bars Plaintiffs core claims regarding her constitutional
right to familial integrity.
B.

State Court Subject Matter Jurisdiction

Plaintiff claims that the state court lacked subject matter jurisdiction in the
underlying child welfare and adult guardianship cases because the evidence that the
court relied upon was fabricated and otherwise unfairly manipulated by the
defendant social workers. (Objs. at 9-11, 36-37.)
“Subject matter jurisdiction” refers to a court’s “power to hear and determine
cases of the general class or category to which proceedings in question belong.”
Subject matter jurisdiction, BLACK’S LAW DICTIONARY (6th ed. 1990); see also
Standard Oil Co. v. Montecatini Edison S.p.A., 342 F. Supp. 125, 129-30 (D. Del.
1972) (citing Noxon Chemical Products Co. v. Leckie, 39 F.2d 318, 320 (3d Cir. 1930)).
That is, “subject matter jurisdiction” concerns whether a particular court is the right
type of court to hear a particular kind of case.
Plaintiff understandably misinterprets “subject matter jurisdiction.” Her
interpretation is analogous to arguing that a court that presided over a criminal trial
which resulted in a conviction lacked subject matter jurisdiction because the
prosecutor and his witnesses lied in the trial. Despite her statements to the contrary,
Plaintiffs complaint is not about whether the North Carolina district court lacked
subject matter jurisdiction over the underlying cases involving her daughter and
grandchild; her complaint is that those cases were wrongly decided because the
evidence presented was fabricated.

27
Case 2:16-cv-00061-FL Document 10 Filed 06/22/17 Page 27 of 31

In North Carolina, district courts are courts of general jurisdiction that have
“exclusive, original jurisdiction over any case involving a juvenile who is alleged to be
abused, neglected, or dependent.” N.C. Gen. Stat. §§ 7A-3, 7B-101, 7B-200(a). Even
taking Plaintiffs factual allegations to be true, the state court undeniably had subject
matter jurisdiction as the underlying state court case involved an allegation of abuse,
neglect, or dependency.
Moreover, even if this court believed that the state court lacked subject matter
jurisdiction, the RookerFeldman doctrine would nonetheless bar this court from
reviewing that issue. See Inkel v. Connecticut Dep’t of Children & Families, 421 F.
Supp. 2d 513, 522 (D. Conn. 2006) (applying RookerFeldman where plaintiffs
claimed that the submission of false evidence by state child welfare workers operated
to deprive the state court of jurisdiction because “[p] lain tiffs’ remedy for an incorrect
or unfair juvenile court decision is to appeal that decision to higher state courts, not
to seek federal court intervention by way of a civil rights action”); Ashton v. Cafero,
920 F. Supp. 35, 37 (D. Conn. 1996) (holding that RookerFeldman barred plaintiffs
§ 1983 and § 1985 claims because those claims depended upon plaintiffs allegation
that the state court lacked jurisdiction to enter the order that formed the basis of
plaintiffs complaint and “[a] finding of jurisdiction is implicit in the [state court’s]
decision to issue the order”); see also Suzanna Sherry, Judicial Federalism in the
Trenches-' the RookerFeldman Doctrine in Action, 74 Notre Dame L. Rev. 1085,
1093-94 (1999) (“[A] lower federal court should not have jurisdiction to override the

28
Case 2:16-cv-00061-FL Document 10 Filed 06/22/17 Page 28 of 31

original [state] court’s determination of its own jurisdiction, at least when the party
contesting jurisdiction appeared and litigated the jurisdictional issue.”).
IX.

Monell Claims
In support of her Monell claim, Plaintiff argues that the Dare County

defendant social workers, judges, and attorney had a local practice to violate state
law and the Uniform Child-Custody Jurisdiction and Enforcement Act (UCCJEA). As
stated above, a violation of state law cannot provide the basis for a § 1983 claim. The
UCCJEA is an interstate compact that North Carolina has joined; it is, therefore,
state, not federal, law. See N.C. Gen. Stat. §§ 50A-1 to -25. Accordingly, Plaintiffs
Monell claim should be dismissed as frivolous or for failure to state a claim upon
which relief can be granted.
X.

Claims Summary
After review, the undersigned hereby supplements the initial M&R and makes

the recommendations noted above. In addition to the initial recommendation that
Plaintiffs Fourth Amendment claims against Defendants Foltz, Lycett, Ryder, and
Officer Does of the Kill Devil Hills Police Department be permitted to proceed, the
undersigned now recommends that the Fourth Amendment claims be permitted to
proceed against Defendants Burrus and Corprew.
Plaintiffs procedural due process claim involving injury to reputation due to
placement on North Carolina’s “responsible individuals” list should also be permitted
to proceed against all of the defendant social workers (Burrus, Corprew, Foltz, Lycett,

29
Case 2:16-cv-00061-FL Document 10 Filed 06/22/17 Page 29 of 31

r

and Ryder from Dare County DSS, and Harris, Hurd, and Romm from Currituck
County DSS) as well as Defendant Clerk of Court Matusko.
All of Plaintiffs remaining claims should be dismissed based on absolute
immunity, Rooker-Feldman, or defendants’ private actor status.
CONCLUSION
For the reasons stated above and in the initial M&R, the undersigned
determines (l) that Plaintiffs § 1983 and § 1985 claims against Defendants Burrus,
Corprew, Foltz, Lycett, Ryder, and Officer Does of the Kill Devil Hills Police
Department alleging violations of Plaintiffs Fourth Amendment rights survive
frivolity review; and (2) that Plaintiffs § 1983 procedural due process claim alleging
injury to reputation against Defendants Burrus, Corprew, Foltz, Harris, Hurd,
Lycett, Matusko, Romm, and Ryder survives frivolity review.
Accordingly, it is RECOMMENDED that Plaintiffs § 1983 and § 1985 claims
against Defendants Foltz, Lycett, Ryder, and Officer Does of the Kill Devil Hills Police
Department arising under the Fourth Amendment be allowed to proceed! that
Plaintiffs § 1983 procedural due process claim arising under the Fourteenth
Amendment alleging injury to reputation against Defendants Burrus, Corprew,
Harris, Hurd, Lycett, Matusko, Romm, and Ryder be allowed to proceed; and that
Plaintiffs remaining claims be DISMISSED for lack of jurisdiction or, alternatively,
as frivolous or for failure to state a claim as more fully set forth hereinabove.
IT IS DIRECTED that a copy of this Memorandum and Recommendation be
served on Plaintiff. Plaintiff is hereby advised as follows:

30
Case 2:16-cv-00061-FL Document 10 Filed 06/22/17 Page 30 of 31

t y

You shall have until July 10, 2017, to file written objections to the
Memorandum and Recommendation. The presiding district judge must conduct his
or her own review (that is, make a de novo determination) of those portions of the
Memorandum and Recommendation to which objection is properly made and may
accept,

reject,

or

modify

the

determinations

in

the

Memorandum

and

Recommendation; receive further evidence! or return the matter to the magistrate
judge with instructions. See, e.g., 28 U.S.C. § 636(b)(1); Fed. R. Civ. P. 72(b)(3); Local
Civ. R. 1.1 (permitting modification of deadlines specified in local rules), 72.4(b),
E.D.N.C.
If you do not file written objections to the Memorandum and Recommendation
by the foregoing deadline, you will be giving up the right to review of the
Memorandum and Recommendation by the presiding district judge as described
above, and the presiding district judge may enter an order or judgment based on the
Memorandum and Recommendation without such review. In addition, your failure
to file written objections by the foregoing deadline may bar you from appealing to the
Court of Appeals from an order or judgment of the presiding district judge based on
the Memorandum and Recommendation. See Wright v. Collins, 766 F.2d 841, 846‘47
(4th Cir. 1985).
This 21st day of June 2017.

1 certify the foregoing to be a true and correct

KIMBERLY A. SWANK
United States Magistrate Judge

31
Case 2:16-cv-00061-FL Document 10 Filed 06/22/17 Page 31 of 31

w

USCA4 Appeal: 19-1409

Doc: 22

. i

Filed: 11/23/2020

Pg: 1 of 2

J

FILED: November 23, 2020

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-1409
(2:16-CV-00061 -FL)

SUSAN W. VAUGHAN, an individual
Plaintiff - Appellant
v.
SHANNON FOLTZ, an individual; SAMANTHA HURD, an individual;
KRISTEN HARRIS, an individual; KATHLYN ROMM, an individual; RAY
MATUSKO; STEPHANIE RYDER, an individual; CHUCK LYCETT, an
individual; MELANIE CORPREW, an individual; JAY BURRUS, an individual;
OFFICER DOE, an individual; DOES 3-10; MELISSA TURNAGE;
KATHERINE MCCARRON; OFFICER MIKE SUDDUTH; OFFICER CARL
WHITE; DOUG DOUGHTIE, an individual
Defendants - Appellees
and

jem

HON. ROBERT TRIVETTE, an individual; MEADER HARRISS, an individual;
HQN. AMBER DAVIS, an individual; COURTNEY HULL, an individual;
ASST. DIST. ATTORNEY EULA REID, an individual; DARE COUNTY;
CURRITUCK COUNTY; KILL DEVIL HILLS; SUSAN HARMON-SCOTT, an
individual; MERLEE AUSTIN, an individual
Defendants

en cl IX A

4^

US&A4 Appeal: 19-1409
<■

L

Doc: 22

Filed: 11/23/2020

Pg: 2 of 2

l

ORDER
The court denies the petition for rehearing and rehearing en banc. No judge
requested a poll under Fed. R. App. P. 35 on the petition for rehearing en banc.
Entered at the direction of the panel: Judge King, Judge Agee, and Judge
Richardson.
For the Court
/s/ Patricia S. Connor. Clerk

/•

IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF NORTH CAROLINA
NORTHERN DIVISION
No. 2:16-CV-61-FL
SUSAN W. VAUGHAN, an individual
Plaintiff,
v.
SHANNON FOLTZ an individual,
SAMANTHA HURD an individual,
KRISTEN HARRIS an individual,
KATHLYN ROMM an individual,
DOUG DOUGHTIE an individual, RAY
MATUSKO an individual, STEPHANIE
RYDER an individual, CHUCK LYCETT
an individual, MELANIE CORPREW an
individual, HON. ROBERT TRIVETTE an
individual, JAY BURRIS an individual,
HON. AMBER DAVIS an individual,
OFFICER DOE an individual, HON.
EULA REID an individual, DARE
COUNTY, CURRITUCK COUNTY,
KILL DEVIL HILLS, DOES 1-10
individuals, MELISSA TURNAGE an
individual, and KATHERINE
MCCARRON, an individual.
Defendants.

)
)
)
)
)
)
)
)
)
)

)
)
)
)
)
)
)
)

ORDER

)

)
)

)
)
)
)
)

This matter comes before the court on frivolity review of plaintiffs pro se complaint,
pursuant to 28 U.S.C. § 1915(e)(2)(B). Pursuant to 28 U.S.C. § 636(b)(1)(B) and Federal Rule of
Civil Procedure 72(b),United States Magistrate Judge Kimberly A. Swank entered a memorandum
and recommendation (“M&R”) and supplemental memorandum and recommendation

1 This court constructively amends the caption of this order to reflect the addition and
removal of certain defendants as found in plaintiffs amended complaint. (See Am. Compl. (DE
13)).

i 'x

A

Case 2:16-cv-00061-FL Document 16 Filed 10/27/17 Page 1 of 19

(“supplemental M&R”), wherein it is recommended that the court dismiss in part plaintiffs claims
and allow certain claims to proceed. (DE 5; DE 10). Plaintiff timely filed objections to the M&R
and supplemental M&R. (DE 6; DE 11). Thereafter, plaintiff filed an amended complaint, seeking
to add as plaintiff her daughter, Jennifer Vaughan. (See Am. Compl. (DE 13)). In this posture, the
issues raised are ripe for ruling. The court adopts some of the recommendations of the magistrate
judge, albeit in part on different grounds, and undertakes herein its own frivolity review of the
amended complaint, pursuant to 28 U.S.C. § 1915(e)(2)(B), dismissing in part plaintiff s claims and
allowing certain claims to proceed.

BACKGROUND
Plaintiff initiated this action by filing motion for leave to proceed in forma pauperis (“IFP”)
on August 15,2016, accompanied by proposed complaint. All claims arise from defendants’ alleged
involvement in removal of both plaintiffs adult daughter, Jennifer Vaughan, and plaintiffs
granddaughter and the daughter of Jennifer Vaughan, a minor child referred to as “EJV,” from
plaintiffs home.2 Plaintiff asserts claims against defendants for constitutional violations pursuant
to 42 U.S.C. § 1983 as well as conspiracy to violate those rights. Plaintiff seeks damages, attorneys
fees, trial by jury, and injunctive relief.
In August 2013, plaintiff and her daughter, together with EJV, were residing at plaintiffs

2 Plaintiff alleges claims against seven groups: 1) Dare County, Currituck County, and Kill Devil Hills; 2) state
district court judges who presided over various district court hearings concerning the child welfare proceedings,
defendants Eula Reid (“Reid”), Robert Trivette (“Trivette”), and Amber Davis (“Davis”); 3) DSS employees associated
with the child welfare proceedings, defendants Shannon Foltz (“Foltz”), Chuck Lycett (“Lycett”), Jay Burrus (“Burras”),
Kristen Harris (“Harris”), Samantha Hurd (“Hurd”), and Kathlyn Romm (“Romm”); 4) DSS employees associated with
the commitment proceedings, defendants Stephanie Ryder (“Ryder”), Melanie Corprew (“Corprew”), Melissa Tumage
(“Tumage”), and Katherine McCarron (“McCarron”); 5) defendant Ray Matusko (“Matusko”), county clerk of Currituck
County District Court; 6) defendant Doug Doughtie (“Doughtie”), who held the position of sheriff of Dare County at
the time of plaintiffs allegations; and 7) generally named Does 1-10 and officer Does from the Kill Devil Hills police
department.

2

Case 2:16-cv-00061-FL Document 16 Filed 10/27/17 Page 2 of 19

home in Kill Devil Hills, North Carolina.3 In August 2013, the Dare County Department of Social
Services (“DSS”) filed a petition alleging that EJV was neglected, thereby initiating a child welfare
case involving Jennifer Vaughan and EJV. On August 13, 2013, Dare County DSS, accompanied
by officers from Kill Devil Hills Police Department, removed Jennifer Vaughan from plaintiffs
home pursuant to what plaintiff suggests was an involuntary civil commitment order. (Am. Compl.
(DE 13) at 29). The next day, Dare County DSS removed EJV from plaintiffs physical custody
and placed the child into temporary foster care based on allegations that EJV was neglected. Child
welfare proceedings in North Carolina district court ensued. It also appears that adult protective
services division of Dare County DSS obtained guardianship over Jennifer Vaughan on or about this
time. (Id at 39). Plaintiff attended both sets of proceedings.
Plaintiff is dissatisfied with the state courts’ decisions not to return EJV to Jennifer
Vaughan’s custody or plaintiffs home! Plaintiff is also dissatisfied with the manner in which
Jennifer Vaughan, sought to be added as plaintiff, and EJV physically were removed from her home
and with the legal process that culminated in legal custody of EJV being awarded to Currituck
County DSS, EJV being adopted by persons unknown, guardianship over Jennifer Vaughan being
awarded to Dare County DSS, and Jennifer Vaughan being involuntarily committed multiple times.4
On May 8, 2017, the magistrate judge granted plaintiffs IFP petition and issued a M&R,
recommending that claims against certain defendants alleging violations of plaintiffs Fourth
Amendment rights should proceed and that plaintiff s remaining claims should be dismissed without

3 The court incorporates the magistrate judge’s background as provided in the M&R, as revised here to include
information found in plaintiffs amended complaint. (See M&R (DE 5) at 2-3).
4 The child welfare proceedings were transferred from Dare County to Currituck County due to a conflict of
interest caused by Dare County having guardianship over Jennifer Vaughan and legal custody of EJV.

3

Case 2:16-cv-00061-FL Document 16 Filed 10/27/17 Page 3 of 19

prejudice. Plaintiff filed objections to the M&R on May 23, 2017, challenging the magistrate
judge’s determinations concerning the dismissal recommendations. On May 24, 2017, this court
noted in a text order that plaintiff had filed a 50 page objection, on the heels of a 92 page complaint,
seeking in part to clarify her operative pleading. The court recommitted the matter to the magistrate
judge pursuant to Federal Rule of Civil Procedure 72(b)(3) to review plaintiffs objections and
address the same in supplement to the M&R.
On June 22, 2017, the magistrate judge issued a supplemental M&R, recommending
plaintiffs following claims proceed:
1)

§ 1983 and § 1985 conspiracy claims against DSS defendants Burras, Corprew,
Foltz, Lycett, and Ryder and defendants officer Does of the Kill Devil Hills police
department alleging violations of plaintiffs Fourth Amendment rights and

2)

§ 1983 procedural due process claims against DSS defendants Burras, Corprew,
Foltz, Harris, Hurd, Lycett, Romm, and Ryder and defendant Matusko, clerk of
superior court for Dare County, alleging injury to reputation regarding plaintiffs
placement on the list of “responsible individuals” pursuant to N.C. Gen. Stat. § 7B311.

The magistrate judge recommended the following claims be dismissed without prejudice:.5
1)

§1983 substantive and procedural due process claims and related § 1985 conspiracy
claims against all DSS defendants arising under the Fourteenth Amendment as it
pertains to child welfare proceedings of EJV and civil commitment proceedings as
it pertains to plaintiffs daughter, Jennifer Vaughan;

2)

claims against defendants Reid, Trivette, and Davis, including a First Amendment
claim against Reid;

3)

claims against Doughtie, for “obstruction of justice”;

5 The magistrate judge also recommended the dismissal of the following claims which plaintiff has removed
from her amended complaint and therefore which the court need not address: claims against the state of North Carolina
and North Carolina Indigent Defense Services; claims against Merlee Austin, former clerk of superior court for Dare
County; claims against attorney Susan Harmon-Scott, guardian ad litem to Jennifer Vaughan; and claims against
attorneys Meader Harriss and Courtney Hull.

4

Case 2:16-cv-00061-FL Document 16 Filed 10/27/17 Page 4 of 19

4)

claims against Currituck County, Dare County, and Kill Devil Hills; and

5)

§ 1983 procedural due process claims alleging injury to reputation regarding a
judicial finding that plaintiff, as caretaker of her grandchild, was responsible for
neglect.

On July 10,2017, plaintiff filed objections to the supplemental M&R, again challenging the
magistrate judge’s determinations concerning the dismissal recommendations. Amended complaint
then was filed on August 25, 2017, seeking in part to add as plaintiff Jennifer Vaughan.6
DISCUSSION
A. Standard of Review
The district court reviews de novo those portions of a magistrate judge’s M&R to which
specific objections are filed. 28 U.S.C. § 636(b). The court does not perform a de novo review
where a party makes only “general and conclusory objections that do not direct the court to a
specific error in the magistrate’s proposed findings and recommendations.” Orpiano v. Johnson. 687
F.2d 44,47 (4th Cir. 1982). Absent a specific and timely filed objection, the court reviews only for
“clear error,” and need not give any explanation for adopting the M&R. Diamond v. Colonial Life
& Accident Ins. Co.. 416 F.3d 310, 315 (4th Cir. 2005); Cambv v. Davis. 718 F.2d 198, 200 (4th
Cir. 1983). Upon careful review of the record, “the court may accept, reject, or modify, in whole or
in part, the findings or recommendations made by the magistrate judge.” 28 U.S.C. § 636(b)(1).
Under 28 U.S.C. § 1915(e)(2), the court may dismiss an action that is frivolous or malicious, fails
to state a claim on which relief may be granted, or seeks monetary relief against a defendant who
is immune from such relief.
A complaint may be found frivolous if it “lacks an arguable basis either in law or in fact.”
6 On September 5,2017, the court allowed plaintiff to file her August 25,2017 amended complaint as of right,
see Fed. R. Civ. Pro. 15, but did not address issues regarding the addition of Jennifer Vaughan as plaintiff.

5
Case 2:16-cv-00061-FL Document 16 Filed 10/27/17 Page 5 of 19

Neitzke v. Williams, 490 U.S. 319, 325 (1989). Additionally, a complaint fails to state a claim if
it does not “contain sufficient factual matter, accepted as true, to state a claim to relief that is
plausible on its face,” sufficient to “allow[ ] the court to draw the reasonable inference that the
defendant is liable for the misconduct alleged.” Ashcroft v. Iqbal. 556 U.S. 662, 678 (2009)
(quotations omitted). In evaluating whether a claim has been stated, “[the] court accepts all
well-pled facts as true and construes those facts in the light most favorable to the plaintiff,” but does
not consider “legal conclusions, elements of a cause of action,... bare assertions devoid of further
factual enhancement [,]... unwarranted inferences, unreasonable conclusions, or arguments.”
Nemet Chevrolet. Ltd, v. Consumeraffairs.com. Inc.. 591 F.3d 250, 255 (4th Cir. 2009) (citations
omitted).
B.

Analysis
The court will first address Jennifer Vaughan’s competency to be joined as plaintiff. The

court will then address immunity concerns and thereafter address the merits of plaintiffs due
process, Fourth Amendment, and injury to reputation claims. The court then will address plaintiff s
claims against defendants Doughtie, Currituck County, Dare County, and Kill Devil Hills. Finally,
the court will address plaintiffs request for preliminary injunction.
1.

Competency of Jennifer Vaughan

At the outset, the court must address plaintiffs request to add her daughter Jennifer Vaughan
as plaintiff. Plaintiff alleges that defendants Tumage and McCarron are Jennifer Vaughan’s
appointed guardians. Jennifer Vaughan involuntarily was committed, and apparently so remains.
(Am. Compl. (DE 13) at 67).
Plaintiffs attempt to add her daughter as a party plaintiff is a blatant effort to defeat the state

6

Case 2:16-cv-00061-FL Document 16 Filed 10/27/17 Page 6 of 19

authorized guardianship. Moreover, it smacks of the unauthorized practice of law before this court.
Plaintiff, proceeding pro se, is the architect of this lawsuit. She cannot represent anyone other than
herself in this instance. See Myers v. Loudon Co. Pub. Sch.. 418 F.3d 395, 400 (4th Cir. 2005)
(“The right to litigate for oneself, however, does not create a coordinate right to litigate for others.”).
Plaintiffs attempt to add Jennifer Vaughan to plaintiffs side of the case caption and assert her
interests directly in this case must fail. Amendment in this respect is rendered a nullity.
2.

Immunity

Turning to immunity concerns, plaintiffin her objections to the supplemental M&R does not
raise specific objections to any component of the magistrate judge’s immunity analysis except
regarding the state district court judges, which the court addresses below. Accordingly, the court
reviews the rest of the magistrate judge’s immunity analysis for clear error.
Upon careful review of the record and the M&R and supplemental M&R, the court adopts
in full the immunity analysis of the magistrate judge that recommended that a finding of immunity
for DSS employees, defendant Matusko as county clerk, defendant Doughtie as sheriff, and the
unnamed officer Does is premature at this stage in the litigation. (See M&R (DE 5) at 9-15, 22;
Supp. M&R (DE 10) at 7-10 (citing Vosburg v. Dep’t of Soc. Servs.. 884 F.2d 133, 138 (4th Cir.
1989) (“We emphasize, however, that our grant of absolute immunity applies only to those activities
of social workers that could be deemed prosecutorial. We in no way intend our decision to be read
as holding that such workers are immune from liability arising from their conduct in investigating
the possibility that a removal petition should be filed.”); McCray v. Maryland. 456 F.2d 1, 4 (4th
Cir. 1972) (rejecting argument that court clerks are immune from suit where they fail “to perform
a required ministerial act”), abrogated on other grounds. Pink v. Lester. 52 F.3d 73, 77 (4th

7

Case 2:16-cv-00061-FL Document 16 Filed 10/27/17 Page 7 of 19

Cir. 1995); Gomez v. Toledo. 446 U.S. 635, 639-40 (1980) (holding in a § 1983 action against a
public official whose position might entitle him to qualified immunity, a plaintiff need not allege
that the official acted in bad faith in order to state a claim for relief; burden is on defendant to plead
good faith as an affirmative defense)).
Turning to plaintiffs objections to the magistrate judge’s immunity analysis, plaintiff argues
that her claims against defendants Reid, Trivette, and Davis should not be dismissed based on
judicial immunity. Plaintiff suggests that because plaintiff s right of due process was violated during
her grandchild’s child welfare proceedings and because DSS lacked authority to initiate the original
child welfare investigation, the judges that oversaw the case lack subject-matter jurisdiction and
therefore cannot maintain judicial immunity. (See PI. ’s Obi. (DE 11) at 1-4,12-14). Plaintiff offers
the following illustration: “For example[,] judges wouldn’t have authority over a person accused
of eating a peanut better sandwich after dark, just because that person lives in a certain district where
a judge normally has jurisdiction, because that act is not a crime.” (Id at 4).
The magistrate judge correctly set out and applied the law of absolute immunity. As set out
in the M&R and supplemental M&R, “judges are absolutely immune from suit for a deprivation of
civil rights” for actions taken within their jurisdiction. King v. Myers. 973 F.2d 354, 356 (4th Cir.
1992); see Stump v. Sparkman. 435 U.S. 349, 356-57 (1978) (“A judge will not be deprived of
immunity because the action he took was in error, was done maliciously, or was in excess of his
authority; rather, he will be subject to liability only when he has acted in the clear absence of all
jurisdiction.”) (interior citation omitted).
Here, defendant judges are North Carolina district court judges and therefore have
“exclusive, original jurisdiction over any case involving a juvenile who is alleged to be abused,

8

Case 2:16-cv-00061-FL Document 16 Filed 10/27/17 Page 8 of 19

neglected, or dependant.” N.C. Gen. Stat. §§ 7B-101, -200a. This includes jurisdiction over cases
involving juveniles that are found not to be abused, neglected, or dependant, or in cases where DSS
did not conform to the necessary or appropriate procedures in its investigation, because it is the
province of North Carolina district court judges to so determine.
Plaintiff numerous times argues that DSS and other authorities failed to conform to the
necessary procedures in their investigation of plaintiff and her family and in the hearings that
followed. ISee. e.g.. Pl.’s Obj. (DE 11) at 2-9). Here, whether or not DSS and other authorities,
including the defendant judges, conformed with the applicable procedures, statutes, and law in
reaching the determination that EJV and Jennifer Vaughan should be removed from plaintiff s home
is irrelevant to a determination of subject-matter jurisdiction of North Carolina district courts over
such proceedings, as stated above, and does not compromise judicial immunity. See McCray. 456
F. 2d at 3 (“The absolute immunity from suit for alleged deprivation of rights enjoyed by judges is
matchless in its protection ofjudicial power. It shields judges even against allegations of malice or
corruption.”).
Therefore, the court agrees with the magistrate judge that defendants Reid, Trivette, and
Davis retain absolute immunity from plaintiffs claims and that plaintiffs claims against such
defendants must be and are hereby dismissed with prejudice.
3.

Due Process Claims

Plaintiffs primary claims in this case fall under § 1983 and appear to be assertions that her
rights to substantive and procedural due process in state child welfare and state civil commitment
proceedings have been violated.
The Due Process Clause of the Fourteenth Amendment prohibits states from depriving “any

9

Case 2:16-cv-00061-FL Document 16 Filed 10/27/17 Page 9 of 19

person of life, liberty, or property, without due process of law.” U.S. Const, amend. XIV. Due
process consists of both substantive and procedural due process components, both of which are
asserted here. See Sunrise Corn, of Myrtle Beach v. City of Myrtle Beach. 420 F.3d 322, 328 (4th
Cir. 2005). “In order to prevail on either a procedural or substantive due process claim, [plaintiffs]
must first demonstrate that they were deprived of life, liberty, or property by governmental action.”
Beverati v. Smith. 120 F.3d 500, 502 (4th Cir. 1997) (interior citation omitted). For a substantive
due process claim, a plaintiff must also show that the state’s action is so arbitrary and egregious that
it “shocks the conscience.” Cntv. of Sacramento v. Lewis. 523 U.S. 833, 846 (1998).
a.

Due Process Claims Regarding Child Welfare Proceedings

In order to state a substantive or procedural due process claim to survive frivolity review,
plaintiff must assert a constitutionally protected liberty interest, and she has failed to do so. See
Weller v. Dep’t of Soc. Servs. for City of Baltimore. 901 F.2d 387, 391 (4th Cir. 1990) (“In order
to rely on the due process clause, Weller must have a protectible interest. In this case, Weller clearly
does have a protectible liberty interest in the care and custody of his children. However, other
asserted liberty interests are not among those protected by the due process clause.”).
Although the Supreme Court has recognized a “fundamental liberty interest of natural
parents in the care, custody, and management of their child,” Santoskv v. Kramer. 455 U.S. 745,753
(1982), this right does not extend to the child’s grandmother who has no constitutionally recognized
right to visitation and also, therefore, no constitutionally recognized right to grandparent-grandchild
companionship. See Troxel v. Granville. 530 U.S. 57, 71 (2000) (holding state visitation order
granting visitation to grandparents was an unconstitutional infringement of the mother’s
“fundamental right to make decisions concerning the care, custody, and control of her two

10

Case 2:16-cv-00061-FL Document 16 Filed 10/27/17 Page 10 of 19

daughters”); see also Buck v. Greenlee. No. 3:10-CV-540-RJC-DSC, 2011 WL 4595262, at *7
(W.D.N.C. Sept. 30, 2011) (citing TroxeD (“Grandparents have no constitutional right to
visitation”), affd, 465 F. App’x 244 (4th Cir. 2012).
In the supplemental M&R, the magistrate judge correctly notes that “the case law in this area
is unsettled and there appears to be no instructive Fourth Circuit opinion” regarding the recognition
of a grandparent’s constitutionally protected interest with regard to the companionship of her
grandchild. (Supp. M&R (DE 10) at 22). The magistrate judge therefore recommended that
plaintiffs §1983 due process claim not be dismissed because plaintiff lacks a constitutionally
protected interest with regard to her grandchild, but because “plaintiff s claims that she was deprived
of her due process rights to family integrity would be directed to the defendant judges, who are, as
described above, absolutely immune from damages liability.” (Id. at 23-25 (citing Pittman v.
Cuyahoga County Dept. Of Children and Family Services. 640 F. 3d 716 (6th. Cir. 2011)). The
Fourth Circuit, however, has instructed district courts to “exercise judicial self restraint and utmost
care in novel substantive due process cases.” Wavbright v. Frederick County. 528 F.3d 199, 204
(4th Cir. 2008) (citing Collins v. City of Harker Heights. Tex.. 503 U.S. 115, 125 (1992) (interior
quotations omitted)). The court is unaware of any Supreme Court or Fourth Circuit authority that
recognizes a constitutionally protected liberty interest of a grandparent with regard to her
grandchild; therefore, the court declines to add such a right within the protections of the due process
clause.7

7 The magistrate judge recommended that even if plaintiff had a legally cognizable interest underlying her due
process claims, all such claims would be barred by the Rooker-Feldman doctrine. See District of Columbia Court of
Appeals v. Feldman. 460 U.S. 462, 482-84 (1983) (holding that federal courts are prohibited from sitting “in direct
review of state court decisions”). Because the court determines that plaintiff has no legally cognizable interest
underlying her due process claims, it is unnecessary for the court to determine if such a broad application of the RookerFeldman doctrine is consistent with the Fourth Circuit’s holding in Thana v. Bd. of License Commissioners for Charles

11
Case 2:16-cv-00061-FL Document 16 Filed 10/27/17 Page 11 of 19

Therefore, plaintiff has failed to assert a constitutionally protected interest in order to state
a due process claim regarding the challenged state child welfare proceedings. Additionally, her
§ 1983 allegations of conspiracy related to her deprivation of the constitutionally protected interest
must also fail. See Glassman v. Arlington Ctv.. VA. 628 F.3d 140, 150 (4th Cir. 2010) (“Because
we hold that the defendants’ actions in this case did not result in the ‘deprivation of a constitutional
right,’ we conclude that Glassman’s civil conspiracy claim was properly dismissed.”).
b.

Due Process Claims Regarding State Civil Commitment Proceedings

The magistrate judge correctly set forth that the Supreme Court has not recognized a
constitutionally protected right to the companionship of an adult child and has extended liberty
interests of parents under the Due Process Clause only for parents’ relationships with minor
children. See Meyer v. Nebraska. 262 U.S. 390, 399 (1923) (involving a minor child); Prince v.
Massachusetts. 321 U.S. 158, 166 (1944) (same); Troxel. 530 U.S. at 66 (same); Wisconsin v.
Yoder. 406 U.S. 205, 213-14 (1972) (same); see also Evans v. Pitt Ctv. Dep’t of Soc. Servs.. 972
F. Supp. 2d 778, 783 and 794-95 (E.D.N.C. 2013) (“Plaintiffs normative argument that she should
have a liberty interest in her familial [adult] child-parent relationship is simply not supported by
constitutional case law.”), vacated in part, appeal dismissed in part sub nom. Evans v. Perry. 578 F.
App’x 229 (4th Cir. 2014), aff d in part. 616 F. App’x 636 (4th Cir. 2015).

Ctv.. Maryland. 827 F.3d 314, 319 (4th Cir. 2016).
8 The magistrate judge construed plaintiffs civil conspiracy claims to be brought pursuant to 42 U.S.C. § 1985
instead of 42 U.S.C. § 1983. Because a plaintiff must show that the alleged conspiracy brought pursuant to § 1985 was
motivated by “some racial, or perhaps otherwise class-based invidiously discriminatory animus,” Griffin v. Breckenridge.
403 U.S. 88,102 (1971), and no such motivations are alleged here, the court analyzes plaintiffs conspiracy allegations
pursuant to § 1983.
9 Additionally, plaintiff alleges no facts in either her complaint or amended complaint or in either of her
objections to the M&R or supplemental M&R that she had or has legal guardianship of her daughter or legal custody
ofher grandchild and alleges facts that indicate otherwise. (See.e.g.. Am. Compl. (DE13) at 17 (plaintiffneeded written

12
Case 2:16-cv-00061-FL Document 16 Filed 10/27/17 Page 12 of 19

Therefore, the court holds that plaintiff has failed to assert a constitutionally protected
interest in order to state a due process claim regarding the challenged state civil commitment
proceedings.

Additionally, her allegations of conspiracy related to her deprivation of the

constitutionally protected interest must also fail. See Glassman, 628 F.3d at 150.
4.

Fourth Amendment Claims

Plaintiff additionally assert claims against defendants Foltz, Lycett, Ryder, Tumage,
McCarron, and unnamed Kill Devil Hills police officers alleging violations of her Fourth
Amendment right to be free from unreasonable governmental searches and seizures.
“The Fourth Amendment protects against unreasonable searches and seizures.” Wildauer
v. Frederick Ctv.. 993 F.2d 369, 372 (4th Cir. 1993) (citing United States v. Place. 462 U.S. 696
(1983)). While still governed by the Fourth Amendment, “investigative home visits by social
workers are not subject to the same scrutiny as searches in the criminal context.” Id at 372 (citing
Wvman v. Jones. 400 U.S. 309, 318 (1971)).
Plaintiff alleges that an unidentified Kill Devil Hills police officer along with defendants
Tumage andMcCarron unlawfully entered her home sometime inFebruary 2015. (Am. Compl. (DE
13) at 70-71).10 Plaintiff alleges that these persons demanded entrance to her home to speak with
Jennifer Vaughan, that these persons lacked a court order or other legal process, that Jennifer
Vaughan had opened the door for another reason and then subsequently attempted to close it, and
that the police officer placed his foot in the doorway to prevent the door closing. (Id.) Plaintiff

permission from mother to take EJV to pediatrician); 35 (petition filed by Dare County DSS alleged neglect and
dependency “due to mother’s inability to care”; 29, 32 and 33 (efforts taken by plaintiff to secure daughter’s power of
attorney)).
10 Plaintiffs amended complaint identifies defendants Tumage and McCarron as the previously unnamed
employees of Dare County DSS that entered plaintiffs home. (See Am. Compl. (DE 13) at 71; M&R (DE 5) at 21).

13

Case 2:16-cv-00061-FL Document 16 Filed 10/27/17 Page 13 of 19

alleges that a physical struggle ensued, wherein plaintiff and Jennifer Vaughan pushed against the
door but were prevented from closing it by the police officer, fid.) Plaintiff alleges that the police
officer finally removed his foot and stated that he would return with “with papers” and would “break
down” plaintiffs door. (Id). Plaintiff also alleges other unlawful entries of her home by defendants
Ryder, Foltz, Lycett, and Kill Devil Hills police officers, although plaintiff notes that these entries
may have been conducted pursuant to court orders, which the court does not currently have before
it. (Id at 26-27 and 33).
The court agrees with the magistrate judge that plaintiff has alleged sufficient facts to
withstand frivolity review as to these Fourth Amendment claims and that proper analysis of these
incidents requires additional clarity regarding the court orders involved. “[Pjhysical entry of the
home is the chief evil against which the wording of the Fourth Amendment is directed.” Payton v.
New York. 445 U.S. 573, 585 (1980) (quoting United States v. United States District Court. 407
U.S. 297, 313 (1972)). Plaintiff has alleged such entry by the government in some cases without a
warrant and in all cases without consent.
However, the court disagrees with the magistrate judge that plaintiffs conspiracy claims,
construed as brought under 42 U.S.C. § 1983, allege facts sufficientto survive frivolity review. (See
Am. Compl. (DE 13) at 15 (“All defendants interfered, directly or indirectly in [plaintiffs]
constitutional right to be free from unlawful searches and seizures, with [her] right to enjoy the
peace and privacy of [her] own home . . . .”)). Therefore, plaintiffs § 1983 claims alleging
conspiracy to deprive plaintiff of her Fourth Amendment rights are dismissed without prejudice.
See Nemet Chevrolet. Ltd.. 591 F.3d at 255 (the court does not consider “bare assertions devoid of
further factual enhancement”).

14

Case 2:16-cv-00061-FL Document 16 Filed 10/27/17 Page 14 of 19

5.

Injury to Reputation Claims
An injury to reputation claim based on denial of procedural due process is premised on two

rights guaranteed by the Fourteenth Amendment: 1) “the liberty to engage in any of the common
occupations of life” and 2) “the right to due process [wjhere a person’s good name, reputation,
honor, or integrity is at stake because of what the government is doing to him.” Sciolino v. City of
Newport News. Va.. 480 F.3d 642, 646 (4th Cir. 2007) (alteration in original) (citations omitted)
(quoting Bd. of Regents of State Colls, v. Roth. 408 U.S. 564, 572 (1972) and Wisconsin v.
Constantineau. 400 U.S. 433, 437 (1971)). However, the Supreme Court has held that reputation
alone does not implicate any “liberty” or “property” interest sufficient to invoke the procedural
protection for the due process clause and something more than simple defamation, for example
“some more tangible interests such as employment,” must be involved to establish a claim under
§ 1983. Paul v. Davis. 424 U.S. 693, 701 (1976).
Plaintiff alleges that plaintiffs placement on the list of “responsible individuals” pursuant
to N.C. Gen. Stat. § 7B-311 has impaired her employment prospects and identifies DSS defendants
Burrus, Corprew, Foltz, Harris, Hurd, Lycett, Romm, and Ryder and defendant Matusko as the
individuals who caused the injury.11 Plaintiff alleges that the social workers lied or misrepresented
facts in the underlying child welfare matter that resulted in her placement on the list and that
defendant Matusko intentionally failed to perform ministerial duties required by state law involving
plaintiffs rights under N.C. Gen. Stat. § 7B-323.
Plaintiff does not raise specific objections to any component of the magistrate judge’s

11 N.C. Gen. Stat. § 7B-311 provides in relevant part that the “Department of Health and Human Services shall
maintain a central registry of abuse, neglect, and dependency cases and child fatalities that are the result of alleged
maltreatment that are reported under the Article .... The Department shall also maintain a list of responsible
individuals.”

15
Case 2:16-cv-00061-FL Document 16 Filed 10/27/17 Page 15 of 19

analysis regarding plaintiffs injury to reputation claims. Accordingly, the court reviews the
magistrate judge’s analysis for clear error. Upon careful review of the record and the M&R and
supplemental M&R, the court adopts in full the analysis of the magistrate judge that recommended
plaintiffs injury to reputation claim regarding plaintiffs placement on the “responsible list” be
allowed to proceed against defendants Burrus, Corprew, Foltz, Harris, Hurd, Lycett, Matusko,
Romm, and Ryder and all other potential injury to reputation claims be dismissed. (Supp. M&R (DE
10) at 16-19).
6.

Claims Against Defendant Doughtie

In objecting to the magistrate judge’s recommendation of dismissal of claims against
defendant Doughtie, who held the position of Sheriff of Dare County at the time of plaintiffs
allegations, plaintiff asserts that the sheriff conspired to obstruct justice by lying to plaintiff that he
needed to be paid to serve her subpoena to acquire EJV’s medical records to present to the court.
(Pl.’s Obj. (DE 11) at 10 (“As the [supplemental] M&R notes, there was no requirement that
Plaintiff pay Sheriff Doughtie to serve her subpoena, however Doughtie claimed that it was a
requirement for all subpoena service, and therefore used that erroneous excuse to block the
fulfilment of that subpoena”).
Plaintiff is correct that there is no requirement for the sheriff to serve her subpoena, as noted
by the magistrate judge, but there is a requirement under North Carolina law for an advance payment
of thirty dollars for each subpoena served. N.C. Gen. Stat. § 7A-311(a). Because plaintiff appears
to allege only that the sheriff lied with respect to whether a fee is required for subpoena service, and
because such a fee is required, the court agrees with the magistrate judge that plaintiffs claims
against the sheriff must and is hereby dismissed without prejudice.

16

Case 2:16-cv-00061-FL Document 16 Filed 10/27/17 Page 16 of 19

7.

Claims against Dare County, Currituck County, and Kill Devil Hills

To plead a § 1983 claim against a municipality or local government entity, a plaintiff must
allege facts sufficient to support a finding that the alleged unconstitutional action was taken pursuant
to an official policy, procedure, or custom of the local governing body. Monell v. Dep’t of Soc.
Servs. of N.Y.C.. 436 U.S. 658, 691 (1978); see also Spell v. McDaniel. 824 F.2d 1380 (4th Cir.
1987).
Plaintiff does not raise specific objections to any component of the magistrate judge’s
analysis regarding plaintiffs claims against Dare County, Currituck County, and Kill Devil Hills.
Accordingly, the court reviews the magistrate judge’s analysis for clear error.
Upon careful review of the record and the M&R and supplemental M&R, the court adopts
in full the analysis of the magistrate judge that recommended plaintiff s claims against Dare County,
Currituck County, and Kill Devil Hills be dismissed. (See M&R (DE 5) at 24-26; Supp. M&R (DE
10) at 29).
8.

Request for Injunction

In her objections to the supplemental M&R and for the first time, plaintiff requests an
injunction against Dare County and District 1, to prevent further “involvement in the lives of
Plaintiffs family members,” noting that adult protective services have again committed Jennifer
Vaughan and that DSS has arranged for the adoption of EJV. (See Pl.’s Obj. (DE 11) at 15-16: see
also id at 15 (“Plaintiff believes that District 1 has set up a well-oiled machine of taking children
from good families for federal monies, and all involved are responsible for violating Plaintiffs, the
mother’s and EJV’s constitutional rights .”)).
Plaintiffmust establish the following to obtain a temporary restraining order or a preliminary

17

Case 2:16-cv-00061-FL Document 16 Filed 10/27/17 Page 17 of 19

injunction: 1) that she is likely to succeed on the merits; 2) that she is likely to suffer irreparable
harm in the absence of preliminary relief; 3) that the balance of equities tips in her favor; and 4) that
an injunction is in the public interest. Winter v. Natural Resources Defense Council. Inc.. 555 U.S.
7, 20 (2008).
Plaintiff s showing is woefully lacking. While certain claims have survived frivolity review,
plaintiff has not demonstrated that she is likely to succeed on the merits of the claims remaining, nor,
among other things, that her request for an injunction is in the public interest. Accordingly,
plaintiffs request for injunctive relied must be and is DENIED.12
CONCLUSION
Based on the foregoing, upon de novo review of those portions of the supplemental M&R
to which objections were raised, and upon considered review of the remaining portions of the
supplemental M&R and M&R, the court ADOPTS IN PART the recommendations of the magistrate
judge, albeit in part on different grounds as set forth herein. The court conducts its own frivolity
review as to claims not previously considered by the magistrate judge. The following claims upon
amended complaint are allowed to proceed:
1)

§1983 claim against defendants Burras, Coprew, Foltz, Lycett, Ryder, Tumage,
McCarron, and Officer Does of the Kill Devil Hills police department arising under
the Fourth Amendment and

1)

§1983 procedural due process claim against defendants Burras, Corprew, Foltz,
Harris, Hurd, Lycett, Matusko, Romm, and Ryder arising under the Fourteenth
Amendment alleging injury to reputation regarding plaintiffs placement on the list

12

Additionally, plaintiff requests attorney’s fees in this action. The Civil Rights Attorney Fee Awards Act
of 1976 permits courts to grant reasonable fees to the “prevailing party” in certain civil rights actions including those
brought pursuant to 42 U.S.C. § 1983. 42 U.S.C. § 1988. However, this explicit statutory authority does not apply to
a successful pro se plaintiff. See Kay v. Ehrler. 499 U.S. 432,438 (1991) (holding that an attorney who successfully
represented himself in a civil rights action was not entitled to an award of attorney’s fees under 42 U.S.C. § 1988). Here,
plaintiff is precluded from receiving attorney’s fees because she is not represented by counsel.

18

Case 2:16-cv-00061-FL Document 16 Filed 10/27/17 Page 18 of 19

X ■

■

of “responsible individuals” pursuant to N.C. Gen. Stat. § 7B-311.
Plaintiff s claims against defendants Reid, Trivette, and Davis are DISMISSED WITH PREJUDICE.
Plaintiffs remaining claims are DISMISSED without prejudice. Plaintiffs attempt to join Jennifer
Vaughan as a party plaintiff is rendered a nullity.
Plaintiffs request for preliminary injunction is DENIED. Plaintiffs request for attorneys
fees is DENIED.
Plaintiff shall prepare summonses for the following defendants who remain: Burrus,
Coprew, Foltz, Lycett, Ryder, Tumage, McCarron, Harris, Hurd, Matusko, and Romm. Plaintiff
must provide an address for each defendant on the summonses. The clerk is directed to send
plaintiff the form for summons with this order. Upon receipt of such proposed summonses,
following clerk’s signature and seal, the court DIRECTS the clerk to coordinate service of
summonses and copies of plaintiffs amended complaint to each defendant by a United States
marshal or deputy marshal. See Fed. R. Civ. P. Rule 4(c)(3). Defendants, absent any extension,
shall have 21 days from date of service within which to respond to the amended complaint as herein
limited. See Fed. R. Civ. P. Rule 12(a).
SO ORDERED, this the 27th day of October, 2017.

\JkO/ISE W. FLANAGM
United States District Judge

19

Case 2:16-cv-00061-FL Document 16 Filed 10/27/17 Page 19 of 19

PETITION FOR CERTIORARI
From 4th Circuit Court of Appeals, Case #19-1409
Originally filed in North Carolina Federal District Court, Case #2:16-cv-00061-FL
SUSAN W. VAUGHAN
v
SHANNON FOLTZ, et al.

Appendix, Rule 14.1 (f): LAWS, Constitutional/Statutory Provisions
Fourth Amendment -

1. 2.3. 7.8. 14,15.16,37-39

2-4. 6-9. 17. 21-24, 26. 27. 29. 31-34. 39. 40
Fourteenth Amendment. Due Process Clause 4. 7, 8, 38-40 (entire document)
42 U.S.C. § 1983
5
Adoption and Safe Families Act of 1997
29
NCGS 7B-100
19
NCGS 7B-101 Definitions. Neglect
2, 3, 5, 6. 8,18-21. 26, 21. 29, 31. 33-35
NCGS 7B-101 (b) -2013. Custodian
15.37.39
NCGS 108A-101 (e) and 104
NCGS 122C-268 (i). inpatient commitment order
11. 38
.22-24, 30-32, 34, 35, 39
NCGS 7B-320. Notification to individual determined to be an Rl
________ 22-24, 31-34
NCGS 7B-323. Petition for judicial review: district court
7. 29
NCGS 7B-401. 2013
3, 4, 6, 17, 18, 20, 25, 30, 31, 39, 40
NCGS 7B-402-(b)
________6, 7,17,18, 25, 28, 29, 35
NCGS 7B-404. 2013
________6, 7, 17, 18, 25, 28, 29, 35
NCGS 7B-405. 2013 ____6, 18, 19, 20, 22, 28, 29, 35, 36
NCGS 7B-406. 2013 _____6, 7,18,19, 20, 22, 28, 29, 35
NCGS 7B-407 -2013 7. 28
NCGS 7B-500 Article 5. Temporary Custody: Nonsecure Custody; Custody Hearings
7. 27. 28
NCGS 7B-501 Duties of person taking juvenile into temporary custody. 7,28
NCGS 7B-502 Authority to issue custody orders; delegation. 28
NCGS 7B-503 Criteria for nonsecure custody
3, 6,19-23, 36
NCGS 7B-506 (b). Nonsecure Custody Hearing
NCGS 7B-900.1. 2013. Post-Adiudication Venue
19
5.34
NCGS 7B-1002. Proper parties for appeal
7.20. 27,28
28 U.S. Code § 1738A (e) Judiciary and Judicial Procedure UCGEA The Uniform Child Custody Jurisdiction and Enforcement Act 3. 6, 7. 18, 20. 27. 28. 35
5
NCGS 50A-106. Effect of child-custody determination
5
UCGEA-102. Definitions
29.36
NCGS 50A 102. Definitions
UCGEA 205. NOTICE: OPPORTUNITY TO BE HEARD: JOINDER
18. 26. 27. 29

1

NCGS 50A-205. Notice; opportunity to be heard; joinder
6. 18. 26. 27. 29
UCCJEA SECTION 209. Information to be submitted to court
3. 4. 6.17.18. 20. 22, 25. 29-31 34.39.40
2. 3. 4. 6. 17. 18. 20, 22. 25. 29-31. 34. 39. 40
NCGS 50A-209. Information to be submitted to court
2. 26
NCGS 50-13.1(bl)

Fourth Amendment - pp. 1, 2, 3,7, 8, 14, 15,16, 37-39
The right of the people to be secure in their persons, houses, papers, and effects, against
unreasonable searches and seizures, shall not be violated, and no Warrants shall issue, but
upon probable cause, supported by Oath or affirmation, and particularly describing the place to
be searched, and the persons or things to be seized [emphasis added].

Fourteenth Amendment, Due Process Clause-pp. 2-4, 6-9,17, 21-24, 26, 27, 29,
31-34, 39, 40
No State shall make or enforce any law which shall abridge the privileges or immunities of
citizens of the United States; nor shall any State deprive any person of life, liberty, or property,
without due process of law; nor deny to any person within its jurisdiction the equal protection
of the laws. [See also how Wallis relates this amendment to this case, p xiii]

42 U.S.C. § 1983-pp. 4, 7, 8, 38-40 (entire document)
"to redress alleged violations of federal civil rights. That statute provides, in relevant part, that:
"Every person who, under color of any statute, ordinance, regulation, custom, or usage, of any
State ... subjects, or causes to be subjected, any citizen of the United States ... to the
deprivation of any rights, privileges, or immunities secured by the Constitution and laws, shall
be liable to the party injured in an action at law, suit in equity, or other proper proceeding for
redress." [Cited in Rees]

Adoption and Safe Families Act (ASFA) of 1997- p. 5
"make reasonable efforts and document child specific efforts to place a child for adoption, with
a relative or guardian."

NCGS 7B-100 - p. 29
Purpose.
This Subchapter shall be interpreted and construed so as to implement the following purposes and
policies:
(1) To provide procedures for the hearing of juvenile cases that assure fairness and equity
and that protect the constitutional rights of juveniles and parents;

2

NCGS7B-101 Definitions, Neglect-pp. 19
(15)
Neglected juvenile. - Any juvenile less than 18 years of age (i) who is found to be a minor
victim of human trafficking under G.S. 14-43.15 or (ii) whose parent, guardian, custodian, or
caretaker does not provide proper care, supervision, or discipline; or who has been abandoned;
or who is not provided necessary medical care; or who is not provided necessary remedial care;
or who lives in an environment injurious to the juvenile's welfare; or the custody of whom has
been unlawfully transferred under G.S. 14-321.2; or who has been placed for care or adoption in
violation of law. In determining whether a juvenile is a neglected juvenile, it is relevant whether
that juvenile lives in a home where another juvenile has died as a result of suspected abuse or
neglect or lives in a home where another juvenile has been subjected to abuse or neglect by an
adult who regularly lives in the home.

NCGS 7B-101 (b) -2013 - pp. 2, 3, 5, 6, 8, 18-21, 26, 27, 29, 31. 33-35
Custodian, the person or agency that has been awarded legal custody of a juvenile by a court or a
person, other than parents or legal guardian, who has assumed the status and obligation of a parent,
[emphasis added]

NCGS 108A-101 (e) and 104 - pp. 37, 39
Provision of protective services with the consent of the person; withdrawal of consent;
caretaker refusal, a) If the director determines that a disabled adult is in need of
protective services, he shall immediately provide or arrange for the provision of
protective services, provided that the disabled adult consents [emphasis added].

NCGS 122C-268 (j) - pp. 11, 38
To support an inpatient commitment order, the court shall find by clear, cogent, and convincing
evidence that the respondent is mentally ill and dangerous to self, as defined in G.S.
122C3(ll)a., or dangerous to others, as defined in G.S. 122C-3(ll)b. The court shall record the
facts that support its findings. (1985, c. 589, s. 2; c. 695, s. 8; 1985 (Reg. Sess., 1986), c. 1014, s.
195(b); 1987 (Reg. Sess., 1988), c. 1037, s. 114; 1989, c. 141, s. 11; 1989 (Reg. Sess., 1990), c.
823, s. 7; 1991, c. 37, s. 10; c. 257, s. 2; 1995 (Reg. Sess., 1996), c. 739, s. 11(a), (b); 2000-144, s.
39; 2014-107, s. 6.1; 2017-158, s. 16; 2018-33, s. 29.)

NCGS 7B-320- pp. 22-24, 30-32, 34, 35, 39
Notification to individual determined to be a responsible individual.
After the completion of an investigative assessment response that results in a
(a)
determination of abuse or serious neglect and the identification of a responsible individual, the
director shall personally deliver written notice of the determination to the identified individual in
an expeditious manner [emphasis added].
The notice shall include all of the following:
(c)

3

(1)

A statement informing the individual of the nature of the investigative
assessment response and whether the director determined abuse or serious
neglect or both.
(la) A statement that the individual has been identified as a responsible
individual.
A statement summarizing the substantial evidence supporting the director's
(2)
determination without identifying the reporter or collateral contacts.
A
statement informing the individual that unless the individual petitions for
(3)
judicial review, the individual's name will be placed on the responsible
individuals list as provided in G.S. 7B-311, and that the Department of Health
and Human Services may provide information from this list to child caring
institutions, child placing agencies, group home facilities, and other providers
of foster care, child care, or adoption services that need to determine the
fitness of individuals to care for or adopt children.
A clear description of the actions the individual must take to seek judicial
(4)
review of the director's determination.
In addition to the notice, the director shall provide the individual with a copy of a
(d)
petition for judicial review form. (2005-399, s. 3; 2010-90, s. 5; 2013-129, s. 4; 2019-33, s. 3.)

NCGS 7B-323 - pp. 22-24, 31-34
Petition for judicial review; district court.
(a) Within 15 days of the receipt of notice of the director's determination under G.S. 7B320(a)... an individual may file a petition for judicial review with the district court of the county
in which the abuse or serious neglect report arose. The request shall be by a petition for judicial
review filed with the appropriate clerk of court's office with a copy delivered in person or by
certified mail, return receipt requested, to the director who determined the abuse or serious
Failure to timely file a petition
neglect and identified the individual as a responsible individual
for judicial review constitutes a waiver of the individual's right to a district court hearing and to
contest the placement of the individual's name on the responsible individuals list [emphasis
added].
(al) If the director cannot show that the individual has received actual notice, the director
shall not place the individual on the responsible individuals list until an ex parte hearing is held at
which a district court judge determines that the director made diligent efforts to find the
individual. A finding that the individual is evading service is relevant to the determination that
the director made diligent efforts.
(b) The clerk of court shall maintain a separate docket for judicial review actions. Upon the
filing of a petition for judicial review, the clerk shall calendar the matter for hearing within 45
days from the date the petition is filed at a session of district court hearing juvenile matters or, if
there is no such session, at the next session of juvenile court. The clerk shall send notice of the
hearing to the petitioner and to the director who determined the abuse or serious neglect and
identified the individual as a responsible individual.
(bl) Upon receipt of a notice of hearing for judicial review, the director who identified the
individual as a responsible individual shall review all records, reports, and other information
4

gathered during the investigative assessment response. If after a review, the director determines
that there is not sufficient evidence to support a determination that the individual abused or
seriously neglected the juvenile and is a responsible individual, the director shall prepare a
written statement of the director's determination and either deliver the statement personally to
the individual seeking judicial review or send the statement by first-class mail. The director shall
also give written notice of the director's determination to the clerk to be placed in the court file,
and the judicial review hearing shall be cancelled with notice of the cancellation given by the clerk
to the petitioner [emphasis added].

NCGS 7B-401, 2013 - pp. 7, 28, 29, 35
Pleading and process.
(a) The pleading in an abuse, neglect, or dependency action is the petition. The process in
an abuse, neglect, or dependency action is the summons.

NCGS 7B-402-(b) - pp. 3, 4, 6, 17,18, 20, 25, 30, 31, 39, 40
The petition, or an affidavit attached to the petition shall contain the information required by
GS 50A-209.

NCGS 7B-404, 2013 - pp. 6, 7, 17, 18, 25, 28, 29, 35
Immediate Need for Petition When Clerk's Office Is Closed. [DE-98, #9]
(b) The authority of the magistrate under this section is limited to emergency situations...

NCGS 7B-405, 2013 - pp. 6, 7, 17, 18, 25, 28, 29, 35
Commencement of Action. An action is commenced by the filing of a petition in the clerk's
office when that office is open or by the acceptance of a juvenile petition by a magistrate when
the clerk's office is closed.

NCGS 7B-406, 2013 - pp. 6, 18, 19, 20, 22, 28, 29, 35, 36
Issuance of Summons. [DE-98, #9]
a) Immediately after a petition has been filed alleging that a juvenile is abused, neglected or
dependent the clerk shall issue a summons to each party named in the petition, except the
juvenile, requiring them to appear for a hearing at the time and place stated in the
summons. A copy of the petition shall be attached to each summons, [emphasis added]

NCGS 7B-407 -2013 - pp. 6, 7, 18, 19, 20, 22, 28, 29, 35
Service of Summons. [DE-98, #9]
The summons shall be served under G.S. 1A-1, Rule 5, upon the parent, guardian, custodian, or
caretaker, not less than five days prior to the date of the scheduled hearing.

5

NCGS 7B-500- pp. 7, 28
Article 5. Temporary Custody; Nonsecure Custody; Custody Hearings [NCGS 7B-500. This section
deals with emergency removals, which do not apply to plaintiffs case.]
Taking a juvenile into temporary custody; civil and criminal immunity.
Temporary custody means the taking of physical custody and providing personal care
(a)
and supervision until a court order for nonsecure custody can be obtained. A juvenile may be
taken into temporary custody without a court order by a law enforcement officer or a
department of social services worker if there are reasonable grounds to believe that the
juvenile is abused, neglected, or dependent and that the juvenile would be injured or could not
be taken into custody if it were first necessary to obtain a court order.

NCGS 7B-501 - pp. 7, 27, 28
Duties of person taking juvenile into temporary custody.
a) A person who takes a juvenile into custody without a court order under G.S. 7B-500 shall
proceed as follows:
1.Notify the juvenile's parent, guardian, custodian, or caretaker that the juvenile has been taken
into temporary custody and advise the parent, guardian, custodian, or caretaker of the right to
be present with the juvenile until a determination is made as to the need for nonsecure custody.
Failure to notify the parent that the juvenile is in custody shall not be grounds for release of the
juvenile.

NCGS 7B-502 - pp. 7, 28
Authority to issue custody orders; delegation.
In the case of any juvenile alleged to be within the jurisdiction of the court, the court
(a)
may order that the juvenile be placed in nonsecure custody pursuant to criteria set out
in G.S. 7B503 when custody of the juvenile is necessary.

NCGS 7B-503 - p. 29
Criteria for nonsecure custody [see.NC DHHS Screening Tools]
(a)
When a request is made for nonsecure custody, the court shall first consider release of
the juvenile to the juvenile's parent, relative, guardian, custodian, or other responsible adult. An
order for nonsecure custody shall be made only when there is a reasonable factual basis to
believe the matters alleged in the petition are true, and any of the following apply:
(1)
The juvenile has been abandoned.
(2)
The juvenile has suffered physical injury, sexual abuse, or serious emotional
damage as defined by G.S. 7B-101(1) e.
(3)
The juvenile is exposed to a substantial risk of physical injury or sexual abuse
because the parent, guardian, custodian, or caretaker has created the
conditions likely to cause injury or abuse or has failed to provide, or is unable
to provide, adequate supervision or protection.
(4)
The juvenile is in need of medical treatment to cure, alleviate, or prevent
suffering serious physical harm which may result in death, disfigurement, or
6

(5)
(6)

substantial impairment of bodily functions, and the juvenile's parent,
guardian, custodian, or caretaker is unwilling or unable to provide or consent
to the medical treatment.
The parent, guardian, custodian, or caretaker consents to the nonsecure
custody order.
The juvenile is a runaway and consents to nonsecure custody.

NCGS 7B-506 (b) - pp. 3, 6, 19-23, 36
(b)
At a hearing to determine the need for continued custody, the court shall receive
testimony and shall allow the parties the right to introduce evidence, to be heard in the
person's own behalf, and to examine witnesses. The petitioner shall bear the burden at every
stage of the proceedings to provide clear and convincing evidence that the juvenile's placement
in custody is necessary.

NCGS 7B-900.1, 2013 - p. 19
Post-Adjudication Venue
a) At any time after adjudication, the court on its own motion or motion of any party may
transfer venue to a different county/regardless of whether the action could have been
commenced in that county, if the court finds that the forum is in convenient, that
transfer of the action to the other county is in the best interest of the juvenile, and that
the rights of the parties are not prejudiced by the change of venue, [emphasis added].

NCGS 7B-1002. Proper parties for appeal - pp. 5, 34
Appeal from an order permitted under G.S. 7B-1001 may be taken by:
(1)
A juvenile acting through the juvenile's guardian ad litem previously
appointed under G.S. 7B-601.
(2)
A juvenile for whom no guardian ad litem has been appointed under G.S.
7B601. If such an appeal is made, the court shall appoint a guardian ad litem
pursuant to G.S. 1A-1, Rule 17 for the juvenile for the purposes of that
appeal.
(3)
A county department of social services.
(4)
A parent, a guardian appointed under G.S. 7B-600 or Chapter 35A of the
General Statutes, or a custodian as defined in G.S. 7B-101 who is a nonprevailing party.
(5)
Any party that sought but failed to obtain termination of parental rights.
(1979,

c. 815, s. 1; 1998-202, s. 6; 1999-456, s. 60; 2005-398, s. 11.)
[Note - does not include Plaintiff because DSS hid her status as EJV's Custodian, and referred to
PL only as Caretaker, which is not consider a party with right of appeal. Therefore section 7B320 was PL's only provision to contest the allegations, and she was denied that opportunity.]

7

28 U.S. Code § 1738A (e) - pp. 7, 20, 27, 28
Title 28 Judiciary and Judicial Procedure
Before a child custody or visitation determination is made, reasonable notice and opportunity
to be heard shall be given to the contestants, any parent whose parental rights have not been
previously terminated and any person who has physical custody of a child.

UCCJEA- pp. 3, 6, 7, 18, 20, 27, 28, 35
The Uniform Child Custody Jurisdiction and Enforcement Act (UCCJEA)
"One key purpose of the UCGEA is to 'provide a uniform set of jurisdictional rules and
guidelines for the national enforcement of child custody orders.' In re J.W.S., 194 N.C. App. 439,
446 (2008); see GS 50A-101 Official Comment. The UCCJEA defines when a court has subject
matter jurisdiction of a child custody proceeding, which includes abuse, neglect, and
dependency actions (A/N/D). See GS 50A-102(4) "UNC School of Law Blog "Jurisdiction in A/N/D
Cases"
In North Carolina, UCCJEA - pp. 6, 27, 29
laws are found under GS Chapter 50A

§ 50A-106.
Effect of child-custody determination. A child-custody determination made by a court of this
State that had jurisdiction under this Article binds all persons who have been served in
accordance with the laws of this State or notified in accordance with G.S. 50A-108 or who have
submitted to the jurisdiction of the court and who have been given an opportunity to be
heard. As to those persons, the determination is conclusive as to all decided issues of law and
fact except to the extent the determination is modified. (1979, c. 110, s.l; 1999-223, s. 3.) [bold
added].

UCCJEA 102-p. 29
Definitions. In this Article: (3) "Child-custody determination" means a judgment, decree, or
other order of a court providing for the legal custody, physical custody, or visitation with
respect to a child. The term includes a permanent, temporary, initial, and modification order.
(4) "Child custody proceeding" means a proceeding in which legal custody, physical custody, or
visitation with respect to a child is an issue. The term includes a proceeding for divorce,
separation, neglect, abuse, dependency, guardianship, paternity, termination of parental rights,
and protection from domestic violence in which the issue may appear.

NCGS 50A 102 - p. 29
"Child-custody proceeding" means a proceeding in which legal custody, physical custody, or visitation
with respect to a child is an issue. The term includes a proceeding for divorce, separation, neglect,
abuse, dependency, guardianship, paternity, termination of parental rights, and protection from
domestic violence in which the issue may appear

8

UCCJEA SECTION 205 - pp. 6,18, 26, 27, 29
NOTICE; OPPORTUNITY TO BE HEARD; JOINDER, (a) Before a child-custody determination is
made under this [Act], notice and an opportunity to be heard in accordance with the standards
of Section 108 must be given to all persons entitled to notice under the law of this State as in
child custody proceedings between residents of this State, any parent whose parental rights
have not been previously terminated, and any person having physical custody of the child.
"Comment" Parents whose parental rights have not been previously terminated and persons
having physical custody of the child are specifically mentioned as persons who must be given
notice. The PKPA, § 1738A(e), requires that they be given notice in order for the custody
determination to be entitled to full faith and credit under that Act.

NCGS 50A-205 - pp. 18, 27
Notice; opportunity to be heard; joinder, (a) Before a child-custody determination is made
under this Article, notice and an opportunity to be heard in accordance with the standards of
G.S. 50A108 must be given to all persons entitled to notice under the law of this State as in
child-custody proceedings between residents of this State, any parent whose parental rights
have not been previously terminated, and any person having physical custody of the child
[emphasis added].

UCCJEA - SECTION 209 - pp. 3, 4, 6, 17, 18, 20, 22, 25, 29-31, 34, 39, 40
INFORMATION TO BE SUBMITTED TO COURT.
(a) [Subject to [local law providing for the confidentiality of procedures, addresses, and other
identifying information], in] [In] a child-custody proceeding, each party, in its first pleading
or in an attached affidavit, shall give information, if reasonably ascertainable, under oath as
to the child's present address or whereabouts, the places where the child has lived during
the last five years, and the names and present addresses of the persons with whom the
child has lived during that period. The pleading or affidavit must state whether the party:
(3) knows the names and addresses of any person not a party to the proceeding who has
physical custody of the child or claims rights of legal custody or physical custody of, or
visitation with, the child and, if so, the names and addresses of those persons.
(b) If the information required by subsection (a) is not furnished, the court, upon motion of a
party or its own motion, may stay the proceeding until the information is furnished
[emphasis added]
The Affidavit form is found here:
https://www.nccourts.gov/assets/documents/forms/cv609.pdf7VrQuFFklauY0PPwlZ .tlnlRRLHPvWNG '
The information asked for is:
"I, the undersigned affiant, being first duly sworn, say that during the past five (5) years the abovenamed minor child has lived as follows:"
Period of Residence
Address
Name of Person Lived with
Present Address of Person
From To

Present

9

NCGS 50A-209 - pp. pp. 2, 3, 4, 6, 17,18, 20, 22, 25, 29-31, 34, 39, 40
Information to be submitted to court, (a) In a child-custody proceeding, each party, in its first
pleading or in an attached affidavit, shall give information, if reasonably ascertainable, under
oath as to the child's present address or whereabouts, the places where the child has lived
during the last five years, and the names and present addresses of the persons with whom
the child has lived during that period. The pleading or affidavit must state whether the party
(3) Knows the names and addresses of any person not a party to the proceeding who has
physical custody of the child or claims rights of legal custody or physical custody of, or visitation
with, the child and, if so, the names and addresses of those persons.
(c) If the information required by subdivisions (a) is not furnished, the court, upon motion
of a party or its own motion, may stay the proceeding until the information is furnished
[emphasis added].

NCGS 50-13.l(bl) - pp. 2, 26
Biologically related grandparents lose any rights to visitation with a grandchild if the child is
adopted by parents not related to the child.
"Under no circumstances shall a biological grandparent of a child adopted by adoptive parents,
neither of whom is related to the child and where parental rights of both biological parents
have been terminated, be entitled to visitation rights."

10

Additional material
from this filing is
available in the
Clerk's Office.

